No. 19-___
IN THE

Supreme Court of the United States
_________
MARK JANUS,
Petitioner,
v.
AMERICAN FEDERATION OF STATE, COUNTY, AND
MUNICIPAL EMPLOYEES, COUNCIL 31, ET AL.,
Respondents.
_________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
_________
PETITION FOR WRIT OF CERTIORARI
_________
JEFFREY M. SCHWAB
LIBERTY JUSTICE CENTER
190 South LaSalle Street
Suite 1500
Chicago, IL 60603
(312) 263-7668

WILLIAM L. MESSENGER
Counsel of Record
AARON B. SOLEM
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION, INC.
8001 Braddock Road
Suite 600
Springfield, VA 22160
(703) 321-8510
wlm@nrtw.org
Counsel for Petitioner

QUESTION PRESENTED
Is there a “good faith defense” to 42 U.S.C. § 1983
that shields a defendant from damages liability for depriving citizens of their constitutional rights if the defendant acted under color of a law before it was held
unconstitutional?

(i)

ii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
Petitioner, a Plaintiff-Appellant in the court below,
is Mark Janus.
Respondents, Defendants-Appellees in the court below, are American Federation of State, County, and
Municipal Employees, Council 31; Simone McNeil, in
her official capacity as the Acting Director of the Illinois Department of Central Management Services;
and Illinois Attorney General Kwame Raoul.
Other parties to the original proceedings below who
are not Petitioners or Respondents include plaintiffs
Illinois Governor Bruce Rauner, Brian Trygg, and Marie Quigley, and defendant General Teamsters/Professional & Technical Employees Local Union No. 916.
Because no Petitioner is a corporation, a corporate
disclosure statement is not required under Supreme
Court Rule 29.6.

TABLE OF CONTENTS
Page
QUESTION PRESENTED.......................................... i
PARTIES TO THE PROCEEDINGS AND
RULE 29.6 STATEMENT .........................................ii
TABLE OF AUTHORITIES........................................ v
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTES INVOLVED ............................................ 1
STATEMENT OF THE CASE ................................... 2
REASONS FOR GRANTING THE PETITION ......... 5
A. The Seventh and Ninth Circuits Misconstrue
This Court’s Decision in Wyatt .............................. 7
B. The Seventh and Ninth Circuits’ Reliance
Defense Conflicts with Section 1983’s Text,
Retroactivity Law, and Equitable Principles ...... 11
1. A Statutory Reliance Defense Is Incompatible
with Section 1983’s Text and History ............ 11
2. The Seventh and Ninth Circuits’ Reliance
Defense Conflicts with Reynoldsville Casket. 13
3. The Seventh and Ninth Circuits’ Reliance
Defense Is Inequitable and Inconsistent
with Section 1983’s Legislative Purposes ...... 15
C.

It Is Important That the Court Finally Resolve
Whether Congress Provided a Good Faith
Defense to Section 1983 .................................... 18

CONCLUSION .......................................................... 21

(iii)

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX
Opinion of the U.S. Court of Appeals for the
Seventh Circuit, 942 F.3d 352 (Nov. 5, 2019) ........ 1a
Opinion and Judgment of the U.S. District Court
for the Northern District of Illinois
(Mar. 18, 2019) ...................................................... 31a
Order of the U.S. Court of Appeals for the Seventh
Circuit (Sept. 24, 2018)......................................... 40a
Opinion of the Supreme Court of the United States,
138 S. Ct. 2448 (June 27, 2018) ........................... 42a
Opinion of the U.S. Court of Appeals for the Seventh
Circuit (Mar. 21, 2017) ....................................... 131a
Decision of the U.S. District Court for the Northern
District of Illinois (Sept. 13, 2016) ..................... 136a
Order of the U.S. Court of Appeals for the Seventh
Circuit Denying Rehearing En Banc (Dec. 12,
2019) .................................................................... 138a

TABLE OF AUTHORITIES
Page(s)
CASES
Abood v. Detroit Bd. of Educ.,
431 U.S. 209 (1977).............................................. 2, 4
Danielson v. Inslee,
945 F.3d 1096 (9th Cir. 2019) ....................... passim
Guidry v. Sheet Metal Workers Nat’l Pension Fund,
493 U.S. 365 (1990)................................................ 15
Harper v. Va. Dep't of Taxation,
509 U.S. 86 (1993).................................................. 13
Imbler v. Pachtman,
424 U.S. 409 (1976)................................................ 12
Janus v. AFSCME, Council 31,
138 S. Ct. 2448 (2018).................................... passim
Janus v. AFSCME, Council 31,
942 F.3d 352 (7th Cir. 2019) ...................................1
Jordan v. Fox, Rothschild, O’Brien & Frankel,
20 F.3d 1250 (3d Cir. 1994) ................................... 10
Lee v. Ohio Educ. Ass'n,
2020 WL 881265 (6th Cir., Feb. 24, 2020) ..............5
Lugar v. Edmonson Oil Co.,
457 U.S. 922 (1982)........................................ 4, 5, 18
Manuel v. City of Joliet,
137 S. Ct. 911 (2017)................................................7
(v)

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Olge v. Ohio Civ. Serv. Emps. Ass'n,
No. 19-3701 (6th Cir., Mar. 5, 2020) .......................5
Owen v. City of Indep.,
445 U.S. 622 (1980).................................... 15, 16, 17
Pinsky v. Duncan,
79 F.3d 306 (2d Cir. 1996) ..................................... 10
Rehberg v. Paulk,
566 U.S. 356 (2012).......................................... 12, 13
Reynoldsville Casket Co. v. Hyde,
514 U.S. 749 (1995)...................................... 6, 13, 14
Richardson v. McKnight,
521 U.S. 399 (1997).................................. 5, 8, 13, 18
Tenn. Valley Auth. v. Hill,
437 U.S. 153 (1978) ................................................ 21
Tower v. Glover,
467 U.S. 914 (1984)................................................ 15
Wyatt v. Cole,
504 U.S. 158 (1992)........................................ passim
Wyatt v. Cole,
994 F.2d 1113 (5th Cir. 1993) ............................... 10
Ziglar v. Abbasi,
137 S. Ct. 1843 (2017)............................................ 20

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Constitution & Statutes
U.S. Const.
amend. I ......................................................... passim
Federal Statutes
28 U.S.C. § 1254(1) ..................................................1
42 U.S.C. § 1983............................................. passim
Other Authorities
Joanna C. Schwartz, The Case Against Qualified
Immunity, 93 Notre Dame L. Rev. 1797 (2018) .... 20
William Baude, Is Qualified Immunity Unlawful?,
106 Cal. L. Rev. 45 (2018) ..................................... 20

OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Seventh Circuit review of which is sought is
reported at 942 F.3d 352 (2019) and reproduced at
Pet.App. 1a. The Seventh Circuit’s order denying rehearing en banc is reproduced at Pet.App. 138a. The
Seventh Circuit’s opinion affirmed the United States
District Court for the Northern District of Illinois’ unreported order granting defendants summary judgment. Pet.App. 31a.
This Court’s earlier opinion is reported as Janus v.
AFSCME, Council 31, 138 S. Ct. 2448 (2018) (Pet.App.
42a). It reversed the Seventh Circuit’s opinion reported at 851 F.3d 746 (2017) (Pet.App. 131a), which
had affirmed the district court’s order dismissing the
complaint (Pet.App. 136a).
JURISDICTION
The Seventh Circuit entered judgment on November
5, 2019 (Pet.App. 1a), and denied a petition for rehearing en banc on December 12, 2019 (Pet.App. 138a).
This Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTES INVOLVED
Section 1983, 42 U.S.C. § 1983, states:
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the jurisdiction thereof to the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws, shall be liable to the party injured in an action at law, suit in equity, or other

2
proper proceeding for redress, except that in any
action brought against a judicial officer for an act
or omission taken in such officers judicial capacity, injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief was unavailable.
STATEMENT OF THE CASE
Petitioner Mark Janus was an Illinois state employee who was forced to pay agency fees to AFSCME
Council 31 against his will. Pet.App. 47a. On June 27,
2018, this Court in Janus held these fee seizures violated Janus’ First Amendment rights. Id. at 48a. The
Court overruled its precedent that allowed unions to
seize agency fees from employees—Abood v. Detroit
Board of Education, 431 U.S. 209 (1977)—and found
Illinois’ agency fee statute unconstitutional. Pet.App.
97a.
In Janus, this Court recognized that “unions have
been on notice for years regarding this Court’s misgiving about Abood” and that, since at least 2012, “any
public-sector union seeking an agency-fee provision in
a collective-bargaining agreement must have understood that the constitutionality of such a provision
was uncertain.” Id. at 94a. The Court also lamented
the “considerable windfall” that unions wrongfully received from employees during prior decades: “[i]t is
hard to estimate how many billions of dollars have

3
been taken from nonmembers and transferred to public-sector unions in violation of the First Amendment.”
Id. at 96a.
On remand, Janus sought damages from AFSCME
for agency fees it unconstitutionally seized from him.
Id. at 10a. Janus did so under Section 1983, which
provides that “[e]very person who, under color of any
statute” deprives citizens of their constitutional rights
“shall be liable to the party injured in an action at
law[.]” 42 U.S.C. § 1983.
The district court, however, held that a so-called
“good faith defense” renders defendants who acted under color of a then thought valid statute not liable to
injured parties in an action at law. Pet.App. 35a. On
that basis, the district court denied Janus damages
and granted AFSCME summary judgment. Id. at 37a.
The Seventh Circuit affirmed and later denied a petition for rehearing en banc. Id. at 28a, 138a. The
court held that “under appropriate circumstances, a
private party that acts under color of law for purposes
of section 1983 may defend on the ground that it proceeded in good faith.” Id. at 21a. More specifically, the
court “recognize[d] a good‐faith defense in section
1983 actions when the defendant reasonably relies on
established law.” Id. at 25a. The Seventh Circuit also
found that AFSCME’s reliance on Illinois’ agency fee

4
statute and Abood, when seizing agency fees from Janus, relieved the union from having to return Janus’
monies to him. Id. at 26a–28a.
The Seventh Circuit identified no basis in Section
1983’s text for its new reliance-on-established-law defense. The court claimed the “Supreme Court abandoned . . . long ago” the proposition that courts must
strictly abide by Section 1983’s text “when [the Court]
recognized that liability under section 1983 is subject
to common-law immunities that apply to all manner
of defendants.” Id. at 18a.
Nor did the Seventh Circuit identify any historical
common law basis for its reliance defense, claiming
that inquiry to be a “fool’s errand.” Id. at 24a. The
court acknowledged “there is no common-law history
before 1871 of private parties enjoying a good-faith defense to constitutional claims.” Id. at 21a.
The Seventh Circuit instead found a good faith defense to Section 1983 because it believed that this
Court’s decisions in Wyatt v. Cole, 504 U.S. 158 (1992)
and Lugar v. Edmondson Oil Co., 457 U.S. 922 (1982)
were “a strong signal that the Court intended (when
the time was right) to recognize a good faith defense
in section 1983 actions when the defendant reasonably relies on established law.” Pet.App. 25a. The Seventh Circuit also believed that other courts recognized
a good faith defense for this reason. Id. at 20a.
Those conclusions are incorrect in many respects.
See infra 7-11. However, the Seventh Circuit was cor-

5
rect in observing that, in the wake of Janus, many district courts have held “there is a good-faith defense to
liability for payments [unions] collected before Janus
II.” Pet.App. 21a. After the Seventh Circuit’s decision,
the Ninth Circuit similarly held that a reliance defense shields unions from compensating victims of
their fee seizures. Danielson v. Inslee, 945 F.3d 1096,
1101 (9th Cir. 2019). Like the Seventh Circuit, the
Ninth Circuit believed that this Court’s decision in
Wyatt suggested the lower courts should recognize
that defense to Section 1983. Id.1
REASONS FOR GRANTING THE PETITION
Three times this Court has raised, but then not decided, the question of whether there exists a good faith
defense to Section 1983. See Richardson v. McKnight,
521 U.S. 399, 413 (1997); Wyatt, 504 U.S. at 169; Lugar, 457 U.S. at 942 n.23. The Court should now resolve this important question to disabuse the lower
courts of the rapidly spreading notion that a defendant acting under color of a statute before it is held unconstitutional is a defense to Section 1983.

1

Shortly before the filing of this petition, panels of the Sixth
Circuit recognized a good faith defense, albeit on different
grounds. See Olge v. Ohio Civil Service Employees Ass’n, No. 193701, ECF No. 41 (6th Cir. Mar. 5, 2020) (per curiam); Lee v. Ohio
Educ. Ass’n, 2020 WL 881265 (6th Cir. Feb. 24, 2020). Given that
a petition for rehearing en banc is likely in Ogle, the exact state
of the law in this Circuit is unsettled at the time of writing.

6
This defense is not the defense members of this
Court suggested in Wyatt. Several Justices in that
case wrote that good faith reliance on a statute could
defeat the malice and probable cause elements of a
Section 1983 claim arising from malicious prosecution
or an abuse of a judicial process. 504 U.S. at 167 n.2
(majority opinion); id. at 172 (Kennedy J., concurring);
id. at 176 n.1 (Rehnquist C.J., dissenting). Those Justices, however, were not suggesting that a defendant
relying on a not yet invalidated statute is a defense to
all Section 1983 claims for damages.
There is no statutory basis for such a reliance defense. It cannot be reconciled with Section 1983’s text,
which makes acting “under color of any statute” an element of the statute that renders defendants “liable
to the party injured in an action at law.” 42 U.S.C.
§ 1983. Nor can a reliance defense be reconciled with
Reynoldsville Casket Co. v. Hyde, 514 U.S. 749, 753–
54 (1995), which held that lower courts cannot frustrate the retroactive effect of this Court’s decisions by
creating remedies based on a defendant’s reliance on
a statute before it was held unconstitutional.
The Ninth Circuit in Danielson claimed that equity—“principles of equality and fairness,” 945 F.3d.
at 1101— justifies a reliance defense. But courts cannot create equitable exemptions to congressionally enacted statutes like Section 1983. Even if they could,
fairness to victims of constitutional deprivations supports enforcing the statute as written.

7
The Court should reject the proposition that a defendant relying on a law before it is invalidated exempts a defendant from compensating injured parties
under Section 1983. It is important that the Court do
so. Unless corrected, the lower courts’ misapprehension of Wyatt will cause tens of thousands of victims of
agency fee seizures to go uncompensated for their injuries. It will also result in victims of other constitutional deprivations not being made whole for their injuries. The petition should be granted.
A. The Seventh and Ninth Circuits Misconstrue
This Court’s Decision in Wyatt.
Section 1983 provides a cause of action for the “deprivation of any rights, privileges, or immunities secured by the Constitution and laws.” 42 U.S.C. § 1983.
The elements of different constitutional deprivations
vary considerably. “In defining the contours and prerequisites of a § 1983 claim . . . courts are to look first
to the common law of torts.” Manuel v. City of Joliet,
137 S. Ct. 911, 920 (2017). “Sometimes, that review of
common law will lead a court to adopt wholesale the
rules that would apply in a suit involving the most
analogous tort.” Id. “But not always. Common-law
principles are meant to guide rather than to control
the definition of § 1983 claims.” Id. at 921.
The claim in Wyatt was that a private defendant deprived the plaintiff of due process of law when seizing
his property under an ex parte replevin statute. 504
U.S. at 161. The Court found the plaintiff’s due process claims analogous to “malicious prosecution and

8
abuse of process,” and recognized that at common law
“private defendants could defeat a malicious prosecution or abuse of process action if they acted without
malice and with probable cause.” Id. at 164–65; see id.
at 172–73 (Kennedy. J., concurring) (similar).
The issue in Wyatt was whether the defendant was
entitled to qualified immunity. Id. at 161. The Court
determined that “[e]ven if there were sufficient common law support to conclude that respondents . . .
should be entitled to a good faith defense, that would
still not entitle them to what they sought and obtained
in the courts below: the qualified immunity from suit
accorded government officials . . . .” Id. at 165. The
reason was, the “rationales mandating qualified immunity for public officials are not applicable to private
parties.” Id. at 167.
Wyatt left open whether Section 1983 defendants
could raise “an affirmative defense based on good faith
and/or probable cause.” Id. at 168–69. As the Court
later explained in Richardson, where the Court again
declined to decide that question, “Wyatt explicitly
stated that it did not decide whether or not the private
defendants before it might assert, not immunity, but
a special ‘good-faith’ defense.” 521 U.S. at 413.
Contrary to the conclusions of the Seventh Circuit
and other courts, the good faith defense suggested in
Wyatt was not a broad statutory reliance defense to all
Section 1983 damages claims. Rather, several Justices suggested a defense to the malice and probable

9
cause elements of Section 1983 claims that are analogous to malicious prosecution and abuse of process
claims. This is clear from all three opinions in Wyatt.
First, Chief Justice Rehnquist, in his dissenting
opinion joined by Justices Thomas and Souter, explained it is a “misnomer” to use the term good faith
“defense” because “under the common law, it was
plaintiff’s burden to establish as elements of the tort
both that the defendant acted with malice and without probable cause.” 504 U.S. at 176 n.1. “Referring to
the defendant as having a good faith defense is a useful shorthand for capturing plaintiff’s burden and the
related notion that a defendant could avoid liability by
establishing either a lack of malice or the presence of
probable cause.” Id.
Second, Justice Kennedy, in his concurring opinion
joined by Justice Scalia, agreed that “it is something
of a misnomer to describe the common law as creating
a good faith defense; we are in fact concerned with the
essence of the wrong itself, with the essential elements of the tort.” Id. at 172. Justice Kennedy explained that “the common-law tort actions most analogous to the action commenced here are malicious
prosecution and abuse of process,” and that in both actions “it was essential for the plaintiff to prove the
wrongdoer acted with malice and without probable
cause.” Id. Justice Kennedy found that because “a private individual’s reliance on a statute, prior to a judicial determination of unconstitutionality, is considered reasonable as a matter of law . . . lack of probable

10
cause can only be shown through proof of subjective
bad faith.” Id. at 174.
Third, Justice O’Connor’s majority opinion in Wyatt
recognized that the good faith defense discussed in the
dissenting and concurring opinions was in reality the
malice and probable cause elements of claims analogous to malicious prosecution. Id. at 166 n.2. The majority opinion found that “[o]ne could reasonably infer
from the fact that a plaintiff’s malicious prosecution
or abuse of process action failed if she could not affirmatively establish both malice and want of probable cause that plaintiffs bringing an analogous suit
under § 1983 should be required to make a similar
showing to sustain a § 1983 cause of action.” Id..
On remand in Wyatt, the Fifth Circuit recognized
that this Court “focused its inquiry on the elements of
these torts.” Wyatt v. Cole, 994 F.2d 1113, 1119 (5th
Cir. 1993). It therefore found “that Appellants seeking
to recover on these theories were required to prove
that defendants acted with malice and without probable cause.” Id. The Third and Second Circuits followed suit in cases also arising from abuses of judicial
processes and held the defendants could defeat the
malice and probable cause elements of those claims by
showing good faith reliance on a statute. See Jordan
v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d 1250,
1276 & n.31 (3d Cir. 1994); Pinsky v. Duncan, 79 F.3d
306, 312–13 (2d Cir. 1996).
The Seventh Circuit was wrong in interpreting Wyatt to be “a strong signal that the Court intended

11
(when the time was right) to recognize a good faith defense in section 1983 actions when the defendant reasonably relies on established law.” Pet. App. 25a. The
Seventh Circuit was also wrong in believing the Fifth,
Third, and Second Circuits had recognized such a defense. Id. at 20a. Wyatt merely suggested, and those
appellate courts later only found, that good faith reliance on existing law can defeat the malice and probable cause elements of certain Section 1983 claims.
That limited defense does not help AFSCME because malice and lack of probable cause are not elements of a First Amendment claim under Janus. Under Janus, a union deprives public employees of their
First Amendment rights by taking their money without affirmative consent. 138 S. Ct. at 2486. A union’s
intent when so doing is immaterial. The limited good
faith defense members of this Court actually suggested in Wyatt offers no protection to unions that violated dissenting employees’ First Amendment rights
by seizing agency fees from them. The Court should
grant review to clarify what it intended in Wyatt.
B. The Seventh and Ninth Circuits’ Reliance
Defense Conflicts with Section 1983’s Text,
Retroactivity Law, and Equitable Principles.
1. A Statutory Reliance Defense Is Incompatible
with Section 1983’s Text and History.
The Seventh and Ninth Circuits’ new defense to Section 1983 not only lacks a basis in this Court’s precedents, it conflicts with the statute’s text. Section 1983

12
states, in relevant part, that “[e]very person who, under color of any statute, ordinance, regulation, custom, or usage, of any State” deprives a citizen of a constitutional right “shall be liable to the party injured in
an action at law, suit in equity, or other proper proceeding for redress.” 42 U.S.C. § 1983 (emphasis
added). Section 1983 means what it says. “Under the
terms of the statute, ‘[e]very person who acts under
color of state law to deprive another of a constitutional
right [is] answerable to that person in a suit for damages.’” Rehberg v. Paulk, 566 U.S. 356, 361 (2012)
(quoting Imbler v. Pachtman, 424 U.S. 409, 417
(1976)).
The Seventh and Ninth Circuits turn Section 1983
on its head by holding that persons who act under
color of a not yet invalidated state law to deprive others of a constitutional right are not liable to the injured parties in an action for damages. The courts
have effectively declared a statutory element of Section 1983—that defendants must act under color of
state law—to be a defense to Section 1983. Given that
defendants generally cannot invoke state laws already declared unconstitutional, defendants in Section 1983 actions will almost always act under color of
state laws that had not been held invalid at the time.
Under the Seventh and Ninth Circuit decisions, acting under color of a state law yet to be held unconstitutional is now a potential defense to all Section 1983
damages claims.
It is telling that the Seventh and Ninth Circuits
make no attempt to square their defense with Section

13
1983’s text. The Seventh Circuit claims this Court
“abandoned” strictly following Section 1983’s language when recognizing immunities. Pet.App. 18a. To
the contrary, the Court has held that “[w]e do not
simply make our own judgment about the need for immunity,” and “do not have a license to create immunities based solely on our view of sound policy.” Rehberg,
566 U.S. at 363. The Court accords an immunity only
when a “‘tradition of immunity was so firmly rooted in
the common law and was supported by such strong
policy reasons that Congress would have specifically
so provided had it wished to abolish the doctrine’
when it enacted Section 1983.’” Richardson, 521 U.S.
at 403 (quoting Wyatt, 504 U.S. at 164).
Unlike with qualified immunities, which this Court
has found have a statutory basis, there is no statutory
basis for the Seventh and Ninth Circuits’ reliance defense. “[T]here is no common-law history before 1871
of private parties enjoying a good-faith defense to constitutional claims.” Pet.App. 21a. The policy reasons
that justify qualified immunities generally do not apply to private defendants. Wyatt, 504 U.S. at 165-67.
There is nothing in Section 1983’s text, or in commonlaw history, that supports the reliance defense created
by the Seventh and Ninth Circuits.
2. The Seventh and Ninth Circuits’ Reliance
Defense Conflicts with Reynoldsville Casket.
This Court’s decision in Janus is retroactive under
the rule announced in Harper v. Virginia Department

14
of Taxation, 509 U.S. 86, 97 (1993). The reliance defense the Seventh and Ninth Circuits fashioned to defeat Janus’ retroactive effect is indistinguishable from
the reliance defense this Court held invalid for violating retroactivity principles in Reynoldsville Casket.
Reynoldsville Casket concerned an Ohio statute that
effectively granted plaintiffs a longer statute of limitations for suing out-of-state defendants. 514 U.S. at
751. This Court had earlier held the statute unconstitutional. Id. An Ohio state court, however, permitted
a plaintiff to proceed with a lawsuit that was filed under the statute before this Court invalidated it. Id. at
751-52. The plaintiff asserted this was a permissible,
equitable remedy because she relied on the statute before it was held unconstitutional. Id. at 753 (describing the state court’s remedy “as a state law ‘equitable’
device [based] on reasons of reliance and fairness”).
This Court rejected that contention, holding the state
court could not do an end run around retroactivity by
creating an equitable remedy based on a party’s reliance on a statute later held unconstitutional by this
Court. Id. at 759.
The Seventh and Ninth Circuits engaged in just
such an end run. They created an equitable defense
based on a defendant’s reliance on a statute this Court
later deemed unconstitutional. The reliance defense
the Seventh and Ninth Circuits created conflicts with
this Court’s Reynoldsville Casket precedent.

15
3.

The Seventh and Ninth Circuits’ Reliance
Defense Is Inequitable and Inconsistent with
Section 1983’s Legislative Purposes.
The Seventh Circuit identified no statutory basis for
the reliance defense it created. The Ninth Circuit,
however, asserts the defense is equitable in nature,
and is grounded in “principles of equality and fairness.” Danielson, 945 F.3d. at 1101.
a. This “fairness” rationale is inadequate on its own
terms. Courts cannot refuse to enforce federal statutes
because they believe it unfair to do so. “As a general
matter, courts should be loath to announce equitable
exceptions to legislative requirements or prohibitions
that are unqualified by the statutory text.” Guidry v.
Sheet Metal Workers Nat’l Pension Fund, 493 U.S.
365, 376 (1990). “It is for Congress to determine
whether § 1983 litigation has become too burdensome
. . . and if so, what remedial action is appropriate.”
Tower v. Glover, 467 U.S. 914, 922–23 (1984).
In any event, fairness to victims of constitutional
deprivations requires enforcing Section 1983’s text as
written. It is not fair to make Janus and other employees pay for AFSCME’s unconstitutional conduct. Nor
is it fair to let wrongdoers like AFSCME keep ill-gotten gains. “[E]lemental notions of fairness dictate that
one who causes a loss should bear the loss.” Owen v.
City of Indep., 445 U.S. 622, 654 (1980).
The Court wrote those words in Owen when holding
that Section 1983’s legislative purposes did not justify

16
extending good-faith immunity to municipalities. The
Court’s reasons for so holding apply here.
First, the Court reasoned that “many victims of municipal malfeasance would be left remediless if the city
were also allowed to assert a good faith defense,” and
that “[u]nless countervailing considerations counsel
otherwise, the injustice of such a result should not be
tolerated.” Id. at 651. So too here. It would be an injustice to leave innocent victims of agency fee seizures
and other constitutional violations remediless for
their injuries.
Second, the Court recognized that Congress enacted
Section 1983 to “serve as a deterrent against future
constitutional deprivations.” Id. at 651. “The
knowledge that a municipality will be liable for all of
its injurious conduct, whether committed in good faith
or not, should create an incentive for officials who may
harbor doubts about the lawfulness of their intended
actions to err on the side of protecting citizens’ constitutional rights.” Id. at 651–52. This deterrence interest also weighs against a reliance defense, which will
encourage defendants to risk infringing on constitutional rights by limiting their exposure for so doing.
AFSMCE’s conduct illustrates the point. Rather
than choose to “err on the side of protecting citizens’
constitutional rights,” id., AFSCME chose to seize
agency fees from Janus and his co-workers after the
constitutionality of those seizures was very much in
doubt, see Janus, 138 S. Ct. at 2484–85 (Pet. App.
94a). AFSCME even rejected a plan to place disputed

17
fees in escrow after this case was filed, see Pet.App.
26a, so it could squeeze out every last dollar from Janus and other dissenting employees before the Court
stopped its unconstitutional seizures.
Third, the Owen Court reasoned that “even where
some constitutional development could not have been
foreseen by municipal officials, it is fairer to allocate
the resulting loss” to the entity that caused the harm
“than to allow its impact to be felt solely by those
whose rights, albeit newly recognized, have been violated.” 445 U.S. at 654. So too here. It is not fair to
have Janus pay for AFSCME’s unconstitutional conduct. Equity favors requiring AFSCME to return the
monies it unconstitutionally seized from him.
b. As for the Ninth Circuit’s conclusion that principles of “equality” justify extending to private defendants a defense similar to the immunity enjoyed by
some public defendants, Danielson, 945 F.3d. at 1101,
that proposition makes little sense. That AFSCME is
not entitled to qualified immunity is not reason to create a similar defense for it. Courts do not award defenses to parties as consolation prizes for failing to
meet the criteria for an immunity.
Even if principles of equality required treating AFSCME like its closest government counterpart, that
still would not entitle AFSCME to an immunity-like
defense. A large organization like AFSCME is nothing
like individual persons who enjoy qualified immunity.
AFSCME is most like a governmental body that lacks
qualified immunity—a municipality. Owen, 445 U.S.

18
at 654. “It hardly seems unjust to require a municipal
defendant which has violated a citizen’s constitutional
rights to compensate him for the injury suffered
thereby.” Id. Nor is it unjust to require a large organization, like AFSCME, to compensate citizens for violating their constitutional rights.
Neither fairness nor equality justify the reliance defense the Seventh and Ninth Circuits recognized. Rather, both principles weigh against carving out this
exemption in Section 1983’s remedial framework.
C. It Is Important That the Court Finally
Resolve Whether Congress Provided a Good
Faith Defense to Section 1983.
In at least three prior cases the Court questioned,
but then opted not to decide, whether Congress has
provided private defendants with a good faith defense.
See Richardson, 521 U.S. at 413; Wyatt, 504 U.S. at
169; Lugar, 457 U.S. at 942 n.23. It is time for the
Court to finally resolve the matter.
The Court should end the growing misconception
among lower courts that this Court in Wyatt signaled
that private defendants should be granted a broad reliance defense to Section 1983 liability akin to qualified immunity. In the wake of Janus, a chorus of district courts have interpreted Wyatt in that way. See
Pet.App. 21a–22a. Yet Wyatt did not suggest such a
defense, but merely suggested that reliance on a statute could defeat the malice and lack-of-probable cause
elements of claims analogous to malicious prosecution

19
and abuse of process claims. See supra 7-11. The Court
should explain what it meant in Wyatt.
It is important that the Court do so quickly because
whether tens of thousands of victims of agency fee seizures can receive compensation hangs in the balance.
District courts in roughly two dozen cases, most of
which were filed as class actions, have held that a
good faith defense exempts unions from having to pay
damages to employees whose First Amendment rights
the unions violated. See Danielson, 945 F.3d at 1104
n.7 (collecting most cases). Without this Court’s review, the Seventh and Ninth Circuit’s decisions in Janus and Danielson and the uniform decisions of district courts in other circuits are likely to doom all such
cases. The Court should grant review so the employees in these suits can recover a portion of the “windfall,” Janus, 138 S. Ct. at 2486, of compulsory fees unions wrongfully seized from them.
The importance of the question presented extends
beyond victims of agency fee seizures to victims of
other constitutional deprivations. Under the Seventh
and Ninth Circuits’ rulings, any defendant lacking immunity could assert as a defense to a Section 1983
claim that it relied on established law. This includes
not only all private defendants, but also municipalities. Defendants could raise the defense against any
constitutional claim actionable under Section 1983,
including discrimination based on race, faith, or political affiliation. The courts would have to adjudicate
this defense. More importantly, plaintiffs who would
otherwise receive damages for their injuries will be

20
remediless unless this Court rejects this new judicially created defense to Section 1983 liability.
Doctrinal reasons also counsel granting review.
Members of this Court and legal scholars have raised
concerns that the Court’s qualified immunity jurisprudence has become unmoored from Section 1983’s
text and from its historical, common law basis. See
Ziglar v. Abbasi, 137 S. Ct. 1843, 1871–73 (2017)
(Thomas, J., concurring); William Baude, Is Qualified
Immunity Unlawful?, 106 Cal. L. Rev. 45 (2018); Joanna C. Schwartz, The Case Against Qualified Immunity, 93 Notre Dame L. Rev. 1797 (2018). The Seventh and Ninth Circuits are now further stretching
that law beyond its breaking point by creating from
whole cloth a defense to Section 1983 for defendants
who lack qualified immunity.
When announcing their new defense, both courts
disregarded Section 1983’s text as if it were irrelevant. Both courts shunned the proposition that they
needed to identify a historical common law basis for
their defense. The Seventh Circuit called doing so a
“fool’s errand,” Pet.App. 24a, and acknowledged
“there is no common-law history before 1871 of private
parties enjoying a good-faith defense to constitutional
claims,” id. at 21a. The Ninth Circuit asserted that
“even qualified immunity law is no longer constrained
by a common law tort analogy,” and scoffed that “[i]t
would be an odd result for an affirmative defense
grounded in concerns for equality and fairness to
hinge upon historical idiosyncrasies and strained legal analogies for causes of action with no clear parallel

21
in nineteenth century tort law,” Danielson, 945 F.3d
at 1101.
The Seventh and Ninth Circuits’ belief that courts
can create defenses to Section 1983 with no basis in
its text, its history, or in common law is troubling.
“[I]n our constitutional system the commitment to the
separation of powers is too fundamental for [courts] to
pre-empt congressional action by judicially decreeing
what accords with ‘common sense and the public
weal.’” Tenn. Valley Auth. v. Hill, 437 U.S. 153, 195
(1978). The Court should grant review to clarify that
immunities and defenses to Section 1983 must rest on
a firm statutory basis, and that the new reliance defense recognized below lacks any such basis.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
JEFFREY M. SCHWAB
LIBERTY JUSTICE CENTER
190 South LaSalle Street
Suite 1500
Chicago, IL 60603
(312) 263-7668
March 9, 2020

WILLIAM L. MESSENGER
Counsel of Record
AARON B. SOLEM
c/o NATIONAL RIGHT TO
WORK LEGAL DEFENSE
FOUNDATION
8001 Braddock Rd., Suite
Suite 600
Springfield, VA
(703) 321-8510
wlm@nrtw.org

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
————
No. 19-1553
————
MARK JANUS,
Plaintiff-Appellant,
v.
AMERICAN FEDERATION OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES, COUNCIL 31; AFL-CIO, et al.,
Defendants-Appellees,
and
KWAME RAOUL, in his official capacity as
Attorney General of the State of Illinois,
Intervenor-Defendant-Appellee.
————
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No.1:15-cv-01235 – Robert W. Gettleman, Judge.
————
Argued September 20, 2019
Decided November 5, 2019
————
Before WOOD, Chief Judge, and MANION and
ROVNER, Circuit Judges.
WOOD, Chief Judge. For 41 years, explicit Supreme
Court precedent authorized state-government entities

2a
and unions to enter into agreements under which the
unions could receive fair-share fees from nonmembers
to cover the costs incurred when the union negotiated
or acted on their behalf over terms of employment.
Abood v. Detroit Bd. of Educ., 431 U.S. 209 (1977). To
protect nonmembers’ First Amendment rights, fairshare fees could not support any of the union’s political
or ideological activities. Relying on Abood, more than
20 states created statutory schemes that allowed the
collection of fair-share fees, and public-sector employers and unions in those jurisdictions entered into collective bargaining agreements pursuant to these laws.
In 2018, the Supreme Court reversed its prior
position and held that compulsory fair-share or agency
fee arrangements impermissibly infringe on employees’ First Amendment rights. Janus v. AFSCME,
Council 31, 138 S. Ct. 2448, 2461 (2018). The question
before us now is whether Mark Janus, an employee
who paid fair-share fees under protest, is entitled to a
refund of some or all of that money. We hold that he is
not, and so we affirm the judgment of the district
court.
I
A. History of Agency Fees
Before turning to the specifics of the case before us,
we think it useful to take a brief tour of the history
behind agency fees. This provides useful context for
our consideration of Mr. Janus’s claim and the system
he challenged.
The principle of exclusive union representation lies
at the heart of our system of industrial relations; it is
reflected in both the Railway Labor Act (“RLA”), 45
U.S.C. §§ 151–165 (first enacted in 1926), and the
National Labor Relations Act (“NLRA”), 29 U.S.C.

3a
§§ 151–169 (first enacted in 1935). In its quest to
provide for “industrial peace and stabilized labormanagement relations,” Congress authorized employers and labor organizations to enter into agreements
under which employees could be required either
to be union members or to contribute to the costs
of representation—so-called “agency-shop” arrangements. See 29 U.S.C. §§ 157, 158(a)(3); 45 U.S.C. § 152
Eleventh. Unions designated as exclusive representatives were (and still are) obligated to represent all
employees, union members or not, “fairly, equitably,
and in good faith.” H.R. Rep. No. 2811, 81st Cong., 2d
Sess., p. 4.
In Railway Employment Dep’t v. Hanson, 351 U.S.
225 (1956), a case involving the RLA, the Supreme
Court held that “the requirement for financial support
of the collective-bargaining agency by all who receive
the benefits of its work is within the power of Congress
under the Commerce Clause and does not violate
either the First or the Fifth Amendments.” Id. at 231.
In approving agency-shop arrangements, the Court
said, “Congress endeavored to safeguard against [the
possibility that compulsory union membership would
impair freedom of expression] by making explicit that
no conditions to membership may be imposed except
as respects ‘periodic dues, initiation fees, and assessments.’” Id. Hanson thus held that the compulsory
payment of fair-share fees did not contravene the First
Amendment.
Several years later, in Int’l Ass’n of Machinists v.
Street, 367 U.S. 740 (1961), the Court discussed the
careful balancing of interests reflected in the RLA,
observing that “Congress did not completely abandon
the policy of full freedom of choice embodied in the
[RLA], but rather made inroads on it for the limited

4a
purposes of eliminating the problems created by the
‘free rider.’” Id. at 767. The Court reaffirmed the lawfulness of agency-shop arrangements while cautioning
that unions could receive and spend nonmembers’ fees
only in accordance with the terms “advanced by the
unions and accepted by Congress [to show] why
authority to make union shop agreements was justified.” Id. at 768. Legitimate expenditures were limited
to those designed to cover “the expenses of the negotiation or administration of collective agreements, or the
expenses entailed in the adjustment of grievances and
disputes.” Id. The Court left the question whether
state public agencies were similarly empowered under
state law to enter into agency-shop arrangements for
another day.
That day came on May 23, 1977, when the Supreme
Court issued its opinion in Abood, 431 U.S. 209. There,
a group of public-school teachers challenged Michigan’s
labor relations laws, which were broadly modeled on
federal law. Id. at 223. Michigan law established
an exclusive representation scheme and authorized
agency-shop clauses in collective bargaining agreements between public-sector employers and unions.
Id. at 224. The Court upheld that system, stating that
“[t]he desirability of labor peace is no less important
in the public sector, nor is the risk of ‘free riders’ any
smaller,” id., and that “[t]he same important government interests recognized in the Hanson and Street
cases presumptively support the impingement upon
associational freedom created by the agency shop here
at issue.” Id. at 225. It recognized that “government
may not require an individual to relinquish rights
guaranteed him by the First Amendment as a condition of public employment.” Id. at 233–34. Nonetheless, it said that a public employee has no “weightier First Amendment interest than a private employee

5a
in not being compelled to contribute to the costs of
exclusive union representation,” id. at 229, and thus
concluded that “[t]he differences between public- and
private-sector collective bargaining simply do not
translate into differences in First Amendment rights.”
Id. at 232.
The correct balance, according to Abood, was to
“prevent[] compulsory subsidization of ideological
activities by employees who object thereto without
restricting the Union’s ability to require every employee to contribute to the cost of collective-bargaining
activities.” Id. at 237. And for four decades following
Abood, courts, state public-sector employers, and unions
followed this path. See, e.g., Locke v. Karass, 555 U.S.
207 (2009); Lehnert v. Ferris Faculty Ass’n, 500 U.S.
507 (1991); Chicago Teachers Union v. Hudson, 475
U.S. 292 (1986); Ellis v. Railway Clerks, 466 U.S. 435
(1984). Agency-shop arrangements, the Court repeatedly held, were consistent with the First Amendment
and validly addressed the risk of free riding. See
Comm’cns Workers of America v. Beck, 487 U.S. 735,
762 (1988) (“Congress enacted the two provisions for
the same purpose, eliminating ‘free riders,’ and that
purpose dictates our construction of § 8(a)(3) . . . .”);
Ellis, 466 U.S. at 447, 452, 456 (referring in three
places to the free-rider concern); see also Lehnert, 500
U.S. at 556 (Scalia, J., concurring).
In time, however, the consensus on the Court began
to fracture. Beginning in Knox v. Serv. Emps. Int’l
Union, 567 U.S. 298 (2012), the rhetoric changed.
Abood began to be characterized as an “anomaly,”
and the Court started paying more attention to the
“significant impingement on First Amendment rights”
Abood allowed and less to the balancing of employees’
rights and unions’ obligations. Id. at 310–11. Building

6a
on Knox, Harris v. Quinn criticized the reasoning in
Hanson and Abood as “thin,” “questionable,” and “troubling.” 573 U.S. 616, 631–35 (2014). Harris worried
that Abood had “failed to appreciate the conceptual
difficulty of distinguishing between union expenditures that are made for collective-bargaining purposes
and those that are made to achieve political ends” and
to anticipate “the practical administrative problems
that would result.” Id. at 637. The Harris Court also
suggested that “[a] union’s status as exclusive bargaining agent and the right to collect an agency fee
from non-members are not inextricably linked.” Id. at
649.
Nonetheless, and critically for present purposes,
these observations did not lead the Court in Harris
to overrule Abood. Informed observers thought that
Abood was on shaky ground, but it was unclear
whether it would weather the storm, be restricted, or
be overturned in its entirety. That uncertainty continued after the Court signaled its intention to revisit the
issue in Friedrichs v. California Teachers Ass’n, 135 S.
Ct. 2933 (2015), which wound up being affirmed by an
equally divided Court. 136 S. Ct. 1083 (2016).
B. Janus’s Case
Plaintiff Mark Janus was formerly a child-support
specialist employed by the Illinois Department of
Healthcare and Family Services. Through a collective
bargaining agreement between Illinois’s Department
of Central Management Services (“CMS”) (which handles human resources tasks for Illinois’s state agencies) and defendant American Federation of State,
County and Municipal Employees (“AFSCME”), Council 31, AFSCME was designated as the exclusive
representative of Mr. Janus’s employee unit. Mr.
Janus exercised his right not to join the union. He also

7a
objected to CMS’s withholding $44.58 from his paycheck each month to compensate AFSCME for representing the employee unit in collective bargaining,
grievance processing, and other employment-related
functions.
Initially, however, Mr. Janus was not involved in
this litigation. The case began instead when the thengovernor of Illinois challenged the Illinois Public
Labor Relations Act (“IPLRA”), which established
an exclusive representation scheme and authorized
public employers and unions to enter into collective
bargaining agreements that include a fair-share fee
provision. 5 ILCS § 315/6. Under that law, a union
designated as the exclusive representative of an
employee unit was “responsible for representing the
interests of all public employees in the unit,” whether
union members or not, § 315/6(d). Fair-share fees were
earmarked to compensate the union for costs incurred
in “the collective bargaining process, contract administration and pursuing matters affecting wages, hours
and conditions of employment.” § 315/6(e).
The district court dismissed the governor for lack of
standing, but at the same time it permitted Mr. Janus
(and some others) to intervene as plaintiffs. Mr. Janus
asserted that the state’s compulsory fair-share scheme
violated the First Amendment. He recognized that
Abood stood in his way, but he argued that Abood was
wrongly decided and should be overturned by the high
court. Although the lower courts that first considered
his case rejected his position on the ground that they
were bound by Abood, see Janus v. AFSCME, Council
31, 851 F.3d 746, 747–48 (7th Cir. 2017) (“Janus I”),
Janus preserved his arguments and then, as he had
hoped, the Supreme Court took the case.

8a
This time, the Court overruled Abood. Janus, 138 S.
Ct. at 2486 (“Janus II”). It held that agency-shop
arrangements that require nonmembers to pay fairshare fees and thereby “subsidize private speech on
matters of substantial public concern,” are inconsistent with the First Amendment rights of objectors,
no matter what interest the state identifies in its
authorizing legislation. 138 S. Ct. at 2460. This is so,
the Court explained, because “the First Amendment
does not permit the government to compel a person to
pay for another party’s speech just because the government thinks that the speech furthers the interests of
the person who does not want to pay.” Id. at 2467.
Several aspects of the Court’s opinion are relevant
to Mr. Janus’s current claim for damages. First, the
Court characterized the harm inflicted by the agencyfee arrangement as “compelled subsidization of private speech,” 138 S. Ct. at 2464, whereby “individuals
are coerced into betraying their convictions,” id. It was
not concerned in the abstract with the deduction of
money from employees’ paychecks pursuant to an
employment contract. Rather, the problem was the
lack of consent (where it existed) to the use of that
money—i.e. to support the union’s representation
work. In other words, the case presented a First
Amendment speech issue, not one under the Fifth
Amendment’s Takings clause.
The Court found that any legitimate interest
AFSCME had in those fees had to yield to the objecting
employees’ First Amendment rights. In so doing, it
rejected the approach to free riding that earlier opinions had taken, holding to the contrary that “avoiding
free riders is not a compelling interest” and thus
Illinois’s statute could not withstand “exacting
scrutiny.” 138 S. Ct. at 2466. Yet it came to that con-

9a
clusion only after weighing the costs and benefits to a
union of having exclusive representative status: on the
one hand, the union incurs the financial burden
attendant to the requirement to provide fair representation even for nonmembers who decline to contribute anything to the cost of its services; on the other
hand, even with payments of zero from objectors, the
union still enjoys the power and attendant privileges
of being the exclusive representative of an employee
unit. The Court’s analysis focused on the union rather
than the nonmembers: the question was whether
requiring a union to continue to represent those who
do not pay even a fair-share fee would be sufficiently
inequitable to establish a compelling interest, not
whether requiring nonmembers to contribute to the
unions would be inequitable.
Nor did the Court hold that Mr. Janus has an
unqualified constitutional right to accept the benefits
of union representation without paying. Its focus was
instead on freedom of expression. That is why it said
only that the state may not force a person to pay fees
to a union with which she does not wish to associate.
But if those unions were not designated as exclusive
representatives (as they are under 5 ILCS §§ 315/6
and 315/9), there would be no obligation to act in the
interests of nonmembers. The only right the Janus II
decision recognized is that of an objector not to pay any
union fees. This is not the same as a right to a free
ride. Free-riding is simply a consequence of exclusivity; drop the duty of fair representation, and the union
would be free to cut off all services to the nonmembers.
Finally, the Court did not specify whether its decision was to have retroactive effect. The language it
used, to the extent that it points any way, suggests
that it was thinking prospectively: “Those unconstitu-

10a
tional exactions cannot be allowed to continue indefinitely,” 138 S. Ct. at 2486; “States and public-sector
unions may no longer extract agency fees from nonconsenting employees,” id; “This procedure violates the
First Amendment and cannot continue,” id. In the end,
however, the Court remanded the case to the district
court for further proceedings, in particular those
related to remedy. Id. at 2486.
C. District Court Proceedings
The most immediate effect of the Court’s Janus II
opinion was CMS’s prompt cessation of its collection of
fees from Mr. Janus and all other nonmembers of the
union, and thus the end of AFSCME’s receipt of those
monies. That relief was undoubtedly welcome for those
such as Mr. Janus who fundamentally disagree with
the union’s mission, but matters did not stop there.
Still relying on 42 U.S.C. § 1983 for his right of action,
Mr. Janus followed up on the Court’s decision with a
request for damages from AFSCME in the amount of
all fair-share fees he had paid. The State of Illinois
joined the litigation as an intervenor-defendant in
support of AFSCME.
The district court entered summary judgment for
AFSCME and Illinois on March 18, 2019. Janus v.
AFSCME, Council 31, No. 15 C 1235, 2019 WL
1239780 (N.D. Ill. Mar. 18, 2019) (“Janus III”). It
began with the observation that in 1982, the Supreme
Court held that private defendants could in some circumstances act “under color of state law” for purposes
of section 1983 by participating in state-created procedural schemes. Lugar v. Edmondson Oil Co., Inc.,
457 U.S. 922, 941–42 (1982). Although such private
defendants are not entitled to the identical immunity
defenses that apply to public defendants, the Court
later indicated, they may be entitled to an affirmative

11a
defense based on good faith or probable cause. Wyatt
v. Cole, 504 U.S. 158, 169 (1992) (“Wyatt I”). Noting
that “every federal appellate court that has considered
the good-faith defense [to a damages action] has found
that it exists for private parties,” the court followed
that rule and found that the defense applies here. The
key question, it said, is whether the defendant’s reliance on an existing law was in good faith. Given the
fact that “the statute on which defendant relied had
been considered constitutional for 41 years,” it found
good faith. In so doing, it rejected the idea that earlier
intimations from the Court that Abood ought to be
overruled undermined the necessary good faith.
Accordingly, it held that Mr. Janus was not entitled to
damages.
Mr. Janus timely filed a notice of appeal on March
27, 2019. We heard oral argument in both Mr. Janus’s
appeal and a related case, Mooney v. Ill. Educ. Ass’n,
No. 19-1774, on September 20, 2019. The predicate for
each case is the same—the Supreme Court’s decision
in Janus II—but whereas Mr. Janus seeks damages
from the union, Mooney insists that her claim lies in
equity and is one for restitution. As we explain in more
detail in a separate opinion filed in Mooney, we find no
substantive difference in the two theories of relief, and
so much of what we have to say here also applies to
Mooney’s case.
II
This appeal presents only questions of law. Accordingly, we review the district court’s grant of summary
judgment in favor of AFSCME de novo. Mazzai v.
Rock-N-Around Trucking, Inc., 246 F.3d 956, 959 (7th
Cir. 2001).

12a
A. Retroactivity
We begin with the question whether Janus II is
retroactive. If it is not, that is the end of the line
for Mr. Janus, because the union’s collection of fairshare fees was expressly permitted by state law and
Supreme Court precedent from the time he started his
covered work until the Court’s decision, which all
agree marked the end of his payments. If it is, then we
must reach additional questions that also bear on the
proper resolution of the case. As we noted earlier, the
Supreme Court’s opinion did not address retroactivity
in so many words.
Mr. Janus relies primarily on Harper v. Virginia
Dep’t of Taxation, 509 U.S. 86 (1993), for the proposition that “a rule of federal law, once announced and
applied to the parties to the controversy, must be given
full retroactive effect by all courts adjudicating federal
law.” Id. at 97; see also Reynoldsville Casket Co. v.
Hyde, 514 U.S. 749, 752 (1995) (“Harper. . . held that,
when (1) the Court decides a case and applies the
(new) legal rule of that case to the parties before it,
then (2) it and other courts must treat that same (new)
legal rule as ‘retroactive,’ applying it, for example, to
all pending cases, whether or not those cases involve
predecision events.”). Mr. Janus’s assertion is that all
Supreme Court cases, without exception, “must be applied retroactively.” AFSCME responds that “[i]t is not
at all clear, in the first place, that the Supreme Court’s
decision in this case is to be applied retroactively.”
We agree with AFSCME that the rules of retroactivity are not as unbending as Mr. Janus postulates.
Even in Harper, the Court said only that its “consideration of remedial issues meant necessarily that
we retroactively applied the rule we announced . . . to
the litigants before us.” 509 U.S. at 99. Right and

13a
remedy are two different things, and the Court has
taken great pains to evaluate them separately. See,
e.g., Franklin v. Gwinnett Cnty. Pub. Schs., 503 U.S.
60, 65–66 (1992) (“As we have often stated, the question of what remedies are available under a statute
that provides a private right of action is ‘analytically
distinct’ from the issue of whether such a right exists
in the first place.”).
Retroactivity poses some knotty problems. The
Supreme Court disapproved of what it called “selective
prospectivity” in Harper (that is, application of the
new rule to the party before the court but not to all
others whose cases were pending), but it did not close
the door on “pure prospectivity”—i.e., wholly prospective force, equally inapplicable to the parties in the
case that announces the rule and all others—as used
in Lemon v. Kurtzman, 411 U.S. 192 (1973) (“Lemon
II”). In that case, after invalidating a Pennsylvania
program permitting nonpublic sectarian schools to
be reimbursed for secular educational services, see
Lemon v. Kurtzman, 403 U.S. 602 (1971) (“Lemon I”),
the Court affirmed a district court order permitting
the state to reimburse the schools for all services
performed up to the date of Lemon I. Lemon II, 411
U.S. at 194. One could argue that similar reliance
interests on the part of AFSCME and the state argue
for pure prospectivity here.
On the other hand, in later decisions the Supreme
Court has stated that the “general practice is to apply
the rule of law we announce in a case to the parties
before us . . . even when we overrule a case.” Agostini
v. Felton, 521 U.S. 203, 237 (1997). Only when there is
“grave disruption or inequity involved in awarding
retrospective relief to the petitioner” does the option of
pure prospectivity come into play. Ryder v. United

14a
States, 515 U.S. 177, 184–85 (1995). See also Suesz v.
Med‐1 Sols., LLC, 757 F.3d 636, 650 (7th Cir. 2014) (en
banc).
Rather than wrestle the retroactivity question to the
ground, we think it prudent to assume for the sake of
argument that the right recognized in Janus II should
indeed be applied to the full sweep of people identified
in Harper (that is, Mr. Janus himself and all others
whose cases were in the pipeline at the time of the
Court’s decision). That appears also to be the approach
the district court took. We thus turn to the broader
question whether Mr. Janus is entitled to the remedy
he seeks.
B. Requirements under Section 1983
Section 1983 supports a civil claim against “every
person who, under color of any statute . . . of any
State . . . subjects, or causes to be subjected, any citizen
of the United States . . . to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws.” 42 U.S.C. § 1983.
1. AFSCME is a “person” that can be sued
To be liable under section 1983 a defendant must be
a “person” as Congress used that term. While “person”
is a broad word, the Supreme Court has held that
states do not fall within its compass. See Will v.
Michigan Dep’t of State Police, 491 U.S. 58 (1989). But
it is hard to find other exclusions. The union, as an
unincorporated organization, is a suable “person,” and
we are satisfied that it is sufficiently like other entities
that have been sued under section 1983 to permit this
action. Compare Monell v. Dep’t of Soc. Servs. of City
of New York, 436 U.S. 658, 690 (1978) (municipalities
and other local government units are “persons” for purposes of section 1983); Walsh v. Louisiana High School

15a
Athletic Ass’n, 616 F.2d 152, 156 (5th Cir. 1980) (voluntary association of schools); Frohwerk v. Corr. Med.
Servs., 2009 WL 2840961 (N.D. Ind. Sept. 1, 2009)
(prison contractors). Cf. Citizens United v. Fed.
Election Comm’n, 558 U.S. 310 (2010).
2. AFSCME acted “under color of” state law
The next question is whether AFSCME acted under
color of state law. Unions generally are private organizations. See, e.g., Hallinan v. Fraternal Order of
Police of Chi. Lodge No. 7, 570 F.3d 811, 815 (7th Cir.
2009). Nonetheless, private actors sometimes fall
within the statute. See Lugar, 457 U.S. at 935. Indeed,
the “color of law” requirement for section 1983 is more
expansive than, and wholly encompasses, the “state
action” requirement under the Fourteenth Amendment. Id. For our purposes, the analysis is the same—
if AFSCME’s receipt from CMS of the fair-share fees
is attributable to the state, then the “color of law”
requirement is satisfied.
A “procedural scheme created by . . . statute obviously is the product of state action” and “properly may
be addressed in a section 1983 action.” Id. at 941.
“[W]hen private parties make use of state procedures
with the overt, significant assistance of state officials,
state action may be found.” Tulsa Prof’l Collection
Servs., Inc. v. Pope, 485 U.S. 478 (1988); see also Apos‐
tol v. Landau, 957 F.2d 339, 343 (7th Cir. 1992). Here,
AFSCME was a joint participant with the state in the
agency-fee arrangement. CMS deducted fair-share
fees from the employees’ paychecks and transferred
that money to the union, which then spent it on
authorized labor-management activities pursuant to
the collective bargaining agreement. This is sufficient
for the union’s conduct to amount to state action. We

16a
therefore conclude that AFSCME is a proper defendant under section 1983.
C. Statute of Limitations
Mr. Janus’s claim is also timely under the applicable
statute of limitations. Section 1983 does not have its
own organic statute of limitations but rather borrows
the state statute of limitations for personal-injury
actions. Wilson v. Garcia, 471 U.S. 261, 279 (1985). In
Illinois, this is two years. 735 ILCS § 5/13–202. “The
claim accrues when the plaintiff knows or should know
that his or her constitutional rights have been violated.” Draper v. Martin, 664 F.3d 1110, 1113 (7th Cir.
2011).
In this case, the statute began running on the date
of the Supreme Court’s decision in Janus II: June 27,
2018. Mr. Janus neither knew nor should have known
any earlier that his constitutional rights were violated, because before then it was the settled law of the
land that the contrary was true. Thus, his suit is
timely.
III
A. Existence of Good-faith Defense
We now turn to the ultimate question in this case:
to what remedy or remedies is Mr. Janus entitled? As
the Supreme Court wrote in Davis v. United States,
564 U.S. 229 (2011), retroactivity and remedy are
distinct questions. “Retroactive application does not . . .
determine what ‘appropriate remedy’ (if any) the
defendant should obtain.” Id. at 243; see also Ameri‐
can Trucking Ass’ns, Inc. v. Smith, 496 U.S. 167, 189
(1990) (plurality opinion) (“[T]he Court has never
equated its retroactivity principles with remedial
principles. . . .”). It thus does not necessarily follow

17a
from retroactive application of a new rule that the
defendant will gain the precise type of relief she seeks.
See Powell v. Nevada, 511 U.S. 79, 84 (1994). To the
contrary, the Supreme Court has acknowledged that
the retroactive application of a new rule of law does
not “deprive[] respondents of their opportunity to
raise . . . reliance interests entitled to consideration in
determining the nature of the remedy that must be
provided.” James B. Beam Distilling Co. v. Georgia,
501 U.S. 529, 544 (1991).
Sometimes the law recognizes a defense to certain
types of relief. An example that comes readily to mind
is the qualified immunity doctrine, which is available
for a public employee if the asserted constitutional
right that she violated was not clearly established.
See, e.g., Ashcroft v. al-Kidd, 563 U.S. 731 (2011). We
must decide whether a union may raise any such
defense against its liability for the fair-share fees it
collected before Janus II.
This is a matter of first impression in our circuit.
But, as the district court noted, every federal appellate
court to have decided the question has held that, while
a private party acting under color of state law does not
enjoy qualified immunity from suit, it is entitled to
raise a good-faith defense to liability under section
1983. See Clement v. City of Glendale, 518 F.3d 1090,
1096–97 (9th Cir. 2008); Pinsky v. Duncan, 79 F.3d
306, 311–12 (2d Cir. 1996); Vector Research, Inc. v.
Howard & Howard Attorneys P.C., 76 F.3d 692, 698–
99 (6th Cir. 1996); Jordan v. Fox, Rothschild, O’Brien
& Frankel, 20 F.3d 1250, 1275–78 (3d Cir. 1994);
Wyatt v. Cole, 994 F.2d 1113, 1118–21 (5th Cir. 1993)
(“Wyatt II”).
Mr. Janus takes issue with this consensus position.
He points to the text of section 1983, which we grant

18a
says nothing about immunities or defenses. That, he
contends, is the end of the matter. “Shall be liable to
the party injured” is mandatory language that, in his
view, allows for no exceptions. The problem with such
an absolutist position, however, is that the Supreme
Court abandoned it long ago, when it recognized that
liability under section 1983 is subject to common-law
immunities that apply to all manner of defendants.
The Court discussed that history in Wyatt I, where
it noted that despite the bare-bones text of section
1983, it had “accorded certain government officials
either absolute or qualified immunity from suit if the
tradition of immunity was so firmly rooted in the
common law and was supported by such strong policy
reasons that Congress would have specifically so
provided had it wished to abolish the doctrine.” 504
U.S. at 163–64 (quoting Owen v. City of Independence,
445 U.S. 622, 637 (1980)) (internal quotation marks
omitted). In Wyatt I, the Court had to decide how far
its immunity jurisprudence reached, and specifically,
whether private parties acting under color of state law
would have been able, at the time section 1983 was
enacted (in 1871), to invoke the same immunities that
public officials had. (That is more than a bit counterfactual, as the Court did not recognize this type of
private liability until 1982, but we put that to one
side.) Surveying its immunity jurisprudence, including Mitchell v. Forsyth, 472 U.S. 511 (1985), Harlow v.
Fitzgerald, 457 U.S. 800 (1982), Wood v. Strickland,
420 U.S. 308 (1975), and Pierson v. Ray, 386 U.S. 547
(1967), the Court “conclude[ed] that the rationales
mandating qualified immunity for public officials are
not applicable to private parties.” 504 U.S. at 167.
The Court recognized that this outcome risked leaving private defendants in the unenviable position of

19a
being just as vulnerable to suit as public officials, per
Lugar, but not protected by the same immunity. Id. at
168. But, critically for AFSCME, the Court pointed
toward the solution to that problem. It distinguished
between defenses to suit and immunity from suit, the
latter of which is more robust, in that it bars recovery
regardless of the merits. Id. at 166. It then confirmed
that its ruling rejecting qualified immunity did “not
foreclose the possibility that private defendants faced
with § 1983 liability under [Lugar] could be entitled to
an affirmative defense based on good faith and/or
probable cause or that § 1983 suits against private,
rather than governmental, parties could require
plaintiffs to carry additional burdens.” Wyatt I, 504
U.S. at 169.
Mr. Janus rejects the line that the Court drew
between qualified immunity and a defense to liability;
he sees it as nothing but a labeling game. But Wyatt I
directly refutes this criticism. Adding to the language
above from the majority, Justice Kennedy, in concurrence, explained why a defense on the merits might be
available for private parties even if immunity is not.
“By casting the rule as an immunity, we imply the
underlying conduct was unlawful, a most debatable
proposition in a case where a private citizen may
have acted in good-faith reliance upon a statute.” 504
U.S. at 173 (Kennedy, J., concurring). The distinction
between an immunity and a defense is one of substance, not just nomenclature, and “is important
because there is support in the common law for the
proposition that a private individual’s reliance on a
statute, prior to a judicial determination of unconstitutionality, is considered reasonable as a matter of law.”
Id. at 174; see also Lugar, 457 U.S. at 942 n.23
(“Justice Powell is concerned that private individuals
who innocently make use of seemingly valid state laws

20a
would be responsible, if the law is subsequently held
to be unconstitutional, for the consequences of their
actions. In our view, however, this problem should be
dealt with not by changing the character of the cause
of action but by establishing an affirmative defense.”).
The Wyatt I Court remanded the case to the Fifth
Circuit, which decided that the “question left open by
the majority”—whether a good-faith defense is available in section 1983 actions—“was largely answered”
in the affirmative by the five concurring and dissenting justices. Wyatt II, 994 F.2d at 1118. The court
accordingly held “that private defendants sued on the
basis of Lugar may be held liable for damages under
§ 1983 only if they failed to act in good faith in
invoking the unconstitutional state procedures, that
is, if they either knew or should have known that the
statute upon which they relied was unconstitutional.”
Id.
Other circuits followed suit. In Jordan, the Third
Circuit noted “the [Supreme Court’s] statement
[in Wyatt I] that persons asserting section 1983 claims
against private parties could be required to carry
additional burdens, and the statements in Lugar
which warn us [that] a too facile extension of section
1983 to private parties could obliterate the Fourteenth
Amendment’s limitation to state actions that deprive
a person of constitutional rights and the statutory limitation of section 1983 actions to claims against persons acting under color of law.” 20 F.3d at 1277
(cleaned up). Those considerations, the court said, lead
to the conclusion that “‘good faith’ gives state actors a
defense that depends on their subjective state of mind,
rather than the more demanding objective standard of
reasonable belief that governs qualified immunity.”
Id. The Sixth Circuit concurred in Vector Research,

21a
76 F.3d at 699, as did the Ninth Circuit in Clement,
518 F.3d at 1096–97. Most recently, in a case decided
after Harris v. Quinn, the Second Circuit allowed a
good-faith defense to a section 1983 claim for
reimbursement of agency fees paid prior to decision.
Jarvis v. Cuomo, 660 F. App’x 72, 75–76 (2d Cir. 2016).
Mr. Janus pushes back against these decisions with
the argument that there is no common-law history
before 1871 of private parties enjoying a good-faith
defense to constitutional claims. As we hinted earlier,
however, the reason is simple: the liability of private
parties under section 1983 was not clearly established
until, at the earliest, the Court’s decision in United
States v. Price, 383 U.S. 787 (1966). For nearly 100
years, nothing would have prompted the question.
We now join our sister circuits in recognizing that,
under appropriate circumstances, a private party that
acts under color of law for purposes of section 1983
may defend on the ground that it proceeded in good
faith. The final question is whether that defense is
available to AFSCME.
B. Good-faith Defense for AFSCME
Although this is a new question for us, we note that
every district court that has considered the precise
question before us—whether there is a good-faith
defense to liability for payments collected before
Janus II—has answered it in the affirmative.1 While
1

See Hamidi v. SEIU Local 1000, 2019 WL 5536324 (E.D. Cal.
Oct. 25, 2019); LaSpina v. SEIU Pennsylvania State Council,
2019 WL 4750423 (M.D. Pa. Sept. 30, 2019); Casanova v.
International Ass’n of Machinists, Local 701, No. 1:19-cv-00428,
Dkt. #22 (N.D. Ill. Sept. 11, 2019); Allen v. Santa Clara Cty.
Correctional Peace Officers Ass’n, 2019 WL 4302744 (E.D. Cal.
Sept. 11, 2019); Ogle v. Ohio Civil Serv. Emp. Ass’n, 2019 WL

22a
those views are not binding on us, the unanimity of
opinion is worth noting.
The first task we have under Wyatt I is to identify
the “most closely analogous tort” to which we should
turn for guidance. 504 U.S. at 164 (citations and internal quotation marks omitted). Arguing in some tension with his statute-of-limitations position, Mr. Janus
says that his claim lacks any common law analogue.
His back-up position is that good faith is pertinent
3227936 (S.D. Ohio July 17, 2019), appeal pending, No. 19-3701
(6th Cir.); Diamond v. Pennsylvania State Educ. Ass’n, 2019 WL
2929875 (W.D. Pa. July 8, 2019), appeal pending, No. 19-2812 (3d
Cir.); Hernandez v. AFSCME California, 386 F. Supp. 3d 1300
(E.D. Cal. 2019); Doughty v. State Employee’s Ass’n, No. 1:19-cv00053- PB (D.N.H. May 30, 2019), appeal pending, No. 19-1636
(1st Cir.); Babb v. California Teachers Ass’n, 378 F. Supp. 3d 857
(C.D. Cal. 2019); Wholean v. CSEA SEIU Local 2001, 2019 WL
1873021 (D. Conn. Apr. 26, 2019), appeal pending, No. 19-1563
(2d Cir.); Akers v. Maryland Educ. Ass’n, 376 F. Supp. 3d 563 (D.
Md. 2019), appeal pending, No. 19-1524 (4th Cir.); Bermudez v.
SEIU Local 521, 2019 WL 1615414 (N.D. Cal. Apr. 16, 2019); Lee
v. Ohio Educ. Ass’n, 366 F. Supp. 3d 980 (N.D. Ohio 2019), appeal
pending, No. 19-3250 (6th Cir.); Hough v. SEIU Local 521, 2019
WL 1274528 (N.D. Cal. Mar. 20, 2019), amended, 2019 WL
1785414 (N.D. Cal. Apr. 16, 2019), appeal pending, No. 19-15792
(9th Cir.); Crockett v. NEA-Alaska, 367 F. Supp. 3d 996 (D. Alaska
2019), appeal pending, No. 19-35299 (9th Cir.); Carey v. Inslee,
364 F. Supp. 3d 1220 (W.D. Wash. 2019), appeal pending, No. 1935290 (9th Cir.); Cook v. Brown, 364 F. Supp. 3d 1184 (D. Or.
2019), appeal pending, No. 19-35191 (9th Cir.); Danielson v.
AFSCME, Council 28, 340 F. Supp. 3d 1083 (W.D. Wash. 2018),
appeal pending, No. 18-36087 (9th Cir.). See also Winner v.
Rauner, 2016 WL 7374258 (N.D. Ill. Dec. 20, 2016) (post-Harris
claim for fee reimbursement); Hoffman v. Inslee, 2016 WL
6126016 (W.D. Wash. Oct. 20, 2016) (same). But see Lamberty v.
Connecticut State Police Union, 2018 WL 5115559 (D. Conn. Oct.
19, 2018) (dismissing for lack of standing but implying plaintiffs
were entitled to previously withheld fees, plus interest).

23a
only if the underlying offense has a state-of-mind
element, and he asserts that the most analogous tort
in his case lacks such an element.
Mr. Janus compares the First Amendment violation
in his case to conversion. But that analogy does not
work, at least with regard to the state’s deduction of
fair-share fees and its transfer of those fees to the
union. Conversion requires an intentional and serious
interference with “the right of another to control” a
chattel. Restatement (Second) of Torts § 222A (1965).
At the time AFSCME received Mr. Janus’s fair-share
fees, he had no “right to control” that money. Instead,
under Illinois law and Abood, the union had a right to
the fees under the collective bargaining agreement
with CMS. This rules out conversion. As the Supreme
Court said in Chicot Cnty. Drain‐ age Dist. v. Baxter
State Bank, 308 U.S. 371 (1940), “the actual existence
of a statute, prior to such a determination, is an operative fact and may have consequences which cannot
justly be ignored.” Id. at 374.
There are also at least two privileges that may be
relevant to a conversion-style claim: authority based
upon public interest, Restatement (Second) of Torts
§ 265 (1965), and privilege to act pursuant to court
order, Restatement (Second) of Torts § 266 (1965).
Section 265 provides that “one is privileged to commit
an act which would otherwise be a trespass to a chattel
or a conversion if he is acting in discharge of a duty or
authority created by law to preserve the public safety,
health, peace, or other public interest, and his act is
reasonably necessary to the performance of his duty or
the exercise of his authority.” While the usual context
for the assertion of this privilege is law enforcement,
it is not too much of a stretch to apply it to the union’s
conduct here. CMS and AFSCME acted pursuant to

24a
state law. That sounds like action in discharge of a
duty imposed by law. Section 266, which provides a
privilege when one acts pursuant to a court order, is
not directly applicable because there was no court
order directing AFSCME to receive fair-share fees—
Abood was permissive, not mandatory. Nevertheless,
CMS and AFSCME did rely on the Supreme Court’s
opinion upholding the legality of exactly this process.
AFSCME contends that the better analogy is to the
tort of abuse of process. Abuse of process occurs where
a party “uses a legal process, whether criminal or civil,
against another primarily to accomplish a purpose for
which it is not designed.” Restatement (Second) of
Torts § 682 (1977). Alternatively, the most analogous
tort might be interference with contract. See Restatement (Second) of Torts § 766A (1979). Under the
agency-fee arrangement, a certain portion of the salary CMS contracted to pay employees went instead to
the union. This arguably made the contract less lucrative for objecting employees and violated their First
Amendment rights.
None of these torts is a perfect fit, but they need not
be. We are directed to find the most analogous tort, not
the exact-match tort. This is inherently inexact.
Although there are reasonable arguments for several
different torts, we are inclined to agree with AFSCME
that abuse of process comes closest. But perhaps the
search for the best analogy is a fool’s errand. As
several district courts have commented, the Supreme
Court in Wyatt I embarked on the search for the most
analogous tort only for immunity purposes—the Court
never said that the same methodology should be used
for the good-faith defense. See, e.g., Carey, 364 F.
Supp. 3d at 1229–30; Babb, 378 F. Supp. 3d at 872–73;
Diamond, 2019 WL 2929875 at *25–26. In the alterna-

25a
tive, therefore, we leave common-law analogies behind
and consider the appropriateness of allowing a goodfaith defense on its own terms.
C. Good-faith Defense under Wyatt I
Like our sister circuits, we read the Court’s language in Wyatt I and Lugar, supplemented by Justice
Kennedy’s opinion concurring in Wyatt I, as a strong
signal that the Court intended (when the time was
right) to recognize a good-faith defense in section 1983
actions when the defendant reasonably relies on established law. This is not, we stress, a simple “mistake of
law” defense. Neither CMS nor AFSCME made any
mistake about the state of the law during the years
between 1982 and June 27, 2018, when Janus II was
handed down. Abood was the operative decision from
the Supreme Court from 1977 onward, until the Court
exercised its exclusive prerogative to overrule that
case. Like its counterparts around the country, the
State of Illinois relied on Abood when it adopted a
labor relations scheme providing for exclusive representation of public-sector workers and the remit of
fair-share fees to the recognized union. The union then
relied on that state law in its interactions with other
actors.
We realize that there were signals from some
Justices during the years leading up to Janus II that
indicated they were willing to reconsider Abood, but
that is hardly unique to this area. Sometimes such
reconsideration happens, and sometimes, despite
the most confident predictions, it does not. See, e.g.,
Dickerson v. United States, 530 U.S. 428 (2000) (reaffirming the Miranda rule); see also Agostini, 521 U.S.
at 237 (“We do not acknowledge, and we do not hold,
that other courts should conclude our more recent
cases have, by implication, overruled an earlier prece-

26a
dent.” (cleaned up)). The Rule of Law requires that
parties abide by, and be able to rely on, what the law
is, rather than what the readers of tea-leaves predict
that it might be in the future.
Notably, Mr. Janus does not allege that CMS and
AFSCME, acting pursuant to state law, failed to comply with Abood. Mr. Janus says only that AFSCME did
not act in good faith because it “spurned efforts to have
agency fees placed in escrow while their constitutionality was determined.” But AFSCME was under
no legal obligation to escrow the fair-share fees for an
indefinite period while the case was being litigated.
Such an action, as AFSCME says, would (in the
absence of a court order requiring security of some
kind) “have been hard to square with the fiduciary
duty the Union owes to its own members,” as the unit’s
exclusive representative.
Until Janus II said otherwise, AFSCME had a legal
right to receive and spend fair-share fees collected
from nonmembers as long as it complied with state law
and the Abood line of cases. It did not demonstrate bad
faith when it followed these rules.
D. Entitlement to Money Damages
No one doubts that Mr. Janus is entitled to declaratory and injunctive relief. The Supreme Court declared
that the status quo violated his First Amendment
rights and that “States and public-sector unions may
no longer extract agency fees from nonconsenting
employees.” 138 S. Ct. at 2486. Mr. Janus is now
protected from that practice. Any remaining relief was
for the district court to consider. That court declined
to grant monetary damages, on the ground that
AFSCME’s good-faith defense shielded the union from
such liability. We agree with that conclusion.

27a
While this may not be all that Mr. Janus hoped for
in this litigation, it is not unusual for remedies to be
curtailed in light of broader legal doctrines. Moreover,
though Mr. Janus contends that he did not want any
of the benefits of AFSCME’s collective bargaining and
other representative activities over the years, he
received them. Putting the First Amendment issues
that concerned the Supreme Court in Janus II to one
side, there was no unjust “windfall” to the union, as
Mr. Janus alleges, but rather an exchange of money
for services. Our decision in Gilpin v. AFSCME, 875
F.2d 1310 (7th Cir. 1989) is on point:
[T]he union negotiated on behalf of these
employees as it was required by law to do,
adjusted grievances for them as it was
required by law to do, and incurred expenses
in doing these things . . . . The plaintiffs do
not propose to give back the benefits that the
union’s efforts bestowed on them. These benefits were rendered with a reasonable expectation of compensation founded on the collective
bargaining agreement and federal labor law,
and the conferral of the benefits on the plaintiffs would therefore give rise under conventional principles of restitution to a valid claim
by the union for restitution if the union were
forced to turn over the escrow account to the
plaintiffs and others similarly situated to
them.
Id. at 1316.
We have followed similar principles in the ERISA
context. “If restitution would be inequitable, as where
the payor obtained a benefit that he intends to retain
from the payment that he made and now seeks to take
back, it is refused.” Operating Eng’rs Local 139 Health

28a
Benefit Fund v. Gustafson Const. Corp., 258 F.3d 645,
651 (7th Cir. 2001); see also Constr. Indus. Ret. Fund
of Rockford, Ill. v. Kasper Trucking, Inc., 10 F.3d 465,
467 (7th Cir. 1993) (“The welfare fund pooled the
money to provide benefits for all persons on whose
behalf contributions were made. Because the drivers
received the health coverage for which they paid
through the deductions Kasper sent to the fund, no one
is entitled to restitution.”); UIU Severance Pay Tr.
Fund v. Local Union No. 18-U, United Steelworkers of
Am., 998 F.2d 509, 513 (7th Cir. 1993) (“[B]ecause the
cause of action we are authorizing is equitable in
nature, recovery will not follow automatically upon a
showing that the Union contributed more than was
required but only if the equities favor it.” (internal
quotation marks omitted)). We conclude that Mr.
Janus has received all that he is entitled to: declaratory and injunctive relief, and a future free of any
association with a public union.
IV
Before closing, we emphasize again that the goodfaith defense to section 1983 liability is narrow. It is
not true, as Mr. Janus charges, that this defense will
be available to “every defendant that deprives any person of any constitutional right.” We predict that only
rarely will a party successfully claim to have relied
substantially and in good faith on both a state statute
and unambiguous Supreme Court precedent validating that statute. But for those rare occasions, following
the lead first of the Supreme Court in Wyatt I and
second of our sister circuits, we recognize a good-faith
defense for private parties who act under color of state
law for purposes of section 1983.
We AFFIRM the judgment of the district court.

29a
MANION, Circuit Judge, concurring. The court’s
opinion in this challenging case is thorough, and I
concur with the court’s ultimate conclusion. I have a
couple additional thoughts. Some might observe that
Abood had some benefit to the objectors because they
no longer had to pay service fees equal to union dues
as a condition of employment. But for 41 years, the
nonunion employees had to pay their “fair share.”
The unions received a huge windfall for 41 years. As
the Supreme Court acknowledged in Janus II, Abood
was wrong, so the unions got what the Court called a
“considerable windfall.” The Court in Janus II sums it
up pretty well:
We recognize that the loss of payments from
nonmembers may cause unions to experience
unpleasant transition costs in the short term,
and may require unions to make adjustments
in order to attract and retain members. But
we must weigh these disadvantages against
the considerable windfall that unions have
received under Abood for the past 41 years. It
is hard to estimate how many billions of
dollars have been taken from nonmembers
and transferred to public-sector unions in
violation of the First Amendment. Those
unconstitutional exactions cannot be allowed
to continue indefinitely.
Janus v. AFSCME, Council 31, 138 S. Ct. 2448, 2485–
86 (2018).
Even though the Supreme Court reached the wrong
result in Abood 41 years before Janus II, the unions
justify their acceptance of many millions of dollars
because they accepted the money in “good faith.”
Probably a better way of looking at it would be to say

30a
rather than good faith, they had very “good luck” in
receiving this windfall for so many years. Since the
court is not holding that the unions must repay a
portion of the windfall, they can remind themselves of
their good luck for the years ahead.

31a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
[Filed March 18, 2019]
————
Case No. 15 C 1235
————
MARK JANUS,
v.

Plaintiff,

AMERICAN FEDERATION OF STATE,
COUNTY AND MUNICIPAL EMPLOYEES,
COUNCIL 31, AFL-CIO, et al.,
Defendants,
LISA MADIGAN, Attorney General of the
State of Illinois,
Intervenor-Defendant.
————
Judge Robert W. Gettleman
————
MEMORANDUM OPINION AND ORDER
Plaintiffs Mark Janus and Brian Trygg brought a
second amended complaint against defendants American Federal of State, County and Municipal Employees, Council 31 (“AFSCME”), the General Teamsters/
Professional & Technical Employees Local Union 916
(“Local 916”), and Michael Hoffman in his official
capacity as Director of the Illinois Department of

32a
Central Management Services, alleging that plaintiffs
were unconstitutionally being forced to pay compulsory union fees (“fair-share fees”) to the defendant
Unions as a condition of their employment pursuant to
Illinois’ Public Labor Relations Act (“IPLRA”), 5 ILCS
315/6. They sought a declaratory judgment against the
Director of Central Management Services and the
Unions declaring that forcing plaintiffs to pay fairshare fees violates the First Amendment; an injunction prohibiting defendants from collecting such fees
in the future; and damages from the Unions for the
fees wrongfully collected.
This court granted defendants’ motion to dismiss,
concluding that the Supreme Court had held that such
fees were lawful in Abood v. Detroit Board of Education, 431 U.S. 209 (1977). Plaintiffs had argued that
Abood was wrongfully decided but recognized that it
was the current law and controlling on this court. The
Seventh Circuit affirmed as to Janus, agreeing that
the case was controlled by Abood, which only the
Supreme Court could overrule. Janus v. AFSCME
Council 31, 851 F.3d 746, 747 (7th Cir. 2017). As to
plaintiff Trygg, the court affirmed on a separate
ground on claim preclusion. Id. at 748. Janus (but not
Trygg) sought certiorari, asking the Supreme Court to
overrule Abood. In a 5 to 4 decision, the Court did just
that, holding that “States and public-sector unions
may no longer extract agency fees from nonconsenting
employees.” Janus v. AFSCME Council 31, __ U.S. __,
138 S.Ct. 2448, 2486 (2018). The Court did not order
any specific relief, instead remanding for further proceedings consistent with its opinion. Id. Immediately
after that decision was issued, AFCME stopped collecting fair-share fees; and at this time Janus is no
longer employed by the State of Illinois.

33a
The parties agree that the lone issue remaining
before this court is whether plaintiff Janus can collect
damages from AFSCME in the amount of the fairshare fees he had paid prior to the Court’s decision.
The material facts are not in dispute and the parties
have filed cross-motions for summary judgment. For
the reasons discussed below, defendant AFSCME’s
motion [Doc. 175] is granted and plaintiff’s motion
[Doc. 177] is denied.
DISCUSSION
Defendant AFSCME argues that plaintiff’s claim for
retrospective damages under 42 U.S.C. § 1983 fails as
a matter of law because defendant has a “good-faith”
defense for the fees it collected prior to the Supreme
Court’s decision in the instant case. There can be no
doubt that for the 41 years prior to the Court’s
decision, unions such as defendant were permitted to
collect fair-share fees. See Abood, 431 U.S. 209. Based
on Abood, Illinois enacted the IPLRA which authorized the collection of such fees. Defendant AFSCME
entered into a collective bargaining agreement (“CBA”)
with the Department of Central Management Services
pursuant to this valid statue and collected the fees at
issue. In contrast, plaintiff claims that “good-faith” is
not a defense to a deprivation of First Amendment
rights or to liability under § 1983.
Plaintiffs’ § 1983 claims is brought in accord with
Lugar v. Admondson Oil Co. Inc., 457 U.S. 922, 93237 (1982), in which the Supreme Court held that private defendants invoking a state-created attachment
statute act under color of law within the meaning of
§ 1983 if their actions are fairly attributable to the
State. To satisfy this requirement, two conditions
must be met. First, the “deprivation must be caused by
the exercise of some right or privilege created by the

34a
State or by a rule of conduct imposed by the State or
by a person for whom the State is responsible.” Id. at
937. “Second, the private party must have ‘acted
together with or . . . obtain significant aid from State
officials’ or engaged in conduct ‘otherwise chargeable
to the State.’” Wyatt v. Cole, 504 U.S. 158, 162 (1992)
(quoting Lugar, 457 U.S. at 937). Lugar specifically
left open the question whether private defendants
charged with § 1983 liability for invoking a state statute later declared unconstitutional are entitled to
qualified immunity. Lugar, 457 U.S. at 942, n. 23.
In Wyatt, the Court answered that question in the
negative, holding that qualified immunity “acts to
safeguard government, and thereby protects the
public at large, not to benefit its agents,” rationales
that “are not transferable to private parties.” Wyatt,
504 U.S. at 168. The Wyatt court specifically noted,
however, that the issued before it was very narrow:
“whether private persons, who conspire with state
officials to violate constitutional rights, have available
the good-faith immunity applicable to public officials.”
Id. at 168. The Court specifically noted that “[i]n so
holding, however, we do not foreclose the possibility
that private defendants faced with § 1983 liability
under [Lugar] . . . could be entitled to an affirmative
defense based on good-faith and/or probable cause or
that § 1983 suits against private, rather than governmental, parties could require plaintiffs to carry additional burdens.” Id. at 169.
On remand, the Fifth Circuit noted that the five concurring and dissenting justices in Wyatt all indicated
“support for a standard that would relieve private
parties who reasonably relied on a state’s statute of
liability.” Wyatt v. Cole, 994 F.3d 1113, 1118 (5th Cir.
1993). It thus held that “private defendants sued on

35a
the basis of Lugar may be held liable for damages for
under § 1983 only if they fail to act in good-faith in
invoking the unconstitutional state procedure, that is,
if they either knew or should have known that the
statute upon which they relied was unconstitutional.”
Id.
The Fifth Circuit is not alone. Indeed, as Judge Shah
of this district noted in a case almost identical to the
instant case, although the Seventh Circuit has not yet
addressed the issue, “[e]very federal appellate court
that has considered the good-faith defense, though,
has found that it exists for private parties.” Winner v.
Rauner, 2016 WL 7374258, *5 (N.D. Ill. Sept. 20, 2016)
(citing Pinsky v. Duncan, 79 F.3d 306, 311-12 (2d Cir.
1996); Jordan v. Fox, Rothschild, O’Brien & Frankel,
20 F.3d 1250, 1275-78 (3d Cir. 1994); Wyatt, 994 F.2d
1118-21; Vector Research, Inc. v. Howard & Howard
Attorneys, P.C., 76 F.3d 692, 698-99 (6th Cir. 1996);
Clemente v. City of Glendale, 518 F.3d 1090, 1096-97
(9th Cir. 2008)).
Plaintiff argues that even if a good-faith defense
applies, it is available only if state of mind could be an
element of defense to the alleged deprivation of constitutional rights. And, according to plaintiff, no such
state of mind is required to establish that defendant
deprived plaintiff of his First Amendment rights.
The court disagrees. As defendants argue, the relevant question for a good-faith defense is not the nature
of the particular statute on which the defendant relied,
but whether that reliance was in good faith. As the
Fifth Circuit held, that depends on whether the
defendant knew or should have known that the statute
on which the defendant relied was unconstitutional.
Wyatt, 994 F.3d at 1118.

36a
In the instant case, the statute on which defendant
relied had been considered constitutional for 41 years.
It is true, as plaintiff argues, that in Harris v. Quinn,
134 S.Ct. 2618 (2014), the Court found that collection
of compulsory fair-share fees from in-home-care personal assistants who were not full-fledged public
employees, was unconstitutional, but left for another
day whether Abood remained good law. Plaintiffs
argue that, as the Janus court stated, “unions have
been on notice for years regarding this Court’s misgivings about [Abood],” and that “any public-sector union
seeking an agency fee provision in a collectivebargaining agreement must have understood that the
constitutionality of such a provision was uncertain.”
Janus, 138 S.Ct. at 2484.
Despite these statements in Janus, prior to the
instant case Abood remained the law of the land. And,
despite these statements, there was no way for defendant to predict the resolution of this case. Indeed, had
the general and/or presidential election resulted differently, the composition of the Supreme Court that
decided the case may well have been different, leading
to a different result. As Judge Shah noted in Winner,
“`even the clarity of hindsight is not persuasive that
the constitutional resolution [. . .] could be predicted
with assurance sufficient to undermine [. . .] reliance
on [the challenged law].’” Winner, 2016 WL 7374258 at
*5 (quoting Lemon v. Kurtzman, 411 U.S. 192, 207
(1973)). Defendants’ action were in accord with a
constitutionally valid state statute. Nothing presented
by plaintiff prevents application of that defense to
defendant AFSCME. Defendant AFSCME followed
the law and could not reasonably anticipate that the
law would change. Consequently, the court concludes
that the good faith defense applies, and plaintiff is not
entitled to any damages. See Danielson v. AFSCME

37a
Council 28, 340 F.Supp.3d 1083, 1087 (W.D. Wash.
2018); Cook v. Brown, 2019 WL 982384 (D. Or. Feb 28,
2019); Carey v. Inslee, 2019 WL 1115259 (W.D. Wash.
Mar. 11, 2019).
CONCLUSION
For the reasons described above, defendant’s motion
for summary judgment [Doc. 175] is granted. Plaintiff’s motion for summary judgment [Doc. 177] is
denied.
ENTER: March 18, 2019
/s/ Robert W. Gettleman
Robert W. Gettleman
United States District Judge

38a
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS
————
Case No. 15 cv 1235
————
MARK JANUS,
v.

Plaintiff(s),

AMERICAN FEDERATION OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES, COUNCIL 31, et al.
Defendant(s).
————
Judge Robert W. Gettleman
————
JUDGMENT IN A CIVIL CASE
Judgment is hereby entered (check appropriate box):


which 


in favor of plaintiff(s)
and against defendant(s)
in the amount of $
,
includes pre-judgment interest.
does not include pre-judgment interest.

Post-judgment interest accrues on that amount at the
rate provided by law from the date of this judgment.
Plaintiff(s) shall recover costs from defendant(s).


in favor of defendant(s) AMERICAN
FEDERATION OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES, COUNCIL 31
and against plaintiff(s) MARK JANUS,

39a
Defendant(s) shall recover costs from plaintiff(s).


other:

This action was (check one):


tried by a jury with Judge presiding, and
the jury has rendered a verdict.



tried by Judge without a jury and the above
decision was reached.



decided by Judge Robert W. Gettleman on
a motion

Date: 3/18/2019

Thomas G. Bruton, Clerk of Court
Claire E. Newman, Deputy Clerk

40a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
————
No. 16‐3638
————
MARK JANUS and BRIAN TRYGG,
Plaintiffs-Appellants,
v.
AMERICAN FEDERATION OF STATE, COUNTY, AND
MUNICIPAL EMPLOYEES, COUNCIL 31, et al.,
Defendants-Appellees,
and
LISA MADIGAN, Attorney General of the
State of Illinois,
Intervening Defendant-Appellee.
————
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 15 C 1235 – Robert W. Gettleman, Judge.
————
September 24, 2018
————
ORDER
The Supreme Court granted plaintiff Mark Janus’s
petition for certiorari, overruled its decision in Abood
v. Detroit Board of Education, 431 U.S. 209 (1977), and

41a
reversed and remanded for further proceedings consistent with its opinion. Janus v. Am. Fed’n of State,
Cty., & Mun. Emp’s, Council 31, 138 S. Ct. 2448, 2486
(2018). We ordered the parties to file statements of
position under Circuit Rule 54. They have done so.
We now REVERSE the district court’s judgment as
to Janus and REMAND for further proceedings consistent with the Supreme Court’s opinion. As to plaintiff Brian Trygg, however, the district court’s judgment is AFFIRMED. We previously affirmed the dismissal of his claim on preclusion grounds, see Janus v.
Am. Fed’n of State, Cty., & Mun. Emp’s, Council 31,
851 F.3d 746, 748 (7th Cir. 2017), and he did not
petition for certiorari.

42a
APPENDIX D
138 S.Ct. 2448
SUPREME COURT OF THE UNITED STATES
————
No. 16–1466
————
MARK JANUS,
Petitioner,
v.
AMERICAN FEDERATION OF STATE, COUNTY, AND
MUNICIPAL EMPLOYEES, COUNCIL 31, et al.,
Respondents.
————
Argued Feb. 26, 2018
Decided June 27, 2018
————
Attorneys and Law Firms
William L. Messenger, Springfield, VA, for Petitioner.
Noel J. Francisco, Solicitor General, for the United
States as amicus curiae, by special leave of the Court,
supporting the Petitioner.
David L. Franklin, Solicitor General, Chicago, IL, for
the State Respondents.
David C. Frederick, Washington, DC, for the Respondent AFSCME Council 31.
Dan K. Webb, Joseph J. Torres, Lawrence R. Desideri,
Winston & Strawn LLP, Chicago, IL, Jacob H.
Huebert, Jeffrey M. Schwab, Liberty Justice Center,
Chicago, IL, William L. Messenger, Aaron B. Solem,

43a
c/o National Right to Work Legal Defense Foundation,
Inc., Springfield, VA, for Petitioner.
Lisa Madigan, Attorney General, State of Illinois,
David L. Franklin, Solicitor General, Counsel of Record, Brett E. Legner, Deputy Solicitor General, Frank
H. Bieszczat, Jane Flanagan, Sarah A. Hunger,
Richard S. Huszagh, Lindsay Beyer Payne, Andrew
Tonelli, Assistant Attorneys General, Chicago, IL, for
Respondents Lisa Madigan and Michael Hoffman.
John M. West, Bredhoff & Kaiser, PLLC, Washington,
DC, Judith E. Rivlin, Teague P. Paterson, AFSCME,
Washington, DC, David C. Frederick, Derek T. Ho,
Benjamin S. Softness, Kellogg, Hansen, Todd, Figel &
Frederick, P.L.L.C., Washington, DC, for Respondent
American Federation of State, County, and Municipal
Employees, Council 31.
OPINION
Justice ALITO delivered the opinion of the Court.
Under Illinois law, public employees are forced to
subsidize a union, even if they choose not to join and
strongly object to the positions the union takes in collective bargaining and related activities. We conclude
that this arrangement violates the free speech rights
of nonmembers by compelling them to subsidize
private speech on matters of substantial public concern.
We upheld a similar law in Abood v. Detroit Bd. of
Ed., 431 U.S. 209, 97 S.Ct. 1782, 52 L.Ed.2d 261
(1977), and we recognize the importance of following
precedent unless there are strong reasons for not
doing so. But there are very strong reasons in this
case. Fundamental free speech rights are at stake.
Abood was poorly reasoned. It has led to practical

44a
problems and abuse. It is inconsistent with other First
Amendment cases and has been undermined by more
recent decisions. Developments since Abood was handed down have shed new light on the issue of agency
fees, and no reliance interests on the part of publicsector unions are sufficient to justify the perpetuation
of the free speech violations that Abood has countenanced for the past 41 years. Abood is therefore
overruled.
I
A
Under the Illinois Public Labor Relations Act
(IPLRA), employees of the State and its political subdivisions are permitted to unionize. See Ill. Comp.
Stat., ch. 5, § 315/6(a) (West 2016). If a majority of the
employees in a bargaining unit vote to be represented
by a union, that union is designated as the exclusive
representative of all the employees. §§ 315/3(s)(1),
315/6(c), 315/9. Employees in the unit are not obligated to join the union selected by their co-workers,
but whether they join or not, that union is deemed to
be their sole permitted representative. See §§ 315/6(a),
(c).
Once a union is so designated, it is vested with broad
authority. Only the union may negotiate with the
employer on matters relating to “pay, wages, hours [,]
and other conditions of employment.” § 315/6(c). And
this authority extends to the negotiation of what the
IPLRA calls “policy matters,” such as merit pay, the
size of the work force, layoffs, privatization, promotion
methods, and non-discrimination policies. § 315/4; see
§ 315/6(c); see generally, e.g., Illinois Dept. of Central
Management Servs. v. AFSCME, Council 31, No.

45a
S–CB–16–17 etc., 33 PERI ¶ 67 (ILRB Dec. 13, 2016)
(Board Decision).
Designating a union as the employees’ exclusive
representative substantially restricts the rights of
individual employees. Among other things, this designation means that individual employees may not be
represented by any agent other than the designated
union; nor may individual employees negotiate directly with their employer. §§ 315/6(c)-(d), 315/10(a)(4);
see Matthews v. Chicago Transit Authority, 2016 IL
117638, 402 Ill.Dec. 1, 51 N.E.3d 753, 782; accord,
Medo Photo Supply Corp. v. NLRB, 321 U.S. 678, 683–
684, 64 S.Ct. 830, 88 L.Ed. 1007 (1944). Protection of
the employees’ interests is placed in the hands of the
union, and therefore the union is required by law to
provide fair representation for all employees in the
unit, members and nonmembers alike. § 315/6(d).
Employees who decline to join the union are not
assessed full union dues but must instead pay what is
generally called an “agency fee,” which amounts to a
percentage of the union dues. Under Abood, nonmembers may be charged for the portion of union dues
attributable to activities that are “germane to [the
union’s] duties as collective-bargaining representative,” but nonmembers may not be required to fund the
union’s political and ideological projects. 431 U.S., at
235, 97 S.Ct. 1782; see id., at 235–236, 97 S.Ct. 1782.
In labor-law parlance, the outlays in the first category
are known as “chargeable” expenditures, while those
in the latter are labeled “nonchargeable.”
Illinois law does not specify in detail which expenditures are chargeable and which are not. The IPLRA
provides that an agency fee may compensate a union
for the costs incurred in “the collective bargaining process, contract administration[,] and pursuing matters

46a
affecting wages, hours [,] and conditions of employment.” § 315/6(e); see also § 315/3(g). Excluded from
the agency-fee calculation are union expenditures
“related to the election or support of any candidate for
political office.” § 315/3(g); see § 315/6(e).
Applying this standard, a union categorizes its
expenditures as chargeable or nonchargeable and thus
determines a nonmember’s “proportionate share,”
§ 315/6(e); this determination is then audited; the
amount of the “proportionate share” is certified to the
employer; and the employer automatically deducts
that amount from the nonmembers’ wages. See ibid.;
App. to Pet. for Cert. 37a; see also Harris v. Quinn, 573
U.S. ––––, –––––––––, 134 S.Ct. 2618, 2633–2634, 189
L.Ed.2d 620 (2014) (describing this process).
Nonmembers need not be asked, and they are not
required to consent before the fees are deducted.
After the amount of the agency fee is fixed each year,
the union must send nonmembers what is known as a
Hudson notice. See Teachers v. Hudson, 475 U.S. 292,
106 S.Ct. 1066, 89 L.Ed.2d 232 (1986). This notice is
supposed to provide nonmembers with “an adequate
explanation of the basis for the [agency] fee.” Id., at
310, 106 S.Ct. 1066. If nonmembers “suspect that a
union has improperly put certain expenses in the
[chargeable] category,” they may challenge that
determination. Harris, supra, at ––––, 134 S.Ct., at
2633.
As illustrated by the record in this case, unions
charge nonmembers, not just for the cost of collective
bargaining per se, but also for many other supposedly
connected activities. See App. to Pet. for Cert. 28a–
39a. Here, the nonmembers were told that they had to
pay for “[l]obbying,” “[s]ocial and recreational activities,” “advertising,” “[m]embership meetings and con-

47a
ventions,” and “litigation,” as well as other unspecified
“[s]ervices” that “may ultimately inure to the benefit
of the members of the local bargaining unit.” Id., at
28a–32a. The total chargeable amount for nonmembers was 78.06% of full union dues. Id., at 34a.
B
Petitioner Mark Janus is employed by the Illinois
Department of Healthcare and Family Services as a
child support specialist. Id., at 10a. The employees in
his unit are among the 35,000 public employees in
Illinois who are represented by respondent American
Federation of State, County, and Municipal Employees, Council 31 (Union). Ibid. Janus refused to join the
Union because he opposes “many of the public policy
positions that [it] advocates,” including the positions it
takes in collective bargaining. Id., at 10a, 18a. Janus
believes that the Union’s “behavior in bargaining does
not appreciate the current fiscal crises in Illinois and
does not reflect his best interests or the interests of
Illinois citizens.” Id., at 18a. Therefore, if he had the
choice, he “would not pay any fees or otherwise subsidize [the Union].” Ibid. Under his unit’s collectivebargaining agreement, however, he was required to
pay an agency fee of $44.58 per month, id., at 14a—
which would amount to about $535 per year.
Janus’s concern about Illinois’ current financial
situation is shared by the Governor of the State, and
it was the Governor who initially challenged the statute authorizing the imposition of agency fees. The
Governor commenced an action in federal court, asking that the law be declared unconstitutional, and the
Illinois attorney general (a respondent here) intervened to defend the law. App. 41. Janus and two other
state employees also moved to intervene—but on the
Governor’s side. Id., at 60.

48a
Respondents moved to dismiss the Governor’s challenge for lack of standing, contending that the agency
fees did not cause him any personal injury. E.g., id., at
48–49. The District Court agreed that the Governor
could not maintain the lawsuit, but it held that petitioner and the other individuals who had moved to
intervene had standing because the agency fees
unquestionably injured them. Accordingly, “in the
interest of judicial economy,” the court dismissed the
Governor as a plaintiff, while simultaneously allowing
petitioner and the other employees to file their own
complaint. Id., at 112. They did so, and the case proceeded on the basis of this new complaint.
The amended complaint claims that all “nonmember
fee deductions are coerced political speech” and that
“the First Amendment forbids coercing any money
from the nonmembers.” App. to Pet. for Cert. 23a.
Respondents moved to dismiss the amended complaint, correctly recognizing that the claim it asserted
was foreclosed by Abood. The District Court granted
the motion, id., at 7a, and the Court of Appeals for the
Seventh Circuit affirmed, 851 F.3d 746 (2017).
Janus then sought review in this Court, asking us to
overrule Abood and hold that public-sector agency-fee
arrangements are unconstitutional. We granted certiorari to consider this important question. 582 U.S. ––––,
138 S.Ct. 54, 198 L.Ed.2d 780 (2017).
II
Before reaching this question, however, we must
consider a threshold issue. Respondents contend that
the District Court lacked jurisdiction under Article III
of the Constitution because petitioner “moved to intervene in [the Governor’s] jurisdictionally defective
lawsuit.” Union Brief in Opposition 11; see also id., at

49a
13–17; State Brief in Opposition 6; Brief for Union
Respondent i, 16–17; Brief for State Respondents 14,
n. 1. This argument is clearly wrong.
It rests on the faulty premise that petitioner intervened in the action brought by the Governor, but that
is not what happened. The District Court did not grant
petitioner’s motion to intervene in that lawsuit.
Instead, the court essentially treated petitioner’s
amended complaint as the operative complaint in a
new lawsuit. App. 110–112. And when the case is
viewed in that way, any Article III issue vanishes. As
the District Court recognized—and as respondents
concede—petitioner was injured in fact by Illinois’
agency-fee scheme, and his injuries can be redressed
by a favorable court decision. Ibid.; see Record 2312–
2313, 2322–2323. Therefore, he clearly has Article III
standing. Lujan v. Defenders of Wildlife, 504 U.S. 555,
560–561, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992). It is
true that the District Court docketed petitioner’s complaint under the number originally assigned to the
Governor’s complaint, instead of giving it a new
number of its own. But Article III jurisdiction does not
turn on such trivialities.
The sole decision on which respondents rely, United
States ex rel. Texas Portland Cement Co. v. McCord,
233 U.S. 157, 34 S.Ct. 550, 58 L.Ed. 893 (1914),
actually works against them. That case concerned a
statute permitting creditors of a government contractor to bring suit on a bond between 6 and 12 months
after the completion of the work. Id., at 162, 34 S.Ct.
550. One creditor filed suit before the 6–month starting date, but another intervened within the 6–to–12–
month window. The Court held that the “[t]he intervention [did] not cure th[e] vice in the original [prematurely filed] suit,” but the Court also contemplated

50a
treating “intervention . . . as an original suit” in a case
in which the intervenor met the requirements that a
plaintiff must satisfy—e.g., filing a separate complaint
and properly serving the defendants. Id., at 163–164,
34 S.Ct. 550. Because that is what petitioner did here,
we may reach the merits of the question presented.
III
In Abood, the Court upheld the constitutionality of
an agency-shop arrangement like the one now before
us, 431 U.S., at 232, 97 S.Ct. 1782, but in more recent
cases we have recognized that this holding is “something of an anomaly,” Knox v. Service Employees, 567
U.S. 298, 311, 132 S.Ct. 2277, 183 L.Ed.2d 281 (2012),
and that Abood’s “analysis is questionable on several
grounds,” Harris, 573 U.S., at ––––, 134 S.Ct., at 2632;
see id., at –––––––––, 134 S.Ct., at 2632–2634 (discussing flaws in Abood’s reasoning). We have therefore
refused to extend Abood to situations where it does not
squarely control, see Harris, supra, at –––––––––, 134
S.Ct., at 2638–2639, while leaving for another day the
question whether Abood should be overruled, Harris,
supra, at ––––, n. 19, 134 S.Ct., at 2638, n. 19; see
Knox, supra, at 310–311, 132 S.Ct. 2277.
We now address that question. We first consider
whether Abood’s holding is consistent with standard
First Amendment principles.
A
The First Amendment, made applicable to the
States by the Fourteenth Amendment, forbids abridgment of the freedom of speech. We have held time and
again that freedom of speech “includes both the right
to speak freely and the right to refrain from speaking
at all.” Wooley v. Maynard, 430 U.S. 705, 714, 97 S.Ct.
1428, 51 L.Ed.2d 752 (1977); see Riley v. National

51a
Federation of Blind of N. C., Inc., 487 U.S. 781, 796–
797, 108 S.Ct. 2667, 101 L.Ed.2d 669 (1988); Harper &
Row, Publishers, Inc. v. Nation Enterprises, 471 U.S.
539, 559, 105 S.Ct. 2218, 85 L.Ed.2d 588 (1985);
Miami Herald Publishing Co. v. Tornillo, 418 U.S.
241, 256–257, 94 S.Ct. 2831, 41 L.Ed.2d 730 (1974);
accord, Pacific Gas & Elec. Co. v. Public Util. Comm’n
of Cal., 475 U.S. 1, 9, 106 S.Ct. 903, 89 L.Ed.2d 1
(1986) (plurality opinion). The right to eschew association for expressive purposes is likewise protected.
Roberts v. United States Jaycees, 468 U.S. 609, 623,
104 S.Ct. 3244, 82 L.Ed.2d 462 (1984) (“Freedom of
association . . . plainly presupposes a freedom not to
associate”); see Pacific Gas & Elec., supra, at 12, 106
S.Ct. 903 (“[F]orced associations that burden protected
speech are impermissible”). As Justice Jackson memorably put it: “If there is any fixed star in our constitutional constellation, it is that no official, high or petty,
can prescribe what shall be orthodox in politics,
nationalism, religion, or other matters of opinion or
force citizens to confess by word or act their faith
therein.” West Virginia Bd. of Ed. v. Barnette, 319 U.S.
624, 642, 63 S.Ct. 1178, 87 L.Ed. 1628 (1943) (emphasis added).
Compelling individuals to mouth support for views
they find objectionable violates that cardinal constitutional command, and in most contexts, any such effort
would be universally condemned. Suppose, for example, that the State of Illinois required all residents to
sign a document expressing support for a particular
set of positions on controversial public issues—say, the
platform of one of the major political parties. No one,
we trust, would seriously argue that the First Amendment permits this.

52a
Perhaps because such compulsion so plainly violates
the Constitution, most of our free speech cases have
involved restrictions on what can be said, rather than
laws compelling speech. But measures compelling
speech are at least as threatening.
Free speech serves many ends. It is essential to our
democratic form of government, see, e.g., Garrison v.
Louisiana, 379 U.S. 64, 74–75, 85 S.Ct. 209, 13
L.Ed.2d 125 (1964), and it furthers the search for
truth, see, e.g., Thornhill v. Alabama, 310 U.S. 88, 95,
60 S.Ct. 736, 84 L.Ed. 1093 (1940). Whenever the
Federal Government or a State prevents individuals
from saying what they think on important matters or
compels them to voice ideas with which they disagree,
it undermines these ends.
When speech is compelled, however, additional
damage is done. In that situation, individuals are
coerced into betraying their convictions. Forcing free
and independent individuals to endorse ideas they
find objectionable is always demeaning, and for this
reason, one of our landmark free speech cases said
that a law commanding “involuntary affirmation” of
objected-to beliefs would require “even more immediate and urgent grounds” than a law demanding
silence. Barnette, supra, at 633, 63 S.Ct. 1178; see also
Riley, supra, at 796–797, 108 S.Ct. 2667 (rejecting
“deferential test” for compelled speech claims).
Compelling a person to subsidize the speech of other
private speakers raises similar First Amendment concerns. Knox, supra, at 309, 132 S.Ct. 2277; United
States v. United Foods, Inc., 533 U.S. 405, 410, 121
S.Ct. 2334, 150 L.Ed.2d 438 (2001); Abood, supra, at
222, 234–235, 97 S.Ct. 1782. As Jefferson famously put
it, “to compel a man to furnish contributions of money
for the propagation of opinions which he disbelieves

53a
and abhor[s] is sinful and tyrannical.” A Bill for
Establishing Religious Freedom, in 2 Papers of
Thomas Jefferson 545 (J. Boyd ed. 1950) (emphasis
deleted and footnote omitted); see also Hudson, 475
U.S., at 305, n. 15, 106 S.Ct. 1066. We have therefore
recognized that a “‘significant impingement on First
Amendment rights’” occurs when public employees are
required to provide financial support for a union that
“takes many positions during collective bargaining
that have powerful political and civic consequences.”
Knox, supra, at 310–311, 132 S.Ct. 2277 (quoting Ellis
v. Railway Clerks, 466 U.S. 435, 455, 104 S.Ct. 1883,
80 L.Ed.2d 428 (1984)).
Because the compelled subsidization of private
speech seriously impinges on First Amendment rights,
it cannot be casually allowed. Our free speech cases
have identified “levels of scrutiny” to be applied in
different contexts, and in three recent cases, we have
considered the standard that should be used in judging
the constitutionality of agency fees. See Knox, supra;
Harris, supra; Friedrichs v. California Teachers Assn.,
578 U.S. ––––, 136 S.Ct. 1083, 194 L.Ed.2d 255 (2016)
(per curiam) (affirming decision below by equally
divided Court).
In Knox, the first of these cases, we found it sufficient to hold that the conduct in question was unconstitutional under even the test used for the compulsory
subsidization of commercial speech. 567 U.S., at 309–
310, 321–322, 132 S.Ct. 2277. Even though commercial speech has been thought to enjoy a lesser degree
of protection, see, e.g., Central Hudson Gas & Elec.
Corp. v. Public Serv. Comm’n of N. Y., 447 U.S. 557,
562–563, 100 S.Ct. 2343, 65 L.Ed.2d 341 (1980), prior
precedent in that area, specifically United Foods,
supra, had applied what we characterized as “exact-

54a
ing” scrutiny, Knox, 567 U.S., at 310, 132 S.Ct. 2277,
a less demanding test than the “strict” scrutiny that
might be thought to apply outside the commercial
sphere. Under “exacting” scrutiny, we noted, a compelled subsidy must “serve a compelling state interest
that cannot be achieved through means significantly
less restrictive of associational freedoms.” Ibid. (internal quotation marks and alterations omitted).
In Harris, the second of these cases, we again found
that an agency-fee requirement failed “exacting scrutiny.” 573 U.S., at ––––, 134 S.Ct., at 2641. But we
questioned whether that test provides sufficient
protection for free speech rights, since “it is apparent
that the speech compelled” in agency-fee cases “is not
commercial speech.” Id., at ––––, 134 S.Ct., at 2639.
Picking up that cue, petitioner in the present case
contends that the Illinois law at issue should be
subjected to “strict scrutiny.” Brief for Petitioner 36.
The dissent, on the other hand, proposes that we apply
what amounts to rational-basis review, that is, that we
ask only whether a government employer could reasonably believe that the exaction of agency fees serves
its interests. See post, at 2489 (KAGAN, J., dissenting)
(“A government entity could reasonably conclude that
such a clause was needed”). This form of minimal
scrutiny is foreign to our free-speech jurisprudence,
and we reject it here. At the same time, we again find
it unnecessary to decide the issue of strict scrutiny
because the Illinois scheme cannot survive under even
the more permissive standard applied in Knox and
Harris.
In the remainder of this part of our opinion (Parts
III–B and III–C), we will apply this standard to the
justifications for agency fees adopted by the Court in
Abood. Then, in Parts IV and V, we will turn to

55a
alternative rationales proffered by respondents and
their amici.
B
In Abood, the main defense of the agency-fee
arrangement was that it served the State’s interest in
“labor peace,” 431 U.S., at 224, 97 S.Ct. 1782. By “labor
peace,” the Abood Court meant avoidance of the
conflict and disruption that it envisioned would occur
if the employees in a unit were represented by more
than one union. In such a situation, the Court predicted, “inter-union rivalries” would foster “dissension
within the work force,” and the employer could face
“conflicting demands from different unions.” Id., at
220–221, 97 S.Ct. 1782. Confusion would ensue if the
employer entered into and attempted to “enforce two
or more agreements specifying different terms and
conditions of employment.” Id., at 220, 97 S.Ct. 1782.
And a settlement with one union would be “subject to
attack from [a] rival labor organizatio[n].” Id., at 221,
97 S.Ct. 1782.
We assume that “labor peace,” in this sense of the
term, is a compelling state interest, but Abood cited no
evidence that the pandemonium it imagined would
result if agency fees were not allowed, and it is now
clear that Abood’s fears were unfounded. The Abood
Court assumed that designation of a union as the
exclusive representative of all the employees in a unit
and the exaction of agency fees are inextricably linked,
but that is simply not true. Harris, supra, at ––––, 134
S.Ct., at 2640.
The federal employment experience is illustrative.
Under federal law, a union chosen by majority vote is
designated as the exclusive representative of all the
employees, but federal law does not permit agency

56a
fees. See 5 U.S.C. §§ 7102, 7111(a), 7114(a). Nevertheless, nearly a million federal employees—about 27% of
the federal work force—are union members.1 The
situation in the Postal Service is similar. Although
permitted to choose an exclusive representative, Postal Service employees are not required to pay an agency
fee, 39 U.S.C. §§ 1203(a), 1209(c), and about 400,000
are union members.2 Likewise, millions of public
employees in the 28 States that have laws generally
prohibiting agency fees are represented by unions that
serve as the exclusive representatives of all the
employees.3 Whatever may have been the case 41
years ago when Abood was handed down, it is now
undeniable that “labor peace” can readily be achieved
“through means significantly less restrictive of associational freedoms” than the assessment of agency
fees. Harris, supra, at ––––, 134 S.Ct., at 2639
(internal quotation marks omitted).
C
In addition to the promotion of “labor peace,” Abood
cited “the risk of ‘free riders’” as justification for agency fees, 431 U.S., at 224, 97 S.Ct. 1782. Respondents
and some of their amici endorse this reasoning,
contending that agency fees are needed to prevent
1

See Bureau of Labor Statistics (BLS), Labor Force Statistics
From the Current Population Survey (Table 42) (2017), https://
www.bls.gov/cps/tables.htm (all Internet materials as visited
June 26, 2018).
2

See Union Membership and Coverage Database From the
Current Population Survey (Jan. 21, 2018), unionstats.com.
3

See National Conference of State Legislatures, Right–to–
Work States (2018), http://www.ncsl.org/research/labor-and-employ
ment/right-to-work-laws-and-bills.aspx# chart; see also, e.g.,
Brief for Mackinac Center for Public Policy as Amicus Curiae 27–
28, 34–36.

57a
nonmembers from enjoying the benefits of union
representation without shouldering the costs. Brief for
Union Respondent 34–36; Brief for State Respondents
41–45; see, e.g., Brief for International Brotherhood of
Teamsters as Amicus Curiae 3–5.
Petitioner strenuously objects to this free-rider
label. He argues that he is not a free rider on a bus
headed for a destination that he wishes to reach but is
more like a person shanghaied for an unwanted voyage.
Whichever description fits the majority of public
employees who would not subsidize a union if given
the option, avoiding free riders is not a compelling
interest. As we have noted, “free-rider arguments . . .
are generally insufficient to overcome First Amendment objections.” Knox, 567 U.S., at 311, 132 S.Ct.
2277. To hold otherwise across the board would have
startling consequences. Many private groups speak
out with the objective of obtaining government action
that will have the effect of benefiting nonmembers.
May all those who are thought to benefit from such
efforts be compelled to subsidize this speech?
Suppose that a particular group lobbies or speaks
out on behalf of what it thinks are the needs of senior
citizens or veterans or physicians, to take just a few
examples. Could the government require that all seniors, veterans, or doctors pay for that service even if
they object? It has never been thought that this is
permissible. “[P]rivate speech often furthers the interests of nonspeakers,” but “that does not alone empower
the state to compel the speech to be paid for.” Lehnert
v. Ferris Faculty Assn., 500 U.S. 507, 556, 111 S.Ct.
1950, 114 L.Ed.2d 572 (1991) (Scalia, J., concurring in
judgment in part and dissenting in part). In simple
terms, the First Amendment does not permit the

58a
government to compel a person to pay for another
party’s speech just because the government thinks
that the speech furthers the interests of the person
who does not want to pay.4
Those supporting agency fees contend that the situation here is different because unions are statutorily
required to “represen[t] the interests of all public
employees in the unit,” whether or not they are union
members. § 315/6(d); see, e.g., Brief for State Respondents 40–41, 45; post, at 2490 (KAGAN, J., dissenting).
Why might this matter?
We can think of two possible arguments. It might be
argued that a State has a compelling interest in
requiring the payment of agency fees because (1)
unions would otherwise be unwilling to represent nonmembers or (2) it would be fundamentally unfair to
require unions to provide fair representation for nonmembers if nonmembers were not required to pay.
Neither of these arguments is sound.
First, it is simply not true that unions will refuse to
serve as the exclusive representative of all employees
in the unit if they are not given agency fees. As noted,
unions represent millions of public employees in
jurisdictions that do not permit agency fees. No union
is ever compelled to seek that designation. On the

4

The collective-action problem cited by the dissent, post, at
2489–2490, is not specific to the agency-fee context. And contrary
to the dissent’s suggestion, it is often not practical for an entity
that lobbies or advocates on behalf of the members of a group to
tailor its message so that only its members benefit from its
efforts. Consider how effective it would be for a group that
advocates on behalf of, say, seniors, to argue that a new measure
should apply only to its dues-paying members.

59a
contrary, designation as exclusive representative is
avidly sought.5 Why is this so?
Even without agency fees, designation as the exclusive representative confers many benefits. As noted,
that status gives the union a privileged place in negotiations over wages, benefits, and working conditions.
See § 315/6(c). Not only is the union given the exclusive right to speak for all the employees in collective
bargaining, but the employer is required by state law
to listen to and to bargain in good faith with only that
union. § 315/7. Designation as exclusive representative thus “results in a tremendous increase in the
power” of the union. American Communications Assn.
v. Douds, 339 U.S. 382, 401, 70 S.Ct. 674, 94 L.Ed. 925
(1950).
In addition, a union designated as exclusive representative is often granted special privileges, such as
obtaining information about employees, see § 315/6(c),
and having dues and fees deducted directly from employee wages, §§ 315/6(e)-(f). The collective-bargaining
agreement in this case guarantees a long list of
additional privileges. See App. 138–143.
These benefits greatly outweigh any extra burden
imposed by the duty of providing fair representation
for nonmembers. What this duty entails, in simple
terms, is an obligation not to “act solely in the interests
of [the union’s] own members.” Brief for State
5

In order to obtain that status, a union must petition to be
recognized and campaign to win majority approval. Ill. Comp.
Stat., ch. 5, § 315/9(a) (2016); see, e.g., County of Du Page v.
Illinois Labor Relations Bd., 231 Ill.2d 593, 597–600, 326 Ill.Dec.
848, 900 N.E.2d 1095, 1098–1099 (2008). And unions eagerly seek
this support. See, e.g., Brief for Employees of the State of
Minnesota Court System as Amici Curiae 9–17.

60a
Respondents 41; see Cintron v. AFSCME, Council 31,
No. S–CB–16–032, p. 1, 34 PERI ¶ 105 (ILRB Dec. 13,
2017) (union may not intentionally direct “animosity”
toward nonmembers based on their “dissident union
practices”); accord, 14 Penn Plaza LLC v. Pyett, 556
U.S. 247, 271, 129 S.Ct. 1456, 173 L.Ed.2d 398 (2009);
Vaca v. Sipes, 386 U.S. 171, 177, 87 S.Ct. 903, 17
L.Ed.2d 842 (1967).
What does this mean when it comes to the negotiation of a contract? The union may not negotiate a
collective-bargaining agreement that discriminates
against nonmembers, see Steele v. Louisville &
Nashville R. Co., 323 U.S. 192, 202–203, 65 S.Ct. 226,
89 L.Ed. 173 (1944), but the union’s bargaining
latitude would be little different if state law simply
prohibited public employers from entering into agreements that discriminate in that way. And for that
matter, it is questionable whether the Constitution
would permit a public-sector employer to adopt a
collective-bargaining agreement that discriminates
against nonmembers. See id., at 198–199, 202, 65
S.Ct. 226 (analogizing a private-sector union’s fairrepresentation duty to the duty “the Constitution
imposes upon a legislature to give equal protection to
the interests of those for whom it legislates”); cf.
Rumsfeld v. Forum for Academic and Institutional
Rights, Inc., 547 U.S. 47, 69, 126 S.Ct. 1297, 164
L.Ed.2d 156 (2006) (recognizing that government may
not “impose penalties or withhold benefits based on
membership in a disfavored group” where doing so
“ma[kes] group membership less attractive”). To the
extent that an employer would be barred from acceding to a discriminatory agreement anyway, the union’s
duty not to ask for one is superfluous. It is noteworthy
that neither respondents nor any of the 39 amicus
briefs supporting them—nor the dissent—has

61a
explained why the duty of fair representation causes
public-sector unions to incur significantly greater
expenses than they would otherwise bear in negotiating collective-bargaining agreements.
What about the representation of nonmembers in
grievance proceedings? Unions do not undertake this
activity solely for the benefit of nonmembers—which
is why Illinois law gives a public-sector union the right
to send a representative to such proceedings even if
the employee declines union representation. § 315/6(b).
Representation of nonmembers furthers the union’s
interest in keeping control of the administration of the
collective-bargaining agreement, since the resolution
of one employee’s grievance can affect others. And
when a union controls the grievance process, it may,
as a practical matter, effectively subordinate “the
interests of [an] individual employee . . . to the collective interests of all employees in the bargaining unit.”
Alexander v. Gardner–Denver Co., 415 U.S. 36, 58, n.
19, 94 S.Ct. 1011, 39 L.Ed.2d 147 (1974); see Stahulak
v. Chicago, 184 Ill.2d 176, 180–181, 234 Ill.Dec. 432,
703 N.E.2d 44, 46–47 (1998); Mahoney v. Chicago, 293
Ill.App.3d 69, 73–74, 227 Ill.Dec. 209, 687 N.E.2d 132,
135–137 (1997) (union has “‘discretion to refuse to
process’” a grievance, provided it does not act
“arbitrar[ily]” or “in bad faith” (emphasis deleted)).
In any event, whatever unwanted burden is imposed
by the representation of nonmembers in disciplinary
matters can be eliminated “through means significantly less restrictive of associational freedoms” than
the imposition of agency fees. Harris, 573 U.S., at ––––,
134 S.Ct., at 2639 (internal quotation marks omitted).
Individual nonmembers could be required to pay for
that service or could be denied union representation

62a
altogether. Thus, agency fees cannot be sustained on
the ground that unions would otherwise be unwilling
to represent nonmembers.
6

Nor can such fees be justified on the ground that it
would otherwise be unfair to require a union to bear
the duty of fair representation. That duty is a necessary concomitant of the authority that a union seeks
when it chooses to serve as the exclusive representative of all the employees in a unit. As explained,
designating a union as the exclusive representative of
nonmembers substantially restricts the nonmembers’
rights. Supra, at 2460–2461. Protection of their
interests is placed in the hands of the union, and if the
union were free to disregard or even work against
those interests, these employees would be wholly
unprotected. That is why we said many years ago that
serious “constitutional questions [would] arise” if the
union were not subject to the duty to represent all
employees fairly. Steele, supra, at 198, 65 S.Ct. 226.
In sum, we do not see any reason to treat the freerider interest any differently in the agency-fee context
than in any other First Amendment context. See Knox,
567 U.S., at 311, 321, 132 S.Ct. 2277. We therefore
hold that agency fees cannot be upheld on free-rider
grounds.
6

There is precedent for such arrangements. Some States have
laws providing that, if an employee with a religious objection to
paying an agency fee “requests the [union] to use the grievance
procedure or arbitration procedure on the employee’s behalf, the
[union] is authorized to charge the employee for the reasonable
cost of using such procedure.” E.g., Cal. Govt.Code Ann. § 3546.3
(West 2010); cf. Ill. Comp. Stat., ch. 5, § 315/6(g) (2016). This more
tailored alternative, if applied to other objectors, would prevent
free ridership while imposing a lesser burden on First Amendment rights.

63a
IV
Implicitly acknowledging the weakness of Abood’s
own reasoning, proponents of agency fees have come
forward with alternative justifications for the decision,
and we now address these arguments.
A
The most surprising of these new arguments is the
Union respondent’s originalist defense of Abood.
According to this argument, Abood was correctly
decided because the First Amendment was not
originally understood to provide any protection for the
free speech rights of public employees. Brief for Union
Respondent 2–3, 17–20.
As an initial matter, we doubt that the Union—or
its members—actually want us to hold that public
employees have “no [free speech] rights.” Id., at 1. Cf.,
e.g., Brief for National Treasury Employees Union as
Amicus Curiae in Garcetti v. Ceballos, O.T. 2005, No.
04–473, p. 7 (arguing for “broa[d]” public-employee
First Amendment rights); Brief for AFL–CIO as
Amicus Curiae in No. 04–473 (similar).
It is particularly discordant to find this argument in
a brief that trumpets the importance of stare decisis.
See Brief for Union Respondent 47–57. Taking away
free speech protection for public employees would
mean overturning decades of landmark precedent.
Under the Union’s theory, Pickering v. Board of Ed. of
Township High School Dist. 205, Will Cty., 391 U.S.
563, 88 S.Ct. 1731, 20 L.Ed.2d 811 (1968), and its
progeny would fall. Yet Pickering, as we will discuss,
is now the foundation for respondents’ chief defense of
Abood. And indeed, Abood itself would have to go if
public employees have no free speech rights, since
Abood holds that the First Amendment prohibits the

64a
exaction of agency fees for political or ideological
purposes. 431 U.S., at 234–235, 97 S.Ct. 1782 (finding
it “clear” that “a government may not require an
individual to relinquish rights guaranteed him by the
First Amendment as a condition of public employment”). Our political patronage cases would be
doomed. See, e.g., Rutan v. Republican Party of Ill.,
497 U.S. 62, 110 S.Ct. 2729, 111 L.Ed.2d 52 (1990);
Branti v. Finkel, 445 U.S. 507, 100 S.Ct. 1287, 63
L.Ed.2d 574 (1980); Elrod v. Burns, 427 U.S. 347, 96
S.Ct. 2673, 49 L.Ed.2d 547 (1976). Also imperiled
would be older precedents like Wieman v. Updegraff,
344 U.S. 183, 73 S.Ct. 215, 97 L.Ed. 216 (1952) (loyalty
oaths), Shelton v. Tucker, 364 U.S. 479, 81 S.Ct. 247,
5 L.Ed.2d 231 (1960) (disclosure of memberships and
contributions), and Keyishian v. Board of Regents of
Univ. of State of N. Y., 385 U.S. 589, 87 S.Ct. 675, 17
L.Ed.2d 629 (1967) (subversive speech). Respondents
presumably want none of this, desiring instead that
we apply the Constitution’s supposed original meaning only when it suits them—to retain the part of
Abood that they like. See Tr. of Oral Arg. 56–57. We
will not engage in this halfway originalism.
Nor, in any event, does the First Amendment’s original meaning support the Union’s claim. The Union
offers no persuasive founding-era evidence that public
employees were understood to lack free speech protections. While it observes that restrictions on federal
employees’ activities have existed since the First
Congress, most of its historical examples involved
limitations on public officials’ outside business dealings, not on their speech. See Ex parte Curtis, 106 U.S.
371, 372–373, 1 S.Ct. 381, 27 L.Ed. 232 (1882). The
only early speech restrictions the Union identifies are
an 1806 statute prohibiting military personnel from
using “‘contemptuous or disrespectful words against

65a
the President’” and other officials, and an 1801
directive limiting electioneering by top government
employees. Brief for Union Respondent 3. But those
examples at most show that the government was
understood to have power to limit employee speech
that threatened important governmental interests
(such as maintaining military discipline and preventing corruption)—not that public employees’ speech
was entirely unprotected. Indeed, more recently this
Court has upheld similar restrictions even while
recognizing that government employees possess First
Amendment rights. See, e.g., Brown v. Glines, 444 U.S.
348, 353, 100 S.Ct. 594, 62 L.Ed.2d 540 (1980) (upholding military restriction on speech that threatened
troop readiness); Civil Service Comm’n v. Letter
Carriers, 413 U.S. 548, 556–557, 93 S.Ct. 2880, 37
L.Ed.2d 796 (1973) (upholding limits on public
employees’ political activities).
Ultimately, the Union relies, not on founding-era
evidence, but on dictum from a 1983 opinion of this
Court stating that, “[f]or most of th[e 20th] century,
the unchallenged dogma was that a public employee
had no right to object to conditions placed upon the
terms of employment—including those which restricted
the exercise of constitutional rights.” Connick v.
Myers, 461 U.S. 138, 143, 103 S.Ct. 1684, 75 L.Ed.2d
708; see Brief for Union Respondent 2, 17. Even on its
own terms, this dictum about 20th-century views does
not purport to describe how the First Amendment was
understood in 1791. And a careful examination of the
decisions by this Court that Connick cited to support
its dictum, see 461 U.S., at 144, 103 S.Ct. 1684, reveals
that none of them rested on the facile premise that
public employees are unprotected by the First Amendment. Instead, they considered (much as we do today)
whether particular speech restrictions were “neces-

66a
sary to protect” fundamental government interests.
Curtis, supra, at 374, 1 S.Ct. 381.
The Union has also failed to show that, even if public
employees enjoyed free speech rights, the First
Amendment was nonetheless originally understood to
allow forced subsidies like those at issue here. We can
safely say that, at the time of the adoption of the First
Amendment, no one gave any thought to whether
public-sector unions could charge nonmembers agency
fees. Entities resembling labor unions did not exist at
the founding, and public-sector unions did not emerge
until the mid–20th century. The idea of public-sector
unionization and agency fees would astound those who
framed and ratified the Bill of Rights.7 Thus, the
Union cannot point to any accepted founding-era
practice that even remotely resembles the compulsory
assessment of agency fees from public-sector employees. We do know, however, that prominent members of
the founding generation condemned laws requiring
public employees to affirm or support beliefs with
which they disagreed. As noted, Jefferson denounced
7

Indeed, under common law, “collective bargaining was
unlawful,” Teamsters v. Terry, 494 U.S. 558, 565–566, 110 S.Ct.
1339, 108 L.Ed.2d 519 (1990) (plurality opinion); see N. Citrine,
Trade Union Law 4–7, 9–10 (2d ed. 1960); Notes, Legality of
Trade Unions at Common Law, 25 Harv. L. Rev. 465, 466 (1912),
and into the 20th century, every individual employee had the
“liberty of contract” to “sell his labor upon such terms as he
deem[ed] proper,” Adair v. United States, 208 U.S. 161, 174–175,
28 S.Ct. 277, 52 L.Ed. 436 (1908); see R. Morris, Government and
Labor in Early America 208, 529 (1946). So even the concept of a
private third-party entity with the power to bind employees on
the terms of their employment likely would have been foreign to
the Founders. We note this only to show the problems inherent
in the Union respondent’s argument; we are not in any way
questioning the foundations of modern labor law.

67a
compelled support for such beliefs as “‘sinful and
tyrannical,’” supra, at 2464, and others expressed
similar views.8
In short, the Union has offered no basis for concluding that Abood is supported by the original understanding of the First Amendment.
B
The principal defense of Abood advanced by
respondents and the dissent is based on our decision
in Pickering, 391 U.S. 563, 88 S.Ct. 1731, 20 L.Ed.2d
811, which held that a school district violated the First
Amendment by firing a teacher for writing a letter
critical of the school administration. Under Pickering
and later cases in the same line, employee speech is
largely unprotected if it is part of what the employee
is paid to do, see Garcetti v. Ceballos, 547 U.S. 410,
421–422, 126 S.Ct. 1951, 164 L.Ed.2d 689 (2006), or if
it involved a matter of only private concern, see
Connick, supra, at 146–149, 103 S.Ct. 1684. On the
other hand, when a public employee speaks as a
citizen on a matter of public concern, the employee’s
speech is protected unless “‘the interest of the state, as
an employer, in promoting the efficiency of the public
services it performs through its employees’ outweighs
‘the interests of the [employee], as a citizen, in
commenting upon matters of public concern.’” Harris,
573 U.S., at ––––, 134 S.Ct., at 2642 (quoting
Pickering, supra, at 568, 88 S.Ct. 1731). Pickering was
the centerpiece of the defense of Abood in Harris, see
8

See, e.g., Ellsworth, The Landholder, VII (1787), in Essays
on the Constitution of the United States 167–171 (P. Ford ed.
1892); Webster, On Test Laws, Oaths of Allegiance and Abjuration, and Partial Exclusions from Office, in A Collection of Essays
and Fugitiv[e] Writings 151–153 (1790).

68a
573 U.S., at –––––––––, 134 S.Ct., at 2653–2656
(KAGAN, J., dissenting), and we found the argument
unpersuasive, see id., at –––––––––, 134 S.Ct., at
2641–2643. The intervening years have not improved
its appeal.
1
As we pointed out in Harris, Abood was not based
on Pickering. 573 U.S., at ––––, and n. 26, 134 S.Ct.,
at 2641, and n. 26. The Abood majority cited the case
exactly once—in a footnote—and then merely to
acknowledge that “there may be limits on the extent
to which an employee in a sensitive or policymaking
position may freely criticize his superiors and the
policies they espouse.” 431 U.S., at 230, n. 27, 97 S.Ct.
1782. That aside has no bearing on the agency-fee
issue here.9
Respondents’ reliance on Pickering is thus “an effort
to find a new justification for the decision in Abood.”
Harris, supra, at ––––, 134 S.Ct., at 2641. And we have
previously taken a dim view of similar attempts to
recast problematic First Amendment decisions. See,
e.g., Citizens United v. Federal Election Comm’n, 558
U.S. 310, 348–349, 363, 130 S.Ct. 876, 175 L.Ed.2d 753
(2010) (rejecting efforts to recast Austin v. Michigan
Chamber of Commerce, 494 U.S. 652, 110 S.Ct. 1391,
9

Justice Powell’s separate opinion did invoke Pickering in a
relevant sense, but he did so only to acknowledge the State’s
relatively greater interest in regulating speech when it acts as
employer than when it acts as sovereign. Abood v. Detroit Bd. of
Ed., 431 U.S. 209, 259, 97 S.Ct. 1782, 52 L.Ed.2d 261 (1977)
(concurring in judgment). In the very next sentence, he explained
that “even in public employment, a significant impairment of
First Amendment rights must survive exacting scrutiny.” Ibid.
(internal quotation marks omitted). That is the test we apply
today.

69a
108 L.Ed.2d 652 (1990)); see also Citizens United,
supra, at 382–385, 130 S.Ct. 876 (ROBERTS, C.J.,
concurring). We see no good reason, at this late date,
to try to shoehorn Abood into the Pickering
framework.
2
Even if that were attempted, the shoe would be a
painful fit for at least three reasons.
First, the Pickering framework was developed for
use in a very different context—in cases that involve
“one employee’s speech and its impact on that
employee’s public responsibilities.” United States v.
Treasury Employees, 513 U.S. 454, 467, 115 S.Ct.
1003, 130 L.Ed.2d 964 (1995). This case, by contrast,
involves a blanket requirement that all employees
subsidize speech with which they may not agree.
While we have sometimes looked to Pickering in considering general rules that affect broad categories of
employees, we have acknowledged that the standard
Pickering analysis requires modification in that
situation. See 513 U.S., at 466–468, and n. 11, 115
S.Ct. 1003. A speech-restrictive law with “widespread
impact,” we have said, “gives rise to far more serious
concerns than could any single supervisory decision.”
Id., at 468, 115 S.Ct. 1003. Therefore, when such a law
is at issue, the government must shoulder a correspondingly “heav[ier]” burden, id., at 466, 115 S.Ct.
1003, and is entitled to considerably less deference in
its assessment that a predicted harm justifies a
particular impingement on First Amendment rights,
see id., at 475–476, n. 21, 115 S.Ct. 1003; accord, id.,
at 482–483, 115 S.Ct. 1003 (O’Connor, J., concurring
in judgment in part and dissenting in part). The end
product of those adjustments is a test that more closely

70a
resembles exacting scrutiny than the traditional
Pickering analysis.
The core collective-bargaining issue of wages and
benefits illustrates this point. Suppose that a single
employee complains that he or she should have
received a 5% raise. This individual complaint would
likely constitute a matter of only private concern and
would therefore be unprotected under Pickering. But a
public-sector union’s demand for a 5% raise for the
many thousands of employees it represents would be
another matter entirely. Granting such a raise could
have a serious impact on the budget of the government
unit in question, and by the same token, denying a
raise might have a significant effect on the
performance of government services. When a large
number of employees speak through their union, the
category of speech that is of public concern is greatly
enlarged, and the category of speech that is of only
private concern is substantially shrunk. By disputing
this, post, at 2493–2494, the dissent denies the
obvious.
Second, the Pickering framework fits much less well
where the government compels speech or speech
subsidies in support of third parties. Pickering is based
on the insight that the speech of a public-sector
employee may interfere with the effective operation of
a government office. When a public employer does not
simply restrict potentially disruptive speech but
commands that its employees mouth a message on its
own behalf, the calculus is very different. Of course, if
the speech in question is part of an employee’s official
duties, the employer may insist that the employee
deliver any lawful message. See Garcetti, 547 U.S., at
421–422, 425–426, 126 S.Ct. 1951. Otherwise,
however, it is not easy to imagine a situation in which

71a
a public employer has a legitimate need to demand
that its employees recite words with which they
disagree. And we have never applied Pickering in such
a case.
Consider our decision in Connick. In that case, we
held that an assistant district attorney’s complaints
about the supervisors in her office were, for the most
part, matters of only private concern. 461 U.S., at 148,
103 S.Ct. 1684. As a result, we held, the district
attorney could fire her for making those comments.
Id., at 154, 103 S.Ct. 1684. Now, suppose that the
assistant had not made any critical comments about
the supervisors but that the district attorney, out of
the blue, demanded that she circulate a memo praising
the supervisors. Would her refusal to go along still be
a matter of purely private concern? And if not, would
the order be justified on the ground that the effective
operation of the office demanded that the assistant
voice complimentary sentiments with which she
disagreed? If Pickering applies at all to compelled
speech—a question that we do not decide—it would
certainly require adjustment in that context.
Third, although both Pickering and Abood divided
speech into two categories, the cases’ categorization
schemes do not line up. Superimposing the Pickering
scheme on Abood would significantly change the
Abood regime.
Let us first look at speech that is not germane to
collective bargaining but instead concerns political or
ideological issues. Under Abood, a public employer is
flatly prohibited from permitting nonmembers to be
charged for this speech, but under Pickering, the
employees’ free speech interests could be overcome if a
court found that the employer’s interests outweighed
the employees’.

72a
A similar problem arises with respect to speech that
is germane to collective bargaining. The parties
dispute how much of this speech is of public concern,
but respondents concede that much of it falls squarely
into that category. See Tr. of Oral Arg. 47, 65. Under
Abood, nonmembers may be required to pay for all this
speech, but Pickering would permit that practice only
if the employer’s interests outweighed those of the
employees. Thus, recasting Abood as an application of
Pickering would substantially alter the Abood scheme.
For all these reasons, Pickering is a poor fit indeed.
V
Even if we were to apply some form of Pickering,
Illinois’ agency-fee arrangement would not survive.
A
Respondents begin by suggesting that union speech
in collective-bargaining and grievance proceedings
should be treated like the employee speech in Garcetti,
i.e., as speech “pursuant to [an employee’s] official
duties,” 547 U.S., at 421, 126 S.Ct. 1951. Many
employees, in both the public and private sectors, are
paid to write or speak for the purpose of furthering the
interests of their employers. There are laws that
protect public employees from being compelled to say
things that they reasonably believe to be untrue or
improper, see id., at 425–426, 126 S.Ct. 1951, but in
general when public employees are performing their
job duties, their speech may be controlled by their
employer. Trying to fit union speech into this framework, respondents now suggest that the union speech
funded by agency fees forms part of the official duties
of the union officers who engage in the speech. Brief
for Union Respondent 22–23; see Brief for State
Respondents 23–24.

73a
This argument distorts collective bargaining and
grievance adjustment beyond recognition. When an
employee engages in speech that is part of the
employee’s job duties, the employee’s words are really
the words of the employer. The employee is effectively
the employer’s spokesperson. But when a union negotiates with the employer or represents employees in
disciplinary proceedings, the union speaks for the
employees, not the employer. Otherwise, the employer
would be negotiating with itself and disputing its own
actions. That is not what anybody understands to be
happening.
What is more, if the union’s speech is really the
employer’s speech, then the employer could dictate
what the union says. Unions, we trust, would be
appalled by such a suggestion. For these reasons,
Garcetti is totally inapposite here.
B
Since the union speech paid for by agency fees is not
controlled by Garcetti, we move on to the next step of
the Pickering framework and ask whether the speech
is on a matter of public or only private concern. In
Harris, the dissent’s central argument in defense of
Abood was that union speech in collective bargaining,
including speech about wages and benefits, is basically
a matter of only private interest. See 573 U.S., at
–––––––––, 134 S.Ct., at 2654–2655 (KAGAN, J.,
dissenting). We squarely rejected that argument, see id.,
at –––––––––, 134 S.Ct., at 2642–2643, and the facts of
the present case substantiate what we said at that time:
“[I]t is impossible to argue that the level of . . . state
spending for employee benefits . . . is not a matter of
great public concern,” id., at –––––––––, 134 S.Ct., at
2642–2643.

74a
Illinois, like some other States and a number of
counties and cities around the country, suffers from
severe budget problems.10 As of 2013, Illinois had
nearly $160 billion in unfunded pension and retiree
healthcare liabilities.11 By 2017, that number had only
grown, and the State was grappling with $15 billion in
unpaid bills.12 We are told that a “quarter of the budget
is now devoted to paying down” those liabilities.13
These problems and others led Moody’s and S & P to
downgrade Illinois’ credit rating to “one step above
junk”—the “lowest ranking on record for a U.S.
state.”14
The Governor, on one side, and public-sector unions,
on the other, disagree sharply about what to do about
these problems. The State claims that its employmentrelated debt is “‘squeezing core programs in education,
10

See Brief for State of Michigan et al. as Amici Curiae 9–24.
Nationwide, the cost of state and local employees’ wages and
benefits, for example, is nearly $1.5 trillion—more than half of
those jurisdictions’ total expenditures. See Dept. of Commerce,
Bureau of Economic Analysis, National Data, GDP & Personal
Income, Table 6.2D, line 92 (Aug. 3, 2017), and Table 3.3, line 37
(May 30, 2018), https://www.bea.gov/iTable/iTable.cfm?reqid=19
&step=2# reqid=19&step=2&isuri=1&1921 =survey. And many
States and cities struggle with unfunded pension and retiree
healthcare liabilities and other budget issues.
11

PEW Charitable Trusts, Fiscal 50: State Trends and
Analysis (updated May 17, 2016), http://www.pewtrusts.org/en/
research-and-analysis/data-visualizations/2014/fiscal-50# ind4.
12

See Brief for Jason R. Barclay et al. as Amici Curiae 9; M.
Egan, How Illinois Became America’s Most Messed–Up State,
CNN Money (July 1, 2017), https://cnnmon.ie/2tp9NX5.
13
14

Brief for Jason R. Barclay et al. as Amici Curiae 9.

E. Campbell, S & P, Moody’s Downgrade Illinois to Near
Junk, Lowest Ever for a U.S. State, Bloomberg (June 1, 2017),
https://bloom.bg/2roEJUc.

75a
public safety, and human services, in addition to
limiting [the State’s] ability to pay [its] bills.’”
Securities Act of 1933 Release No. 9389, 105 S.E.C.
Docket 3381 (2013). It therefore “told the Union that
it would attempt to address th[e financial] crisis, at
least in part, through collective bargaining.” Board
Decision 12–13. And “the State’s desire for savings” in
fact “dr[o]ve [its] bargaining” positions on matters
such as health-insurance benefits and holiday, overtime, and promotion policies. Id., at 13; Illinois Dept.
of Central Management Servs. v. AFSCME, Council
31, No. S–CB–16–17 etc., 33 PERI ¶ 67 (ILRB Dec. 13,
2016) (ALJ Decision), pp. 26–28, 63–66, 224. But when
the State offered cost-saving proposals on these issues,
the Union countered with very different suggestions.
Among other things, it advocated wage and tax
increases, cutting spending “to Wall Street financial
institutions,” and reforms to Illinois’ pension and tax
systems (such as closing “corporate tax loopholes,”
“[e]xpanding the base of the state sales tax,” and
“allowing an income tax that is adjusted in accordance
with ability to pay”). Id., at 27–28. To suggest that
speech on such matters is not of great public concern—
or that it is not directed at the “public square,” post, at
2495 (KAGAN, J., dissenting)—is to deny reality.
In addition to affecting how public money is spent,
union speech in collective bargaining addresses many
other important matters. As the examples offered by
respondents’ own amici show, unions express views on
a wide range of subjects—education, child welfare,
healthcare, and minority rights, to name a few. See,
e.g., Brief for American Federation of Teachers as
Amicus Curiae 15–27; Brief for Child Protective
Service Workers et al. as Amici Curiae 5–13; Brief for
Human Rights Campaign et al. as Amici Curiae 10–
17; Brief for National Women’s Law Center et al. as

76a
Amici Curiae 14–30. What unions have to say on these
matters in the context of collective bargaining is of
great public importance.
Take the example of education, which was the focus
of briefing and argument in Friedrichs. The public
importance of subsidized union speech is especially
apparent in this field, since educators make up by far
the largest category of state and local government
employees, and education is typically the largest component of state and local government expenditures.15
Speech in this area also touches on fundamental
questions of education policy. Should teacher pay be
based on seniority, the better to retain experienced
teachers? Or should schools adopt merit-pay systems
to encourage teachers to get the best results out of
their students?16 Should districts transfer more experienced teachers to the lower performing schools that
may have the greatest need for their skills, or should
those teachers be allowed to stay where they have put
down roots?17 Should teachers be given tenure protection and, if so, under what conditions? On what
grounds and pursuant to what procedures should
teachers be subject to discipline or dismissal? How
should teacher performance and student progress be
measured—by standardized tests or other means?

15

See National Association of State Budget Officers, Summary: Spring 2018 Fiscal Survey of States 2 (June 14, 2018),
http://www.nasbo.org; ProQuest Statistical Abstract of the
United States: 2018, pp. 306, Table 476, 321, Table 489.
16

See Rogers, School Districts ‘Race to the Top’ Despite
Teacher Dispute, Marin Independent J., June 19, 2010.
17

See Sawchuk, Transferring Top Teachers Has Benefits:
Study Probes Moving Talent to Low–Performing Schools, Education Week, Nov. 13, 2013, pp. 1, 13.

77a
Unions can also speak out in collective bargaining
on controversial subjects such as climate change,18 the
Confederacy,19 sexual orientation and gender identity,20 evolution,21 and minority religions.22 These are
sensitive political topics, and they are undoubtedly
matters of profound “‘value and concern to the public.’”
Snyder v. Phelps, 562 U.S. 443, 453, 131 S.Ct. 1207,
179 L.Ed.2d 172 (2011). We have often recognized that
such speech “‘occupies the highest rung of the hierarchy of First Amendment values’” and merits “‘special
protection.’” Id., at 452, 131 S.Ct. 1207.
What does the dissent say about the prevalence of
such issues? The most that it is willing to admit is that
“some” issues that arise in collective bargaining “raise
important non-budgetary disputes.” Post, at 2496.
Here again, the dissent refuses to recognize what
actually occurs in public-sector collective bargaining.
Even union speech in the handling of grievances
may be of substantial public importance and may be
directed at the “public square.” Post, at 2495. For
instance, the Union respondent in this case recently
18

See Tucker, Textbooks Equivocate on Global Warming:
Stanford Study Finds Portrayal ‘Dishonest,’ San Francisco
Chronicle, Nov. 24, 2015, p. C1.
19

See Reagan, Anti–Confederacy Movement Rekindles Texas
Textbook Controversy, San Antonio Current, Aug. 4, 2015.
20

See Watanabe, How To Teach Gay Issues in 1st Grade? A
New Law Requiring California Schools To Have Lessons About
LGBT Americans Raises Tough Questions, L.A. Times, Oct. 16,
2011, p. A1.
21

See Goodstein, A Web of Faith, Law and Science in
Evolution Suit, N.Y. Times, Sept. 26, 2005, p. A1.
22

See Golden, Defending the Faith: New Battleground in
Textbook Wars: Religion in History, Wall St. J., Jan. 25, 2006,
p. A1.

78a
filed a grievance seeking to compel Illinois to appropriate $75 million to fund a 2% wage increase. State v.
AFSCME Council 31, 2016 IL 118422, 401 Ill.Dec. 907,
51 N.E.3d 738, 740–742, and n. 4. In short, the union
speech at issue in this case is overwhelmingly of
substantial public concern.
C
The only remaining question under Pickering is
whether the State’s proffered interests justify the
heavy burden that agency fees inflict on nonmembers’
First Amendment interests. We have already
addressed the state interests asserted in Abood—
promoting “labor peace” and avoiding free riders, see
supra, at 2465–2469—and we will not repeat that
analysis.
In Harris and this case, defenders of Abood have
asserted a different state interest—in the words of the
Harris dissent, the State’s “interest in bargaining with
an adequately funded exclusive bargaining agent.”
573 U.S., at ––––, 134 S.Ct., at 2648 (KAGAN, J.,
dissenting); see also post, at 2489–2490 (KAGAN, J.,
dissenting). This was not “the interest Abood recognized and protected,” Harris, supra, at ––––, 134 S.Ct.,
at 2648 (KAGAN, J., dissenting), and, in any event, it
is insufficient.
Although the dissent would accept without any
serious independent evaluation the State’s assertion
that the absence of agency fees would cripple publicsector unions and thus impair the efficiency of government operations, see post, at 2490–2491, 2492–2493,
ample experience, as we have noted, supra, at 2465–
2466, shows that this is questionable.
Especially in light of the more rigorous form of
Pickering analysis that would apply in this context,

79a
see supra, at 2472–2473, the balance tips decisively in
favor of the employees’ free speech rights.23
We readily acknowledge, as Pickering did, that “the
State has interests as an employer in regulating the
speech of its employees that differ significantly from
those it possesses in connection with regulation of the
speech of the citizenry in general.” 391 U.S., at 568, 88
S.Ct. 1731. Our analysis is consistent with that principle. The exacting scrutiny standard we apply in this
case was developed in the context of commercial
23

Claiming that our decision will hobble government operations, the dissent asserts that it would prevent a government
employer from taking action against disruptive non-unionized
employees in two carefully constructed hypothetical situations.
See post, at 2495–2497. Both hypotheticals are short on potentially important details, but in any event, neither would be
affected by our decision in this case. Rather, both would simply
call for the application of the standard Pickering test.
In one of the hypotheticals, teachers “protest merit pay in the
school cafeteria.” Post, at 2496. If such a case actually arose, it
would be important to know, among other things, whether the
teachers involved were supposed to be teaching in their classrooms at the time in question and whether the protest occurred
in the presence of students during the student lunch period. If
both those conditions were met, the teachers would presumably
be violating content-neutral rules regarding their duty to teach
at specified times and places, and their conduct might well have
a disruptive effect on the educational process. Thus, in the
dissent’s hypothetical, the school’s interests might well outweigh
those of the teachers, but in this hypothetical case, as in all
Pickering cases, the particular facts would be very important.
In the other hypothetical, employees agitate for a better health
plan “at various inopportune times and places.” Post, at 2496.
Here, the lack of factual detail makes it impossible to evaluate
how the Pickering balance would come out. The term “agitat[ion]”
can encompass a wide range of conduct, as well as speech. Post,
at 2496. And the time and place of the agitation would also be
important.

80a
speech, another area where the government has traditionally enjoyed greater-than-usual power to regulate
speech. See supra, at 2464 –2465. It is also not
disputed that the State may require that a union serve
as exclusive bargaining agent for its employees—itself
a significant impingement on associational freedoms
that would not be tolerated in other contexts. We
simply draw the line at allowing the government to go
further still and require all employees to support the
union irrespective of whether they share its views.
Nothing in the Pickering line of cases requires us to
uphold every speech restriction the government
imposes as an employer. See Pickering, supra, at 564–
566, 88 S.Ct. 1731 (holding teacher’s dismissal for
criticizing school board unconstitutional); Rankin v.
McPherson, 483 U.S. 378, 392, 107 S.Ct. 2891, 97
L.Ed.2d 315 (1987) (holding clerical employee’s dismissal for supporting assassination attempt on President unconstitutional); Treasury Employees, 513 U.S.,
at 477, 115 S.Ct. 1003 (holding federal-employee
honoraria ban unconstitutional).
VI
For the reasons given above, we conclude that
public-sector agency-shop arrangements violate the
First Amendment, and Abood erred in concluding
otherwise. There remains the question whether stare
decisis nonetheless counsels against overruling Abood.
It does not.
“Stare decisis is the preferred course because it
promotes the evenhanded, predictable, and consistent
development of legal principles, fosters reliance on
judicial decisions, and contributes to the actual and
perceived integrity of the judicial process.” Payne v.
Tennessee, 501 U.S. 808, 827, 111 S.Ct. 2597, 115
L.Ed.2d 720 (1991). We will not overturn a past deci-

81a
sion unless there are strong grounds for doing so.
United States v. International Business Machines
Corp., 517 U.S. 843, 855–856, 116 S.Ct. 1793, 135
L.Ed.2d 124 (1996); Citizens United, 558 U.S., at 377,
130 S.Ct. 876 (ROBERTS, C.J., concurring). But as we
have often recognized, stare decisis is “‘not an inexorable command.’” Pearson v. Callahan, 555 U.S. 223,
233, 129 S.Ct. 808, 172 L.Ed.2d 565 (2009); see also
Lawrence v. Texas, 539 U.S. 558, 577, 123 S.Ct. 2472,
156 L.Ed.2d 508 (2003); State Oil Co. v. Khan, 522 U.S.
3, 20, 118 S.Ct. 275, 139 L.Ed.2d 199 (1997); Agostini
v. Felton, 521 U.S. 203, 235, 117 S.Ct. 1997, 138
L.Ed.2d 391 (1997); Seminole Tribe of Fla. v. Florida,
517 U.S. 44, 63, 116 S.Ct. 1114, 134 L.Ed.2d 252
(1996); Payne, supra, at 828, 111 S.Ct. 2597.
The doctrine “is at its weakest when we interpret
the Constitution because our interpretation can be
altered only by constitutional amendment or by
overruling our prior decisions.” Agostini, supra, at 235,
117 S.Ct. 1997. And stare decisis applies with perhaps
least force of all to decisions that wrongly denied First
Amendment rights: “This Court has not hesitated to
overrule decisions offensive to the First Amendment (a
fixed star in our constitutional constellation, if there is
one).” Federal Election Comm’n v. Wisconsin Right to
Life, Inc., 551 U.S. 449, 500, 127 S.Ct. 2652, 168
L.Ed.2d 329 (2007) (Scalia, J., concurring in part and
concurring in judgment) (internal quotation marks
omitted); see also Citizens United, supra, at 362–365,
130 S.Ct. 876 (overruling Austin, 494 U.S. 652, 110
S.Ct. 1391, 108 L.Ed.2d 652); Barnette, 319 U.S., at
642, 63 S.Ct. 1178 (overruling Minersville School Dist.
v. Gobitis, 310 U.S. 586, 60 S.Ct. 1010, 84 L.Ed. 1375
(1940)).

82a
Our cases identify factors that should be taken into
account in deciding whether to overrule a past decision. Five of these are most important here: the quality
of Abood’s reasoning, the workability of the rule it
established, its consistency with other related decisions, developments since the decision was handed
down, and reliance on the decision. After analyzing
these factors, we conclude that stare decisis does not
require us to retain Abood.
A
An important factor in determining whether a
precedent should be overruled is the quality of its
reasoning, see Citizens United, 558 U.S., at 363–364,
130 S.Ct. 876; id., at 382–385, 130 S.Ct. 876
(ROBERTS, C.J., concurring); Lawrence, 539 U.S., at
577–578, 123 S.Ct. 2472, and as we explained in
Harris, Abood was poorly reasoned, see 573 U.S., at
–––––––––, 134 S.Ct., at 2632–2634. We will summarize, but not repeat, Harris’s lengthy discussion of the
issue.
Abood went wrong at the start when it concluded
that two prior decisions, Railway Employes v. Hanson,
351 U.S. 225, 76 S.Ct. 714, 100 L.Ed. 1112 (1956), and
Machinists v. Street, 367 U.S. 740, 81 S.Ct. 1784, 6
L.Ed.2d 1141 (1961), “appear[ed] to require validation
of the agency-shop agreement before [the Court].” 431
U.S., at 226, 97 S.Ct. 1782. Properly understood, those
decisions did no such thing. Both cases involved
Congress’s “bare authorization ” of private-sector union
shops under the Railway Labor Act. Street, supra, at
749, 81 S.Ct. 1784 (emphasis added).24 Abood failed to
24

No First Amendment issue could have properly arisen in
those cases unless Congress’s enactment of a provision allowing,
but not requiring, private parties to enter into union-shop

83a
appreciate that a very different First Amendment
question arises when a State requires its employees to
pay agency fees. See Harris, supra, at ––––, 134 S.Ct.,
at 2632.
Moreover, neither Hanson nor Street gave careful
consideration to the First Amendment. In Hanson, the
primary questions were whether Congress exceeded
its power under the Commerce Clause or violated
substantive due process by authorizing private unionshop arrangements under the Commerce and Due
Process Clauses. 351 U.S., at 233–235, 76 S.Ct. 714.
After deciding those questions, the Court summarily
dismissed what was essentially a facial First Amendment challenge, noting that the record did not substantiate the challengers’ claim. Id., at 238, 76 S.Ct.
714; see Harris, supra, at ––––, 134 S.Ct., at 2632. For
its part, Street was decided as a matter of statutory
construction, and so did not reach any constitutional
issue. 367 U.S., at 749–750, 768–769, 81 S.Ct. 1784.
Abood nevertheless took the view that Hanson and
Street “all but decided” the important free speech issue
that was before the Court. Harris, 573 U.S., at ––––,
arrangements was sufficient to establish governmental action.
That proposition was debatable when Abood was decided, and is
even more questionable today. See American Mfrs. Mut. Ins. Co.
v. Sullivan, 526 U.S. 40, 53, 119 S.Ct. 977, 143 L.Ed.2d 130
(1999); Jackson v. Metropolitan Edison Co., 419 U.S. 345, 357, 95
S.Ct. 449, 42 L.Ed.2d 477 (1974). Compare, e.g., White v.
Communications Workers of Am., AFL–CIO, Local 1300, 370 F.3d
346, 350 (C.A.3 2004) (no state action), and Kolinske v. Lubbers,
712 F.2d 471, 477–478 (C.A.D.C.1983) (same), with Beck v.
Communications Workers of Am., 776 F.2d 1187, 1207 (C.A.4
1985) (state action), and Linscott v. Millers Falls Co., 440 F.2d 14,
16, and n. 2 (C.A.1 1971) (same). We reserved decision on this
question in Communications Workers v. Beck, 487 U.S. 735, 761,
108 S.Ct. 2641, 101 L.Ed.2d 634 (1988), and do not resolve it here.

84a
134 S.Ct., at 2632. As we said in Harris, “[s]urely a
First Amendment issue of this importance deserved
better treatment.” Ibid.
Abood’s unwarranted reliance on Hanson and Street
appears to have contributed to another mistake:
Abood judged the constitutionality of public-sector
agency fees under a deferential standard that finds no
support in our free speech cases. (As noted, supra, at
2464–2465, today’s dissent makes the same fundamental mistake.) Abood did not independently evaluate the strength of the government interests that were
said to support the challenged agency-fee provision;
nor did it ask how well that provision actually promoted those interests or whether they could have been
adequately served without impinging so heavily on the
free speech rights of nonmembers. Rather, Abood
followed Hanson and Street, which it interpreted as
having deferred to “the legislative assessment of the
important contribution of the union shop to the system
of labor relations established by Congress.” 431 U.S.,
at 222, 97 S.Ct. 1782 (emphasis added). But Hanson
deferred to that judgment in deciding the Commerce
Clause and substantive due process questions that
were the focus of the case. Such deference to legislative
judgments is inappropriate in deciding free speech
issues.
If Abood had considered whether agency fees were
actually needed to serve the asserted state interests,
it might not have made the serious mistake of
assuming that one of those interests—“labor peace”—
demanded, not only that a single union be designated
as the exclusive representative of all the employees in
the relevant unit, but also that nonmembers be
required to pay agency fees. Deferring to a perceived
legislative judgment, Abood failed to see that the

85a
designation of a union as exclusive representative and
the imposition of agency fees are not inextricably
linked. See supra, at 2465–2466; Harris, supra, at
2465–2466, 134 S.Ct., at 2640.
Abood also did not sufficiently take into account the
difference between the effects of agency fees in publicand private-sector collective bargaining. The challengers in Abood argued that collective bargaining with a
government employer, unlike collective bargaining in
the private sector, involves “inherently ‘political’”
speech. 431 U.S., at 226, 97 S.Ct. 1782. The Court did
not dispute that characterization, and in fact conceded
that “decisionmaking by a public employer is above all
a political process” driven more by policy concerns
than economic ones. Id., at 228, 97 S.Ct. 1782; see id.,
at 228–231, 97 S.Ct. 1782. But (again invoking
Hanson), the Abood Court asserted that public employees do not have “weightier First Amendment interest[s]” against compelled speech than do private employees. Id., at 229, 97 S.Ct. 1782. That missed the point.
Assuming for the sake of argument that the First
Amendment applies at all to private-sector agencyshop arrangements, the individual interests at stake
still differ. “In the public sector, core issues such as
wages, pensions, and benefits are important political
issues, but that is generally not so in the private
sector.” Harris, 573 U.S., at ––––, 134 S.Ct., at 2632.
Overlooking the importance of this distinction,
“Abood failed to appreciate the conceptual difficulty of
distinguishing in public-sector cases between union
expenditures that are made for collective-bargaining
purposes and those that are made to achieve political
ends.” Id., at ––––, 134 S.Ct., at 2632. Likewise,
“Abood does not seem to have anticipated the magnitude of the practical administrative problems that

86a
would result in attempting to classify public-sector
union expenditures as either ‘chargeable’ . . . or nonchargeable.” Ibid. Nor did Abood “foresee the practical
problems that would face objecting nonmembers.” Id.,
at ––––, 134 S.Ct., at 2633.
In sum, as detailed in Harris, Abood was not well
reasoned.25
B
Another relevant consideration in the stare decisis
calculus is the workability of the precedent in question, Montejo v. Louisiana, 556 U.S. 778, 792, 129 S.Ct.
2079, 173 L.Ed.2d 955 (2009), and that factor also
weighs against Abood.
1
Abood’s line between chargeable and nonchargeable
union expenditures has proved to be impossible to
draw with precision. We tried to give the line some
definition in Lehnert. There, a majority of the Court
adopted a three-part test requiring that chargeable
expenses (1) be “‘germane’” to collective bargaining, (2)
be “justified” by the government’s labor-peace and
free-rider interests, and (3) not add “significantly” to
the burden on free speech, 500 U.S., at 519, 111 S.Ct.
1950, but the Court splintered over the application of
this test, see id., at 519–522, 111 S.Ct. 1950 (plurality
25

Contrary to the dissent’s claim, see post, at 2497, and n. 4,
the fact that “[t]he rationale of [Abood ] does not withstand careful analysis” is a reason to overrule it, e.g., Lawrence v. Texas, 539
U.S. 558, 577, 123 S.Ct. 2472, 156 L.Ed.2d 508 (2003). And that
is even truer when, as here, the defenders of the precedent do not
attempt to “defend [its actual] reasoning.” Citizens United v.
Federal Election Comm’n, 558 U.S. 310, 363, 130 S.Ct. 876, 175
L.Ed.2d 753 (2010); id., at 382–385, 130 S.Ct. 876 (ROBERTS,
C.J., concurring).

87a
opinion); id., at 533–534, 111 S.Ct. 1950 (Marshall, J.,
concurring in part and dissenting in part). That division was not surprising. As the Lehnert dissenters
aptly observed, each part of the majority’s test
“involves a substantial judgment call,” id., at 551, 111
S.Ct. 1950 (opinion of Scalia, J.), rendering the test
“altogether malleable” and “no[t] principled,” id., at
563, 111 S.Ct. 1950 (KENNEDY, J., concurring in
judgment in part and dissenting in part).
Justice Scalia presciently warned that Lehnert’s
amorphous standard would invite “perpetua[l] give-ita-try litigation,” id., at 551, 111 S.Ct. 1950, and the
Court’s experience with union lobbying expenses illustrates the point. The Lehnert plurality held that
money spent on lobbying for increased education funding was not chargeable. Id., at 519–522, 111 S.Ct.
1950. But Justice Marshall—applying the same threeprong test—reached precisely the opposite conclusion.
Id., at 533–542, 111 S.Ct. 1950. And Lehnert failed to
settle the matter; States and unions have continued to
“give it a try” ever since.
In Knox, for example, we confronted a union’s claim
that the costs of lobbying the legislature and the electorate about a ballot measure were chargeable
expenses under Lehnert. See Brief for Respondent in
Knox v. Service Employees, O.T. 2011, No. 10–1121,
pp. 48–53. The Court rejected this claim out of hand,
567 U.S., at 320–321, 132 S.Ct. 2277, but the dissent
refused to do so, id., at 336, 132 S.Ct. 2277 (opinion of
BREYER, J.). And in the present case, nonmembers
are required to pay for unspecified “[l]obbying”
expenses and for “[s]ervices” that “may ultimately
inure to the benefit of the members of the local
bargaining unit.” App. to Pet. for Cert. 31a–32a. That

88a
formulation is broad enough to encompass just about
anything that the union might choose to do.
Respondents agree that Abood’s chargeablenonchargeable line suffers from “a vagueness problem,” that it sometimes “allows what it shouldn’t
allow,” and that “a firm[er] line c[ould] be drawn.” Tr.
of Oral Arg. 47–48. They therefore argue that we
should “consider revisiting” this part of Abood. Tr. of
Oral Arg. 66; see Brief for Union Respondent 46–47;
Brief for State Respondents 30. This concession only
underscores the reality that Abood has proved
unworkable: Not even the parties defending agency
fees support the line that it has taken this Court over
40 years to draw.
2
Objecting employees also face a daunting and expensive task if they wish to challenge union chargeability
determinations. While Hudson requires a union to
provide nonmembers with “sufficient information to
gauge the propriety of the union’s fee,” 475 U.S., at
306, 106 S.Ct. 1066, the Hudson notice in the present
case and in others that have come before us do not
begin to permit a nonmember to make such a determination.
In this case, the notice lists categories of expenses
and sets out the amount in each category that is said
to be attributable to chargeable and nonchargeable
expenses. Here are some examples regarding the
Union respondent’s expenditures:

89a
Category

Total Expense

Chargeable
Expense

Salary and Benefits

$14,718,708

$11,830,230

Office Printing, Supplies,
$148,272
and Advertising

$127,959

Postage and Freight

$373,509

$268,107

Telephone

$214,820

$192,721

Convention Expense

$268,855

$268,855

See App. to Pet. for Cert. 35a–36a.
How could any nonmember determine whether
these numbers are even close to the mark without
launching a legal challenge and retaining the services
of attorneys and accountants? Indeed, even with such
services, it would be a laborious and difficult task to
check these figures.26
The Union respondent argues that challenging its
chargeability determinations is not burdensome
because the Union pays for the costs of arbitration, see
Brief for Union Respondent 10–11, but objectors must
still pay for the attorneys and experts needed to mount
a serious challenge. And the attorney’s fees incurred
in such a proceeding can be substantial. See, e.g., Knox
v. Chiang, 2013 WL 2434606, *15 (E.D.Cal., June 5,
2013) (attorney’s fees in Knox exceeded $1 million).
The Union respondent’s suggestion that an objector
could obtain adequate review without even showing up

26

For this reason, it is hardly surprising that chargeability
issues have not arisen in many Court of Appeals cases. See post,
at 2498–2499 (KAGAN, J., dissenting).

90a
at an arbitration, see App. to Pet. for Cert. 40a–41a, is
therefore farfetched.
C
Developments since Abood, both factual and legal,
have also “eroded” the decision’s “underpinnings” and
left it an outlier among our First Amendment cases.
United States v. Gaudin, 515 U.S. 506, 521, 115 S.Ct.
2310, 132 L.Ed.2d 444 (1995).
1
Abood pinned its result on the “unsupported empirical assumption” that “the principle of exclusive representation in the public sector is dependent on a union
or agency shop.” Harris, 573 U.S., at ––––, 134 S.Ct.,
at 2634; Abood, 431 U.S., at 220–222, 97 S.Ct. 1782.
But, as already noted, experience has shown otherwise. See supra, at 2465–2466.
It is also significant that the Court decided Abood
against a very different legal and economic backdrop.
Public-sector unionism was a relatively new phenomenon in 1977. The first State to permit collective bargaining by government employees was Wisconsin in
1959, R. Kearney & P. Mareschal, Labor Relations in
the Public Sector 64 (5th ed. 2014), and public-sector
union membership remained relatively low until a
“spurt” in the late 1960’s and early 1970’s, shortly
before Abood was decided, Freeman, Unionism Comes
to the Public Sector, 24 J. Econ. Lit. 41, 45 (1986).
Since then, public-sector union membership has come
to surpass private-sector union membership, even
though there are nearly four times as many total
private-sector employees as public-sector employees.
B. Hirsch & D. Macpherson, Union Membership and
Earnings Data Book 9–10, 12, 16 (2013 ed.).

91a
This ascendance of public-sector unions has been
marked by a parallel increase in public spending. In
1970, total state and local government expenditures
amounted to $646 per capita in nominal terms, or
about $4,000 per capita in 2014 dollars. See Dept. of
Commerce, Statistical Abstract of the United States:
1972, p. 419; CPI Inflation Calculator, BLS, http://
data.bls.gov/cgi-bin/cpicalc.pl. By 2014, that figure
had ballooned to approximately $10,238 per capita.
ProQuest, Statistical Abstract of the United States:
2018, pp. 17, Table 14, 300, Table 469. Not all that
increase can be attributed to public-sector unions, of
course, but the mounting costs of public-employee
wages, benefits, and pensions undoubtedly played a
substantial role. We are told, for example, that Illinois’
pension funds are underfunded by $129 billion as a
result of generous public-employee retirement packages. Brief for Jason R. Barclay et al. as Amici Curiae
9, 14. Unsustainable collective-bargaining agreements
have also been blamed for multiple municipal bankruptcies. See Brief for State of Michigan et al. as Amici
Curiae 10–19. These developments, and the political
debate over public spending and debt they have
spurred, have given collective-bargaining issues a
political valence that Abood did not fully appreciate.
2
Abood is also an “anomaly” in our First Amendment
jurisprudence, as we recognized in Harris and Knox.
Harris, supra, at ––––, 134 S.Ct., at 2627; Knox, 567
U.S., at 311, 132 S.Ct. 2277. This is not an altogether
new observation. In Abood itself, Justice Powell
faulted the Court for failing to perform the “‘exacting
scrutiny’” applied in other cases involving significant
impingements on First Amendment rights. 431 U.S.,
at 259, 97 S.Ct. 1782; see id., at 259–260, and n. 14, 97

92a
S.Ct. 1782. Our later cases involving compelled speech
and association have also employed exacting scrutiny,
if not a more demanding standard. See, e.g., Roberts,
468 U.S., at 623, 104 S.Ct. 3244; United Foods, 533
U.S., at 414, 121 S.Ct. 2334. And we have more
recently refused, even in agency-fee cases, to extend
Abood beyond circumstances where it directly
controls. See Knox, supra, at 314, 132 S.Ct. 2277;
Harris, supra, at –––––––––, 134 S.Ct., at 2639.
Abood particularly sticks out when viewed against
our cases holding that public employees generally may
not be required to support a political party. See Elrod,
427 U.S. 347, 96 S.Ct. 2673, 49 L.Ed.2d 547; Branti,
445 U.S. 507, 100 S.Ct. 1287, 63 L.Ed.2d 574; Rutan,
497 U.S. 62, 110 S.Ct. 2729, 111 L.Ed.2d 52; O’Hare
Truck Service, Inc. v. City of Northlake, 518 U.S. 712,
116 S.Ct. 2353, 135 L.Ed.2d 874 (1996). The Court
reached that conclusion despite a “long tradition” of
political patronage in government. Rutan, supra, at
95, 110 S.Ct. 2729 (Scalia, J., dissenting); see also
Elrod, 427 U.S., at 353, 96 S.Ct. 2673 (plurality
opinion); id., at 377–378, 96 S.Ct. 2673 (Powell, J.,
dissenting). It is an odd feature of our First Amendment cases that political patronage has been deemed
largely unconstitutional, while forced subsidization of
union speech (which has no such pedigree) has been
largely permitted. As Justice Powell observed: “I am
at a loss to understand why the State’s decision to
adopt the agency shop in the public sector should be
worthy of greater deference, when challenged on First
Amendment grounds, than its decision to adhere to the
tradition of political patronage.” Abood, supra, at 260,
n. 14, 97 S.Ct. 1782 (opinion concurring in judgment)
(citing Elrod, supra, at 376–380, 382–387, 96 S.Ct.
2673 (Powell, J., dissenting); emphasis added). We
have no occasion here to reconsider our political pat-

93a
ronage decisions, but Justice Powell’s observation is
sound as far as it goes. By overruling Abood, we end
the oddity of privileging compelled union support over
compelled party support and bring a measure of greater coherence to our First Amendment law.
D
In some cases, reliance provides a strong reason for
adhering to established law, see, e.g., Hilton v. South
Carolina Public Railways Comm’n, 502 U.S. 197, 202–
203, 112 S.Ct. 560, 116 L.Ed.2d 560 (1991), and this is
the factor that is stressed most strongly by respondents, their amici, and the dissent. They contend that
collective-bargaining agreements now in effect were
negotiated with agency fees in mind and that unions
may have given up other benefits in exchange for
provisions granting them such fees. Tr. of Oral Arg.
67–68; see Brief for State Respondents 54; Brief for
Union Respondent 50; post, at 2498–2501 (KAGAN, J.,
dissenting). In this case, however, reliance does not
carry decisive weight.
For one thing, it would be unconscionable to permit
free speech rights to be abridged in perpetuity in order
to preserve contract provisions that will expire on
their own in a few years’ time. “The fact that [publicsector unions] may view [agency fees] as an entitlement does not establish the sort of reliance interest
that could outweigh the countervailing interest that
[nonmembers] share in having their constitutional
rights fully protected.” Arizona v. Gant, 556 U.S. 332,
349, 129 S.Ct. 1710, 173 L.Ed.2d 485 (2009).
For another, Abood does not provide “a clear or
easily applicable standard, so arguments for reliance
based on its clarity are misplaced.” South Dakota v.
Wayfair, Inc., ante, at 20, ––– U.S. ––––, 138 S.Ct.

94a
2080, ––– L.Ed.2d ––––, 2018 WL 3058015 (2018); see
supra, at 2480–2482.
This is especially so because public-sector unions
have been on notice for years regarding this Court’s
misgivings about Abood. In Knox, decided in 2012, we
described Abood as a First Amendment “anomaly.”
567 U.S., at 311, 132 S.Ct. 2277. Two years later in
Harris, we were asked to overrule Abood, and while
we found it unnecessary to take that step, we cataloged Abood’s many weaknesses. In 2015, we granted
a petition for certiorari asking us to review a decision
that sustained an agency-fee arrangement under
Abood. Friedrichs v. California Teachers Assn., 576
U.S. ––––, 136 S.Ct. 2545, 195 L.Ed.2d 880 (2016).
After exhaustive briefing and argument on the
question whether Abood should be overruled, we
affirmed the decision below by an equally divided vote.
578 U.S. ––––, 136 S.Ct. 1083, 194 L.Ed.2d 255 (2016)
(per curiam ). During this period of time, any publicsector union seeking an agency-fee provision in a
collective-bargaining agreement must have understood that the constitutionality of such a provision was
uncertain.
That is certainly true with respect to the collectivebargaining agreement in the present case. That agreement initially ran from July 1, 2012, until June 30,
2015. App. 331. Since then, the agreement has been
extended pursuant to a provision providing for automatic renewal for an additional year unless either
party gives timely notice that it desires to amend or
terminate the contract. Ibid. Thus, for the past three
years, the Union could not have been confident about
the continuation of the agency-fee arrangement for
more than a year at a time.

95a
Because public-sector collective-bargaining agreements are generally of rather short duration, a great
many of those now in effect probably began or were
renewed since Knox (2012) or Harris (2014). But even
if an agreement antedates those decisions, the union
was able to protect itself if an agency-fee provision was
essential to the overall bargain. A union’s attorneys
undoubtedly understand that if one provision of a
collective-bargaining agreement is found to be unlawful, the remaining provisions are likely to remain in
effect. See NLRB v. Rockaway News Supply Co., 345
U.S. 71, 76–79, 73 S.Ct. 519, 97 L.Ed. 832 (1953); see
also 8 R. Lord, Williston on Contracts § 19:70 (4th ed.
2010). Any union believing that an agency-fee provision was essential to its bargain could have insisted on
a provision giving it greater protection. The agreement
in the present case, by contrast, provides expressly
that the invalidation of any part of the agreement
“shall not invalidate the remaining portions,” which
“shall remain in full force and effect.” App. 328. Such
severability clauses ensure that “entire contracts” are
not “br[ought] down” by today’s ruling. Post, at 2499,
n. 5 (KAGAN, J., dissenting).
In short, the uncertain status of Abood, the lack of
clarity it provides, the short-term nature of collectivebargaining agreements, and the ability of unions to
protect themselves if an agency-fee provision was
crucial to its bargain all work to undermine the force
of reliance as a factor supporting Abood.27
27

The dissent emphasizes another type of reliance, namely,
that “[o]ver 20 States have by now enacted statutes authorizing
[agency-fee] provisions.” Post, at 2499. But as we explained in
Citizens United, “[t]his is not a compelling interest for stare
decisis. If it were, legislative acts could prevent us from overruling our own precedents, thereby interfering with our duty ‘to say

96a
We recognize that the loss of payments from nonmembers may cause unions to experience unpleasant
transition costs in the short term, and may require
unions to make adjustments in order to attract and
retain members. But we must weigh these disadvantages against the considerable windfall that
unions have received under Abood for the past 41
years. It is hard to estimate how many billions of dollars have been taken from nonmembers and transferred to public-sector unions in violation of the First
Amendment. Those unconstitutional exactions cannot
be allowed to continue indefinitely.
All these reasons—that Abood’s proponents have
abandoned its reasoning, that the precedent has
proved unworkable, that it conflicts with other First
Amendment decisions, and that subsequent developments have eroded its underpinnings—provide the
“‘special justification[s]’” for overruling Abood. Post, at
2497 (KAGAN, J., dissenting) (quoting Kimble v.
Marvel Entertainment, LLC, 576 U.S. ––––, ––––, 135
S.Ct. 2401, 2409, 192 L.Ed.2d 463 (2015)).28
what the law is.’” 558 U.S., at 365, 130 S.Ct. 876 (quoting
Marbury v. Madison, 1 Cranch 137, 177, 2 L.Ed. 60 (1803)). Nor
does our decision “‘require an extensive legislative response.’”
Post, at 2499. States can keep their labor-relations systems
exactly as they are—only they cannot force nonmembers to subsidize public-sector unions. In this way, these States can follow the
model of the federal government and 28 other States.
***
28

Unfortunately, the dissent sees the need to resort to accusations that we are acting like “black-robed rulers” who have shut
down an “energetic policy debate.” Post, at 2501–2502. We certainly agree that judges should not “overrid[e] citizens’ choices”
or “pick the winning side,” ibid.—unless the Constitution commands that they do so. But when a federal or state law violates
the Constitution, the American doctrine of judicial review

97a
VII
For these reasons, States and public-sector unions
may no longer extract agency fees from nonconsenting
employees. Under Illinois law, if a public-sector
collective-bargaining agreement includes an agencyfee provision and the union certifies to the employer
the amount of the fee, that amount is automatically
deducted from the nonmember’s wages. § 315/6(e). No
form of employee consent is required.
This procedure violates the First Amendment and
cannot continue. Neither an agency fee nor any other
payment to the union may be deducted from a nonmember’s wages, nor may any other attempt be made
to collect such a payment, unless the employee affirmatively consents to pay. By agreeing to pay, nonmembers are waiving their First Amendment rights, and
such a waiver cannot be presumed. Johnson v. Zerbst,
304 U.S. 458, 464, 58 S.Ct. 1019, 82 L.Ed. 1461 (1938);
see also Knox, 567 U.S., at 312–313, 132 S.Ct. 2277.
Rather, to be effective, the waiver must be freely given
and shown by “clear and compelling” evidence. Curtis
Publishing Co. v. Butts, 388 U.S. 130, 145, 87 S.Ct.
1975, 18 L.Ed.2d 1094 (1967) (plurality opinion); see
also College Savings Bank v. Florida Prepaid Postsecondary Ed. Expense Bd., 527 U.S. 666, 680–682, 119
S.Ct. 2219, 144 L.Ed.2d 605 (1999). Unless employees
requires us to enforce the Constitution. Here, States with agencyfee laws have abridged fundamental free speech rights. In holding that these laws violate the Constitution, we are simply enforcing the First Amendment as properly understood, “[t]he very
purpose of [which] was to withdraw certain subjects from the
vicissitudes of political controversy, to place them beyond the
reach of majorities and officials and to establish them as legal
principles to be applied by the courts.” West Virginia Bd. of Ed. v.
Barnette, 319 U.S. 624, 638, 63 S.Ct. 1178, 87 L.Ed. 1628 (1943).

98a
clearly and affirmatively consent before any money is
taken from them, this standard cannot be met.
* * *
Abood was wrongly decided and is now overruled.
The judgment of the United States Court of Appeals
for the Seventh Circuit is reversed, and the case is
remanded for further proceedings consistent with this
opinion.
It is so ordered.

99a
Justice SOTOMAYOR, dissenting.
I join Justice Kagan’s dissent in full. Although I
joined the majority in Sorrell v. IMS Health Inc., 564
U.S. 552, 131 S.Ct. 2653, 180 L.Ed.2d 544 (2011),
I disagree with the way that this Court has since
interpreted and applied that opinion. See, e.g.,
National Institute of Family and Life Advocates v.
Becerra, ante, p. ––––, ––– U.S. ––––, 138 S.Ct.
2361, –––L.Ed.2d ––––, 2018 WL 3116336 (2018).
Having seen the troubling development in First
Amendment jurisprudence over the years, both in this
Court and in lower courts, I agree fully with Justice
KAGAN that Sorrell—in the way it has been read by
this Court—has allowed courts to “wiel[d] the First
Amendment in . . . an aggressive way” just as the
majority does today. Post, at 2501.
Justice KAGAN, with whom Justice GINSBURG,
Justice BREYER, and Justice SOTOMAYOR join,
dissenting.
For over 40 years, Abood v. Detroit Bd. of Ed., 431
U.S. 209, 97 S.Ct. 1782, 52 L.Ed.2d 261 (1977), struck
a stable balance between public employees’ First
Amendment rights and government entities’ interests
in running their workforces as they thought proper.
Under that decision, a government entity could
require public employees to pay a fair share of the cost
that a union incurs when negotiating on their behalf
over terms of employment. But no part of that fairshare payment could go to any of the union’s political
or ideological activities.
That holding fit comfortably with this Court’s general framework for evaluating claims that a condition
of public employment violates the First Amendment.
The Court’s decisions have long made plain that gov-

100a
ernment entities have substantial latitude to regulate
their employees’ speech—especially about terms of
employment—in the interest of operating their
workplaces effectively. Abood allowed governments to
do just that. While protecting public employees’
expression about non-workplace matters, the decision
enabled a government to advance important managerial interests—by ensuring the presence of an exclusive employee representative to bargain with. Far
from an “anomaly,” ante, at 2463, the Abood regime
was a paradigmatic example of how the government
can regulate speech in its capacity as an employer.
Not any longer. Today, the Court succeeds in its
6–year campaign to reverse Abood. See Friedrichs v.
California Teachers Assn., 578 U.S. ––––, 136 S.Ct.
1083, 194 L.Ed.2d 255 (2016) (per curiam); Harris v.
Quinn, 573 U.S. ––––, 134 S.Ct. 2618, 189 L.Ed.2d 620
(2014); Knox v. Service Employees, 567 U.S. 298, 132
S.Ct. 2277, 183 L.Ed.2d 281 (2012). Its decision will
have large-scale consequences. Public employee
unions will lose a secure source of financial support.
State and local governments that thought fair-share
provisions furthered their interests will need to find
new ways of managing their workforces. Across the
country, the relationships of public employees and
employers will alter in both predictable and wholly
unexpected ways.
Rarely if ever has the Court overruled a decision—
let alone one of this import—with so little regard for
the usual principles of stare decisis. There are no
special justifications for reversing Abood. It has
proved workable. No recent developments have eroded
its underpinnings. And it is deeply entrenched, in both
the law and the real world. More than 20 States have
statutory schemes built on the decision. Those laws

101a
underpin thousands of ongoing contracts involving
millions of employees. Reliance interests do not come
any stronger than those surrounding Abood. And likewise, judicial disruption does not get any greater than
what the Court does today. I respectfully dissent.
I
I begin with Abood, the 41–year–old precedent the
majority overrules. That case involved a union that
had been certified as the exclusive representative of
Detroit’s public school teachers. The union’s collectivebargaining agreement with the city included an
“agency shop” clause, which required teachers who
had not joined the union to pay it “a service charge
equal to the regular dues required of [u]nion members.” Abood, 431 U.S., at 212, 97 S.Ct. 1782. A group
of non-union members sued over that clause, arguing
that it violated the First Amendment.
In considering their challenge, the Court canvassed
the purposes of the “agency shop” clause. It was rooted,
the Court understood, in the “principle of exclusive
union representation”—a “central element” in “industrial relations” since the New Deal. Id., at 220, 97 S.Ct.
1782. Significant benefits, the Court explained, could
derive from the “designation of a single [union] representative” for all similarly situated employees in a
workplace. Ibid. In particular, such arrangements:
“avoid[ ] the confusion that would result from attempting to enforce two or more agreements specifying
different terms and conditions of employment”; “prevent[ ] inter-union rivalries from creating dissension
within the work force”; “free[ ] the employer from the
possibility of facing conflicting demands from different
unions”; and “permit [ ] the employer and a single
union to reach agreements and settlements that are
not subject to attack from rival labor organizations.”

102a
Id., at 220–221, 97 S.Ct. 1782. As proof, the Court
pointed to the example of exclusive-representation
arrangements in the private-employment sphere:
There, Congress had long thought that such schemes
would promote “peaceful labor relations” and “labor
stability.” Id., at 219, 229, 97 S.Ct. 1782. A public
employer like Detroit, the Court believed, could reasonably make the same calculation.
But for an exclusive-bargaining arrangement to
work, such an employer often thought, the union
needed adequate funding. Because the “designation of
a union as exclusive representative carries with it
great responsibilities,” the Court reasoned, it inevitably also entails substantial costs. Id., at 221, 97 S.Ct.
1782. “The tasks of negotiating and administering a
collective-bargaining agreement and representing the
interests of employees in settling disputes and processing grievances are continuing and difficult ones.”
Ibid. Those activities, the Court noted, require the
“expenditure of much time and money”—for example,
payment for the “services of lawyers, expert negotiators, economists, and a research staff.” Ibid. And there
is no way to confine the union’s services to union
members alone (and thus to trim costs) because unions
must by law fairly represent all employees in a given
bargaining unit—union members and non-members
alike. See ibid.
With all that in mind, the Court recognized why
both a government entity and its union bargaining
partner would gravitate toward an agency-fee clause.
Those fees, the Court reasoned, “distribute fairly the
cost” of collective bargaining “among those who benefit”—that is, all employees in the work unit. Id., at
222, 97 S.Ct. 1782. And they “counteract[ ] the
incentive that employees might otherwise have to

103a
become ‘free riders.’” Ibid. In other words, an agencyfee provision prevents employees from reaping all the
“benefits of union representation”—higher pay, a
better retirement plan, and so forth—while leaving it
to others to bear the costs. Ibid. To the Court, the
upshot was clear: A government entity could reasonably conclude that such a clause was needed to maintain the kind of exclusive bargaining arrangement
that would facilitate peaceful and stable labor relations.
But the Court acknowledged as well the “First
Amendment interests” of dissenting employees. Ibid.
It recognized that some workers might oppose positions the union takes in collective bargaining, or even
“unionism itself.” Ibid. And still more, it understood
that unions often advance “political and ideological”
views outside the collective-bargaining context—as
when they “contribute to political candidates.” Id., at
232, 234, 97 S.Ct. 1782. Employees might well object
to the use of their money to support such “ideological
causes.” Id., at 235, 97 S.Ct. 1782.
So the Court struck a balance, which has governed
this area ever since. On the one hand, employees could
be required to pay fees to support the union in “collective bargaining, contract administration, and grievance adjustment.” Id., at 225–226, 97 S.Ct. 1782.
There, the Court held, the “important government
interests” in having a stably funded bargaining
partner justify “the impingement upon” public employees’ expression. Id., at 225, 97 S.Ct. 1782. But on the
other hand, employees could not be compelled to fund
the union’s political and ideological activities. Outside
the collective-bargaining sphere, the Court determined,
an employee’s First Amendment rights defeated any

104a
conflicting government interest. See id., at 234–235,
97 S.Ct. 1782.
II
Unlike the majority, I see nothing “questionable”
about Abood’s analysis. Ante, at 2463 (quoting Harris,
573 U.S., at ––––, 134 S.Ct., at 2632). The decision’s
account of why some government entities have a
strong interest in agency fees (now often called fairshare fees) is fundamentally sound. And the balance
Abood struck between public employers’ interests and
public employees’ expression is right at home in First
Amendment doctrine.
A
Abood’s reasoning about governmental interests has
three connected parts. First, exclusive representation
arrangements benefit some government entities
because they can facilitate stable labor relations. In
particular, such arrangements eliminate the potential
for inter-union conflict and streamline the process of
negotiating terms of employment. See 431 U.S., at
220–221, 97 S.Ct. 1782. Second, the government may
be unable to avail itself of those benefits unless the
single union has a secure source of funding. The various tasks involved in representing employees cost
money; if the union doesn’t have enough, it can’t be an
effective employee representative and bargaining
partner. See id., at 221, 97 S.Ct. 1782. And third,
agency fees are often needed to ensure such stable
funding. That is because without those fees, employees
have every incentive to free ride on the union dues
paid by others. See id., at 222, 97 S.Ct. 1782.
The majority does not take issue with the first point.
See ante, at 2478 (It is “not disputed that the State
may require that a union serve as exclusive bargaining

105a
agent for its employees” in order to advance the State’s
“interests as an employer”). The majority claims that
the second point never appears in Abood, but is willing
to assume it for the sake of argument. See ante, at
2476–2477; but see Abood, 431 U.S., at 221, 97 S.Ct.
1782 (The tasks of an exclusive representative “often
entail expenditure of much time and money”). So the
majority stakes everything on the third point—the
conclusion that maintaining an effective system of
exclusive representation often entails agency fees.
Ante, at 2477–2478 (It “is simply not true” that
exclusive representation and agency fees are
“inextricably linked”); see ante, at 2467.
But basic economic theory shows why a government
would think that agency fees are necessary for
exclusive representation to work. What ties the two
together, as Abood recognized, is the likelihood of freeriding when fees are absent. Remember that once a
union achieves exclusive-representation status, the
law compels it to fairly represent all workers in the
bargaining unit, whether or not they join or contribute
to the union. See supra, at 2488–2489. Because of that
legal duty, the union cannot give special advantages to
its own members. And that in turn creates a collective
action problem of nightmarish proportions. Everyone—not just those who oppose the union, but also
those who back it—has an economic incentive to
withhold dues; only altruism or loyalty—as against
financial self-interest—can explain why an employee
would pay the union for its services. And so emerged
Abood’s rule allowing fair-share agreements: That rule
ensured that a union would receive sufficient funds,
despite its legally imposed disability, to effectively
carry out its duties as exclusive representative of the
government’s employees.

106a
The majority’s initial response to this reasoning is
simply to dismiss it. “[F]ree rider arguments,” the
majority pronounces, “are generally insufficient to
overcome First Amendment objections.” Ante, at 2466
(quoting Knox, 567 U.S., at 311, 132 S.Ct. 2277). “To
hold otherwise,” it continues, “would have startling
consequences” because “[m]any private groups speak
out” in ways that will “benefit[ ] nonmembers.” Ante,
at 2466–2467. But that disregards the defining characteristic of this free-rider argument—that unions,
unlike those many other private groups, must serve
members and non-members alike. Groups advocating
for “senior citizens or veterans” (to use the majority’s
examples) have no legal duty to provide benefits to all
those individuals: They can spur people to pay dues by
conferring all kinds of special advantages on their
dues-paying members. Unions are—by law—in a
different position, as this Court has long recognized.
See, e.g., Machinists v. Street, 367 U.S. 740, 762, 81
S.Ct. 1784, 6 L.Ed.2d 1141 (1961). Justice Scalia,
responding to the same argument as the majority’s,
may have put the point best. In a way that is true of
no other private group, the “law requires the union to
carry” non-members—“indeed, requires the union to
go out of its way to benefit [them], even at the expense
of its other interests.” Lehnert v. Ferris Faculty Assn.,
500 U.S. 507, 556, 111 S.Ct. 1950, 114 L.Ed.2d 572
(1991) (opinion concurring in part and dissenting in
part). That special feature was what justified Abood:
“Where the state imposes upon the union a duty to
deliver services, it may permit the union to demand
reimbursement for them.” 500 U.S., at 556, 111 S.Ct.
1950.
The majority’s fallback argument purports to
respond to the distinctive position of unions, but still
misses Abood’s economic insight. Here, the majority

107a
delivers a four-page exegesis on why unions will seek
to serve as an exclusive bargaining representative
even “if they are not given agency fees.” Ante, at 2467;
see ante, at 2467–2469. The gist of the account is that
“designation as the exclusive representative confers
many benefits,” which outweigh the costs of providing
services to non-members. Ante, at 2467. But that
response avoids the key question, which is whether
unions without agency fees will be able to (not whether
they will want to ) carry on as an effective exclusive
representative. And as to that question, the majority
again fails to reckon with how economically rational
actors behave—in public as well as private workplaces. Without a fair-share agreement, the class of
union non-members spirals upward. Employees
(including those who love the union) realize that they
can get the same benefits even if they let their
memberships expire. And as more and more stop
paying dues, those left must take up the financial
slack (and anyway, begin to feel like suckers)—so they
too quit the union. See Ichniowski & Zax, Right–to–
Work Laws, Free Riders, and Unionization in the
Local Public Sector, 9 J. Labor Economics 255, 257
(1991).1 And when the vicious cycle finally ends,
1

The majority relies on statistics from the federal workforce
(where agency fees are unlawful) to suggest that public employees do not act in accord with economic logic. See ante, at 2465.
But first, many fewer federal employees pay dues than have voted
for a union to represent them, indicating that free-riding in fact
pervades the federal sector. See, e.g., R. Kearney & P. Mareschal,
Labor Relations in the Public Sector 26 (5th ed. 2014). And
second, that sector is not typical of other public workforces. Bargaining in the federal sphere is limited; most notably, it does not
extend to wages and benefits. See Fort Stewart Schools v. FLRA,
495 U.S. 641, 649, 110 S.Ct. 2043, 109 L.Ed.2d 659 (1990). That
means union operating expenses are lower than they are elsewhere. And the gap further widens because the federal sector

108a
chances are that the union will lack the resources to
effectively perform the responsibilities of an exclusive
representative—or, in the worst case, to perform them
at all. The result is to frustrate the interests of every
government entity that thinks a strong exclusiverepresentation scheme will promote stable labor
relations.
Of course, not all public employers will share that
view. Some would rather not bargain with an exclusive
representative. Others would prefer that representative to be poorly funded—to serve more as a front than
an effectual bargaining partner. But as reflected in the
number of fair-share statutes and contracts across the
Nation, see supra, at 2487–2488, many government
entities think that effective exclusive representation
makes for good labor relations—and recognize, just as
Abood did, that representation of that kind often
depends on agency fees. See, e.g., Harris, 573 U.S.,
at ––––, 134 S.Ct., at 2656–2658 (Kagan, J., dissenting) (describing why Illinois thought that bargaining
with an adequately funded exclusive representative of
in-home caregivers would enable the State to better
serve its disabled citizens). Abood respected that state
interest; today’s majority fails even to understand it.
Little wonder that the majority’s First Amendment
analysis, which involves assessing the government’s
reasons for imposing agency fees, also comes up short.

uses large, often national, bargaining units that provide unions
with economies of scale. See Brief for International Brotherhood
of Teamsters as Amicus Curiae 7. For those reasons, the federal
workforce is the wrong place to look for meaningful empirical
evidence on the issues here.

109a
B
1
In many cases over many decades, this Court has
addressed how the First Amendment applies when the
government, acting not as sovereign but as employer,
limits its workers’ speech. Those decisions have granted substantial latitude to the government, in recognition of its significant interests in managing its workforce so as to best serve the public. Abood fit neatly
with that caselaw, in both reasoning and result. Indeed,
its reversal today creates a significant anomaly—an
exception, applying to union fees alone, from the usual
rules governing public employees’ speech.
“Time and again our cases have recognized that the
Government has a much freer hand” in dealing with
its employees than with “citizens at large.” NASA v.
Nelson, 562 U.S. 134, 148, 131 S.Ct. 746, 178 L.Ed.2d
667 (2011) (internal quotation marks omitted). The
government, we have stated, needs to run “as effectively and efficiently as possible.” Engquist v. Oregon
Dept. of Agriculture, 553 U.S. 591, 598, 128 S.Ct. 2146,
170 L.Ed.2d 975 (2008) (internal quotation marks
omitted). That means it must be able, much as a private employer is, to manage its workforce as it thinks
fit. A public employee thus must submit to “certain
limitations on his or her freedom.” Garcetti v. Ceballos,
547 U.S. 410, 418, 126 S.Ct. 1951, 164 L.Ed.2d 689
(2006). Government workers, of course, do not wholly
“lose their constitutional rights when they accept their
positions.” Engquist, 553 U.S., at 600, 128 S.Ct. 2146.
But under our precedent, their rights often yield when
weighed “against the realities of the employment
context.” Ibid. If it were otherwise—if every employment decision were to “bec[o]me a constitutional matter”—“the Government could not function.” NASA, 562

110a
U.S., at 149, 131 S.Ct. 746 (internal quotation marks
omitted).
Those principles apply with full force when public
employees’ expressive rights are at issue. As we have
explained: “Government employers, like private employers, need a significant degree of control over their
employees’ words” in order to “efficient[ly] provi[de]
public services.” Garcetti, 547 U.S., at 418, 126 S.Ct.
1951. Again, significant control does not mean absolute authority. In particular, the Court has guarded
against government efforts to “leverage the employment relationship” to shut down its employees’ speech
as private citizens. Id., at 419, 126 S.Ct. 1951. But
when the government imposes speech restrictions
relating to workplace operations, of the kind a private
employer also would, the Court reliably upholds them.
See, e.g., id., at 426, 126 S.Ct. 1951; Connick v. Myers,
461 U.S. 138, 154, 103 S.Ct. 1684, 75 L.Ed.2d 708
(1983).
In striking the proper balance between employee
speech rights and managerial interests, the Court has
long applied a test originating in Pickering v. Board of
Ed. of Township High School Dist. 205, Will Cty., 391
U.S. 563, 88 S.Ct. 1731, 20 L.Ed.2d 811 (1968). That
case arose out of an individual employment action: the
firing of a public school teacher. As we later described
the Pickering inquiry, the Court first asks whether the
employee “spoke as a citizen on a matter of public
concern.” Garcetti, 547 U.S., at 418, 126 S.Ct. 1951. If
she did not—but rather spoke as an employee on a
workplace matter—she has no “possibility of a First
Amendment claim”: A public employer can curtail her
speech just as a private one could. Ibid. But if she did
speak as a citizen on a public matter, the public
employer must demonstrate “an adequate justification

111a
for treating the employee differently from any other
member of the general public.” Ibid. The government,
that is, needs to show that legitimate workplace
interests lay behind the speech regulation.
Abood coheres with that framework. The point here
is not, as the majority suggests, that Abood is an overt,
one-to-one “application of Pickering.” Ante, at 2473–
2474. It is not. Abood related to a municipality’s labor
policy, and so the Court looked to prior cases about
unions, not to Pickering’s analysis of an employee’s
dismissal. (And truth be told, Pickering was not at that
time much to look at: What the Court now thinks of as
the two-step Pickering test, as the majority’s own
citations show, really emerged from Garcetti and
Connick—two cases post-dating Abood. See ante, at
2471–2472.)2 But Abood and Pickering raised variants
of the same basic issue: the extent of the government’s
authority to make employment decisions affecting
expression. And in both, the Court struck the same
basic balance, enabling the government to curb speech
when—but only when—the regulation was designed to
protect its managerial interests. Consider the
parallels:
Like Pickering, Abood drew the constitutional line
by analyzing the connection between the government’s
managerial interests and different kinds of expression. The Court first discussed the use of agency fees
to subsidize the speech involved in “collective bargain2

For those reasons, it is not surprising that the “categorization schemes” in Abood and Pickering are not precisely coterminous. Ante, at 2473. The two cases are fraternal rather than
identical twins—both standing for the proposition that the
government receives great deference when it regulates speech as
an employer rather than as a sovereign. See infra this page and
2493–2494.

112a
ing, contract administration, and grievance adjustment.” 431 U.S., at 225–226, 97 S.Ct. 1782. It understood that expression (really, who would not?) as intimately tied to the workplace and employment relationship. The speech was about “working conditions,
pay, discipline, promotions, leave, vacations, and terminations,” Borough of Duryea v. Guarnieri, 564 U.S.
379, 391, 131 S.Ct. 2488, 180 L.Ed.2d 408 (2011); the
speech occurred (almost always) in the workplace; and
the speech was directed (at least mainly) to the
employer. As noted earlier, Abood described the
managerial interests of employers in channeling all
that speech through a single union. See 431 U.S., at
220–222, 224–226, 97 S.Ct. 1782; supra, at 2460. And
so Abood allowed the government to mandate fees for
collective bargaining—just as Pickering permits the
government to regulate employees’ speech on similar
workplace matters. But still, Abood realized that
compulsion could go too far. The Court barred the use
of fees for union speech supporting political candidates
or “ideological causes.” 431 U.S., at 235, 97 S.Ct. 1782.
That speech, it understood, was “unrelated to [the
union’s] duties as exclusive bargaining representative,” but instead was directed at the broader public
sphere. Id., at 234, 97 S.Ct. 1782. And for that reason,
the Court saw no legitimate managerial interests in
compelling its subsidization. The employees’ First
Amendment claims would thus prevail—as, again,
they would have under Pickering.
Abood thus dovetailed with the Court’s usual attitude in First Amendment cases toward the regulation
of public employees’ speech. That attitude is one of
respect—even solicitude—for the government’s prerogatives as an employer. So long as the government
is acting as an employer—rather than exploiting the
employment relationship for other ends—it has a wide

113a
berth, comparable to that of a private employer. And
when the regulated expression concerns the terms and
conditions of employment—the very stuff of the
employment relationship—the government really
cannot lose. There, managerial interests are obvious
and strong. And so government employees are . . . just
employees, even though they work for the government.
Except that today the government does lose, in a first
for the law. Now, the government can constitutionally
adopt all policies regulating core workplace speech in
pursuit of managerial goals—save this single one.
2
The majority claims it is not making a special and
unjustified exception. It offers two main reasons for
declining to apply here our usual deferential approach,
as exemplified in Pickering, to the regulation of public
employee speech. First, the majority says, this case
involves a “blanket” policy rather than an individualized employment decision, so Pickering is a “painful
fit.” Ante, at 2472. Second, the majority asserts, the
regulation here involves compelling rather than
restricting speech, so the pain gets sharper still. See
ante, at 2472–2473. And finally, the majority claims
that even under the solicitous Pickering standard, the
government should lose, because the speech here
involves a matter of public concern and the government’s managerial interests do not justify its regulation. See ante, at 2474–2477. The majority goes wrong
at every turn.
First, this Court has applied the same basic
approach whether a public employee challenges a general policy or an individualized decision. Even the
majority must concede that “we have sometimes
looked to Pickering in considering general rules that
affect broad categories of employees.” Ante, at 2472. In

114a
fact, the majority cannot come up with any case in
which we have not done so. All it can muster is one
case in which while applying the Pickering test to a
broad rule—barring any federal employee from accepting any payment for any speech or article on any
topic—the Court noted that the policy’s breadth would
count against the government at the test’s second step.
See United States v. Treasury Employees, 513 U.S.
454, 115 S.Ct. 1003, 130 L.Ed.2d 964 (1995). Which is
completely predictable. The inquiry at that stage, after
all, is whether the government has an employmentrelated interest in going however far it has gone—and
in Treasury Employees, the government had indeed
gone far. (The Court ultimately struck down the rule
because it applied to speech in which the government
had no identifiable managerial interest. See id., at
470, 477, 115 S.Ct. 1003.) Nothing in Treasury
Employees suggests that the Court defers only to ad
hoc actions, and not to general rules, about public
employee speech. That would be a perverse regime,
given the greater regularity of rulemaking and the
lesser danger of its abuse. So I would wager a small
fortune that the next time a general rule governing
public employee speech comes before us, we will dust
off Pickering.
Second, the majority’s distinction between compelling and restricting speech also lacks force. The
majority posits that compelling speech always works a
greater injury, and so always requires a greater justification. See ante, at 2463–2464. But the only case the
majority cites for that reading of our precedent is
possibly (thankfully) the most exceptional in our First
Amendment annals: It involved the state forcing
children to swear an oath contrary to their religious
beliefs. See ibid. (quoting West Virginia Bd. of Ed. v.
Barnette, 319 U.S. 624, 63 S.Ct. 1178, 87 L.Ed. 1628

115a
(1943)). Regulations challenged as compelling expression do not usually look anything like that—and for
that reason, the standard First Amendment rule is
that the “difference between compelled speech and
compelled silence” is “without constitutional significance.” Riley v. National Federation of Blind of N. C.,
Inc., 487 U.S. 781, 796, 108 S.Ct. 2667, 101 L.Ed.2d
669 (1988); see Wooley v. Maynard, 430 U.S. 705, 714,
97 S.Ct. 1428, 51 L.Ed.2d 752 (1977) (referring to
“[t]he right to speak and the right to refrain from
speaking” as “complementary components” of the First
Amendment). And if anything, the First Amendment
scales tip the opposite way when (as here) the government is not compelling actual speech, but instead
compelling a subsidy that others will use for expression. See Brief for Eugene Volokh et al. as Amici
Curiae 4–5 (offering many examples to show that the
First Amendment “simply do[es] not guarantee that
one’s hard-earned dollars will never be spent on
speech one disapproves of”).3 So when a government
mandates a speech subsidy from a public employee—
here, we might think of it as levying a tax to support
collective bargaining—it should get at least as much
deference as when it restricts the employee’s speech.
As this case shows, the former may advance a manage3

That’s why this Court has blessed the constitutionality of
compelled speech subsidies in a variety of cases beyond Abood,
involving a variety of contexts beyond labor relations. The list
includes mandatory fees imposed on state bar members (for professional expression); university students (for campus events);
and fruit processors (for generic advertising). See Keller v. State
Bar of Cal., 496 U.S. 1, 14, 110 S.Ct. 2228, 110 L.Ed.2d 1 (1990);
Board of Regents of Univ. of Wis. System v. Southworth, 529 U.S.
217, 233, 120 S.Ct. 1346, 146 L.Ed.2d 193 (2000); Glickman v.
Wileman Brothers & Elliott, Inc., 521 U.S. 457, 474, 117 S.Ct.
2130, 138 L.Ed.2d 585 (1997); see also infra, at 2497–2498.

116a
rial interest as well as the latter—in which case the
government’s “freer hand” in dealing with its employees should apply with equal (if not greater) force.
NASA, 562 U.S., at 148, 131 S.Ct. 746.
Third and finally, the majority errs in thinking that
under the usual deferential approach, the government
should lose this case. The majority mainly argues here
that, at Pickering’s first step, “union speech in collective bargaining” is a “matter of great public concern”
because it “affect [s] how public money is spent” and
addresses “other important matters” like teacher
merit pay or tenure. Ante, at 2474, 2476 (internal
quotation marks omitted). But to start, the majority
misunderstands the threshold inquiry set out in
Pickering and later cases. The question is not, as the
majority seems to think, whether the public is, or
should be, interested in a government employee’s
speech. Instead, the question is whether that speech is
about and directed to the workplace—as contrasted
with the broader public square. Treasury Employees
offers the Court’s fullest explanation. The Court held
there that the government’s policy prevented employees from speaking as “citizen[s]” on “matters of public
concern.” 513 U.S., at 466, 115 S.Ct. 1003 (quoting
Pickering, 391 U.S., at 568, 88 S.Ct. 1731). Why?
Because the speeches and articles “were addressed to
a public audience, were made outside the workplace,
and involved content largely unrelated to their Government employment.” 513 U.S., at 466, 115 S.Ct.
1003; see id., at 465, 470, 115 S.Ct. 1003 (repeating
that analysis twice more). The Court could not have
cared less whether the speech at issue was
“important.” Ante, at 2475–2476. It instead asked
whether the speech was truly of the workplace—
addressed to it, made in it, and (most of all) about it.

117a
Consistent with that focus, speech about the terms
and conditions of employment—the essential stuff of
collective bargaining—has never survived Pickering’s
first step. This Court has rejected all attempts by
employees to make a “federal constitutional issue” out
of basic “employment matters, including working conditions, pay, discipline, promotions, leave, vacations,
and terminations.” Guarnieri, 564 U.S., at 391, 131
S.Ct. 2488; see Board of Comm’rs, Wabaunsee Cty. v.
Umbehr, 518 U.S. 668, 675, 116 S.Ct. 2342, 135 L.Ed.2d
843 (1996) (stating that public employees’ speech on
merely private employment matters is unprotected”).
For that reason, even the Justices who originally
objected to Abood conceded that the use of agency fees
for bargaining on “economic issues” like “salaries and
pension benefits” would not raise significant First
Amendment questions. 431 U.S., at 263, n. 16, 97 S.Ct.
1782 (Powell, J., concurring in judgment). Of course,
most of those issues have budgetary consequences:
They “affect[ ] how public money is spent.” Ante, at
2475. And some raise important non-budgetary disputes; teacher merit pay is a good example, see ante,
at 2476. But arguing about the terms of employment
is still arguing about the terms of employment: The
workplace remains both the context and the subject
matter of the expression. If all that speech really
counted as “of public concern,” as the majority suggests, the mass of public employees’ complaints (about
pay and benefits and workplace policy and such) would
become “federal constitutional issue[s].” Guarnieri,
564 U.S., at 391, 131 S.Ct. 2488. And contrary to decades’ worth of precedent, government employers
would then have far less control over their workforces
than private employers do. See supra, at 2491–2493.
Consider an analogy, not involving union fees: Suppose a government entity disciplines a group of (non-

118a
unionized) employees for agitating for a better health
plan at various inopportune times and places. The
better health plan will of course drive up public
spending; so according to the majority’s analysis, the
employees’ speech satisfies Pickering’s “public concern” test. Or similarly, suppose a public employer
penalizes a group of (non-unionized) teachers who
protest merit pay in the school cafeteria. Once again,
the majority’s logic runs, the speech is of “public
concern,” so the employees have a plausible First
Amendment claim. (And indeed, the majority appears
to concede as much, by asserting that the results in
these hypotheticals should turn on various “factual
detail[s]” relevant to the interest balancing that occurs
at the Pickering test’s second step. Ante, at 2477, n.
23.) But in fact, this Court has always understood such
cases to end at Pickering’s first step: If an employee’s
speech is about, in, and directed to the workplace, she
has no “possibility of a First Amendment claim.”
Garcetti, 547 U.S., at 418, 126 S.Ct. 1951; see supra,
at 2492. So take your pick. Either the majority is
exposing government entities across the country to
increased First Amendment litigation and liability—
and thus preventing them from regulating their workforces as private employers could. Or else, when actual
cases of this kind come around, we will discover that
today’s majority has crafted a “unions only” carve-out
to our employee-speech law.
What’s more, the government should prevail even if
the speech involved in collective bargaining satisfies
Pickering’s first part. Recall that the next question is
whether the government has shown “an adequate
justification for treating the employee differently from
any other member of the general public.” Garcetti, 547
U.S., at 418, 126 S.Ct. 1951; supra, at 2492. That
inquiry is itself famously respectful of government

119a
interests. This Court has reversed the government
only when it has tried to “leverage the employment
relationship” to achieve an outcome unrelated to the
workplace’s “effective functioning.” Garcetti, 547 U.S.,
at 419, 126 S.Ct. 1951; Rankin v. McPherson, 483 U.S.
378, 388, 107 S.Ct. 2891, 97 L.Ed.2d 315 (1987).
Nothing like that is true here. As Abood described,
many government entities have found agency fees the
best way to ensure a stable and productive relationship with an exclusive bargaining agent. See 431 U.S.,
at 220–221, 224–226, 97 S.Ct. 1782; supra, at 2488–
2489. And here, Illinois and many governmental amici
have explained again how agency fees advance their
workplace goals. See Brief for State Respondents 12,
36; Brief for Governor Tom Wolf et al. as Amici Curiae
21–33. In no other employee-speech case has this
Court dismissed such work-related interests, as the
majority does here. See supra, at 2489–2491 (discussing the majority’s refusal to engage with the logic of
the State’s position). Time and again, the Court has
instead respected and acceded to those interests—just
as Abood did.
The key point about Abood is that it fit naturally
with this Court’s consistent teaching about the permissibility of regulating public employees’ speech. The
Court allows a government entity to regulate that
expression in aid of managing its workforce to effectively provide public services. That is just what a
government aims to do when it enforces a fair-share
agreement. And so, the key point about today’s
decision is that it creates an unjustified hole in the
law, applicable to union fees alone. This case is sui
generis among those addressing public employee
speech—and will almost surely remain so.

120a
III
But the worse part of today’s opinion is where the
majority subverts all known principles of stare decisis.
The majority makes plain, in the first 33 pages of its
decision, that it believes Abood was wrong.4 But even
if that were true (which it is not), it is not enough.
“Respecting stare decisis means sticking to some
wrong decisions.” Kimble v. Marvel Entertainment,
LLC, 576 U.S. ––––, ––––, 135 S.Ct. 2401, 2409, 192
L.Ed.2d 463 (2015). Any departure from settled
precedent (so the Court has often stated) demands a
“special justification—over and above the belief that
the precedent was wrongly decided.” Id., at ––––, 135
S.Ct., at 2409 (internal quotation marks omitted); see,
e.g., Arizona v. Rumsey, 467 U.S. 203, 212, 104 S.Ct.
2305, 81 L.Ed.2d 164 (1984). And the majority does not
have anything close. To the contrary: all that is
“special” in this case—especially the massive reliance
interests at stake—demands retaining Abood, beyond
even the normal precedent.
Consider first why these principles about precedent
are so important. Stare decisis—“the idea that today’s
Court should stand by yesterday’s decisions”—is “a
foundation stone of the rule of law.” Kimble, 576 U.S.,
at ––––, 135 S.Ct., at 2409 (quoting Michigan v. Bay
Mills Indian Community, 572 U.S. ––––, ––––, 134
S.Ct. 2024, 2036, 188 L.Ed.2d 1071 (2014)). It “promotes the evenhanded, predictable, and consistent
development” of legal doctrine. Payne v. Tennessee,
501 U.S. 808, 827, 111 S.Ct. 2597, 115 L.Ed.2d 720
4

And then, after ostensibly turning to stare decisis, the majority spends another four pages insisting that Abood was “not well
reasoned,” which is just more of the same. Ante, at 2480–2481;
see ante, at 2479–2481.

121a
(1991). It fosters respect for and reliance on judicial
decisions. See ibid. And it “contributes to the actual
and perceived integrity of the judicial process,” ibid.,
by ensuring that decisions are “founded in the law
rather than in the proclivities of individuals,” Vasquez
v. Hillery, 474 U.S. 254, 265, 106 S.Ct. 617, 88 L.Ed.2d
598 (1986).
And Abood is not just any precedent: It is embedded
in the law (not to mention, as I’ll later address, in the
world) in a way not many decisions are. Over four
decades, this Court has cited Abood favorably many
times, and has affirmed and applied its central distinction between the costs of collective bargaining (which
the government can charge to all employees) and those
of political activities (which it cannot). See, e.g., Locke
v. Karass, 555 U.S. 207, 213–214, 129 S.Ct. 798, 172
L.Ed.2d 552 (2009); Lehnert, 500 U.S., at 519, 111
S.Ct. 1950; Teachers v. Hudson, 475 U.S. 292, 301–
302, 106 S.Ct. 1066, 89 L.Ed.2d 232 (1986); Ellis v.
Railway Clerks, 466 U.S. 435, 455–457, 104 S.Ct.
1883, 80 L.Ed.2d 428 (1984). Reviewing those decisions not a decade ago, this Court—unanimously—
called the Abood rule “a general First Amendment
principle.” Locke, 555 U.S., at 213, 129 S.Ct. 798. And
indeed, the Court has relied on that rule when deciding cases involving compelled speech subsidies outside
the labor sphere—cases today’s decision does not
question. See, e.g., Keller v. State Bar of Cal., 496 U.S.
1, 9–17, 110 S.Ct. 2228, 110 L.Ed.2d 1 (1990) (state bar
fees); Board of Regents of Univ. of Wis. System v.
Southworth, 529 U.S. 217, 230–232, 120 S.Ct. 1346,
146 L.Ed.2d 193 (2000) (public university student
fees); Glickman v. Wileman Brothers & Elliott, Inc.,
521 U.S. 457, 471–473, 117 S.Ct. 2130, 138 L.Ed.2d
585 (1997) (commercial advertising assessments); see
also n. 3, supra.

122a
Ignoring our repeated validation of Abood, the
majority claims it has become “an outlier among our
First Amendment cases.” Ante, at 2482. That claim
fails most spectacularly for reasons already discussed:
Abood coheres with the Pickering approach to
reviewing regulation of public employees’ speech. See
supra, at 2492–2494. Needing to stretch further, the
majority suggests that Abood conflicts with “our
political patronage decisions.” Ante, at 2484. But in
fact those decisions strike a balance much like
Abood’s. On the one hand, the Court has enabled governments to compel policymakers to support a political
party, because that requirement (like fees for collective bargaining) can reasonably be thought to advance
the interest in workplace effectiveness. See Elrod v.
Burns, 427 U.S. 347, 366–367, 96 S.Ct. 2673, 49
L.Ed.2d 547 (1976); Branti v. Finkel, 445 U.S. 507,
517, 100 S.Ct. 1287, 63 L.Ed.2d 574 (1980). On the
other hand, the Court has barred governments from
extending that rule to non-policymaking employees
because that application (like fees for political campaigns) can’t be thought to promote that interest, see
Elrod, 427 U.S., at 366, 96 S.Ct. 2673; the government
is instead trying to “leverage the employment relationship” to achieve other goals, Garcetti, 547 U.S., at 419,
126 S.Ct. 1951. So all that the majority has left is Knox
and Harris. See ante, at 2483–2484. Dicta in those
recent decisions indeed began the assault on Abood
that has culminated today. But neither actually
addressed the extent to which a public employer may
regulate its own employees’ speech. Relying on them
is bootstrapping—and mocking stare decisis. Don’t like
a decision? Just throw some gratuitous criticisms into
a couple of opinions and a few years later point to them
as “special justifications.”

123a
The majority is likewise wrong to invoke “workability” as a reason for overruling Abood. Ante, at 2480–
2481. Does Abood require drawing a line? Yes,
between a union’s collective-bargaining activities and
its political activities. Is that line perfectly and
pristinely “precis[e],” as the majority demands? Ante,
at 2480–2481. Well, not quite that—but as exercises of
constitutional linedrawing go, Abood stands well
above average. In the 40 years since Abood, this Court
has had to resolve only a handful of cases raising
questions about the distinction. To my knowledge, the
circuit courts are not divided on any classification
issue; neither are they issuing distress signals of the
kind that sometimes prompt the Court to reverse a
decision. See, e.g., Johnson v. United States, 576
U.S. ––––, –––S.Ct. ––––, ––– L.Ed.2d –––– (2015)
(overruling precedent because of frequent splits and
mass confusion). And that tranquility is unsurprising:
There may be some gray areas (there always are), but
in the mine run of cases, everyone knows the difference between politicking and collective bargaining.
The majority cites some disagreement in two of the
classification cases this Court decided—as if nonunanimity among Justices were something startling.
And it notes that a dissenter in one of those cases
called the Court’s approach “malleable” and “not
principled,” ante, at 2481—as though those weren’t
stock terms in dissenting vocabulary. See, e.g., Murr
v. Wisconsin, 582 U.S. ––––, ––––, 137 S.Ct. 1933,
1950–1951, 198 L.Ed.2d 497 (2017) (ROBERTS, C.J.,
dissenting); Dietz v. Bouldin, 579 U.S. ––––, ––––, 136
S.Ct. 1885, 1897, 195 L.Ed.2d 161 (2016) (THOMAS,
J., dissenting); Alabama Legislative Black Caucus v.
Alabama, 575 U.S. ––––, ––––, 135 S.Ct. 1257, 1281,
191 L.Ed.2d 314 (2015) (Scalia, J., dissenting). As I
wrote in Harris a few Terms ago: “If the kind of hand-

124a
wringing about blurry lines that the majority offers
were enough to justify breaking with precedent, we
might have to discard whole volumes of the U.S.
Reports.” 573 U.S., at ––––, 134 S.Ct., at 2652.
And in any event, one stare decisis factor—
reliance—dominates all others here and demands
keeping Abood. Stare decisis, this Court has held, “has
added force when the legislature, in the public sphere,
and citizens, in the private realm, have acted in
reliance on a previous decision.” Hilton v. South
Carolina Public Railways Comm’n, 502 U.S. 197, 202,
112 S.Ct. 560, 116 L.Ed.2d 560 (1991). That is because
overruling a decision would then “require an extensive
legislative response” or “dislodge settled rights and
expectations.” Ibid. Both will happen here: The Court
today wreaks havoc on entrenched legislative and
contractual arrangements.
Over 20 States have by now enacted statutes
authorizing fair-share provisions. To be precise, 22
States, the District of Columbia, and Puerto Rico—
plus another two States for police and firefighter
unions. Many of those States have multiple statutory
provisions, with variations for different categories of
public employees. See, e.g., Brief for State of California
as Amicus Curiae 24–25. Every one of them will now
need to come up with new ways—elaborated in new
statutes—to structure relations between government
employers and their workers. The majority responds,
in a footnote no less, that this is of no proper concern
to the Court. See ante, at 2485, n. 27. But in fact, we
have weighed heavily against “abandon[ing] our
settled jurisprudence” that “[s]tate legislatures have
relied upon” it and would have to “reexamine [and
amend] their statutes” if it were overruled. Allied–
Signal, Inc. v. Director, Div. of Taxation, 504 U.S. 768,

125a
785, 112 S.Ct. 2251, 119 L.Ed.2d 533 (1992); Hilton,
502 U.S., at 203, 112 S.Ct. 560.
Still more, thousands of current contracts covering
millions of workers provide for agency fees. Usually,
this Court recognizes that “[c]onsiderations in favor of
stare decisis are at their acme in cases involving property and contract rights.” Payne, 501 U.S., at 828, 111
S.Ct. 2597. Not today. The majority undoes bargains
reached all over the country.5 It prevents the parties
from fulfilling other commitments they have made
based on those agreements. It forces the parties—
immediately—to renegotiate once-settled terms and
create new tradeoffs. It does so knowing that many of
the parties will have to revise (or redo) multiple
contracts simultaneously. (New York City, for example, has agreed to agency fees in 144 contracts with 97
public-sector unions. See Brief for New York City
Municipal Labor Committee as Amicus Curiae 4.) It
does so knowing that those renegotiations will occur in
an environment of legal uncertainty, as state governments scramble to enact new labor legislation. See
supra, at 2472. It does so with no real clue of what will
happen next—of how its action will alter public-sector
labor relations. It does so even though the government
services affected—policing, firefighting, teaching,
transportation, sanitation (and more)—affect the
quality of life of tens of millions of Americans.
The majority asserts that no one should care much
because the canceled agreements are “of rather short
duration” and would “expire on their own in a few
5

Indeed, some agency-fee provisions, if canceled, could bring
down entire contracts because they lack severability clauses. See
ante, at 2485 (noting that unions could have negotiated for that
result); Brief for Governor Tom Wolf et al. as Amici Curiae 11.

126a
years’ time.” Ante, at 2484, 2485. But to begin with,
that response ignores the substantial time and effort
that state legislatures will have to devote to revamping their statutory schemes. See supra, at 2472. And
anyway, it misunderstands the nature of contract
negotiations when the parties have a continuing
relationship. The parties, in renewing an old
collective-bargaining agreement, don’t start on an
empty page. Instead, various “long-settled” terms—
like fair-share provisions—are taken as a given. Brief
for Governor Tom Wolf et al. 11; see Brief for New York
City Sergeants Benevolent Assn. as Amicus Curiae 18.
So the majority’s ruling does more than advance by a
few years a future renegotiation (though even that
would be significant). In most cases, it commands new
bargaining over how to replace a term that the parties
never expected to change. And not just new bargaining; given the interests at stake, complicated and
possibly contentious bargaining as well. See Brief for
Governor Tom Wolf et al. 11.6
The majority, though, offers another reason for not
worrying about reliance: The parties, it says, “have
been on notice for years regarding this Court’s misgivings about Abood.” Ante, at 2484. Here, the majority
proudly lays claim to its 6–year crusade to ban agency
fees. In Knox, the majority relates, it described Abood
6

In a single, cryptic sentence, the majority also claims that
arguments about reliance “based on [Abood’s] clarity are misplaced” because Abood did not provide a “clear or easily applicable standard” to separate fees for collective bargaining from those
for political activities. Ante, at 2484–2485. But to begin, the
standard for separating those activities was clear and workable,
as I have already shown. See supra, at 2498–2499. And in any
event, the reliance Abood engendered was based not on the clarity
of that line, but on the clarity of its holding that governments and
unions could generally agree to fair-share arrangements.

127a
as an “anomaly.” Ante, at 2484 (quoting 567 U.S., at
311, 132 S.Ct. 2277). Then, in Harris, it “cataloged
Abood’s many weaknesses.” Ante, at 2484. Finally, in
Friedrichs, “we granted a petition for certiorari asking
us to” reverse Abood, but found ourselves equally
divided. Ante, at 2485. “During this period of time,” the
majority concludes, public-sector unions “must have
understood that the constitutionality of [an agencyfee] provision was uncertain.” Ibid. And so, says the
majority, they should have structured their affairs
accordingly.
But that argument reflects a radically wrong understanding of how stare decisis operates. Justice Scalia
once confronted a similar argument for “disregard[ing]
reliance interests” and showed how antithetical it was
to rule-of-law principles. Quill Corp. v. North Dakota,
504 U.S. 298, 320, 112 S.Ct. 1904, 119 L.Ed.2d 91
(1992) (concurring opinion). He noted first what we
always tell lower courts: “If a precedent of this Court
has direct application in a case, yet appears to rest on
reasons rejected in some other line of decisions, [they]
should follow the case which directly controls, leaving
to this Court the prerogative of overruling its own
decisions.” Id., at 321, 112 S.Ct. 1904 (quoting
Rodriguez de Quijas v. Shearson/American Express,
Inc., 490 U.S. 477, 484, 109 S.Ct. 1917, 104 L.Ed.2d
526 (1989); some alterations omitted). That instruction, Justice Scalia explained, was “incompatible” with
an expectation that “private parties anticipate our
overrulings.” 504 U.S., at 320, 112 S.Ct. 1904. He
concluded: “[R]eliance upon a square, unabandoned
holding of the Supreme Court is always justifiable
reliance.” Ibid. Abood’s holding was square. It was
unabandoned before today. It was, in other words, the
law—however much some were working overtime to
make it not. Parties, both unions and governments,

128a
were thus justified in relying on it. And they did rely,
to an extent rare among our decisions. To dismiss the
overthrowing of their settled expectations as entailing
no more than some “adjustments” and “unpleasant
transition costs,” ante, at 2485, is to trivialize stare
decisis.
IV
There is no sugarcoating today’s opinion. The majority overthrows a decision entrenched in this Nation’s
law—and in its economic life—for over 40 years. As a
result, it prevents the American people, acting
through their state and local officials, from making
important choices about workplace governance. And it
does so by weaponizing the First Amendment, in a way
that unleashes judges, now and in the future, to intervene in economic and regulatory policy.
Departures from stare decisis are supposed to be
“exceptional action[s]” demanding “special justification,” Rumsey, 467 U.S., at 212, 104 S.Ct. 2305—but
the majority offers nothing like that here. In contrast
to the vigor of its attack on Abood, the majority’s
discussion of stare decisis barely limps to the finish
line. And no wonder: The standard factors this Court
considers when deciding to overrule a decision all cut
one way. Abood’s legal underpinnings have not eroded
over time: Abood is now, as it was when issued, consistent with this Court’s First Amendment law. Abood
provided a workable standard for courts to apply. And
Abood has generated enormous reliance interests. The
majority has overruled Abood for no exceptional or
special reason, but because it never liked the decision.
It has overruled Abood because it wanted to.
Because, that is, it wanted to pick the winning side
in what should be—and until now, has been—an

129a
energetic policy debate. Some state and local governments (and the constituents they serve) think that
stable unions promote healthy labor relations and
thereby improve the provision of services to the public.
Other state and local governments (and their constituents) think, to the contrary, that strong unions impose
excessive costs and impair those services. Americans
have debated the pros and cons for many decades—in
large part, by deciding whether to use fair-share
arrangements. Yesterday, 22 States were on one side,
28 on the other (ignoring a couple of in-betweeners).
Today, that healthy—that democratic—debate ends.
The majority has adjudged who should prevail.
Indeed, the majority is bursting with pride over what
it has accomplished: Now those 22 States, it crows,
“can follow the model of the federal government and
28 other States.” Ante, at 2485, n. 27.
And maybe most alarming, the majority has chosen
the winners by turning the First Amendment into a
sword, and using it against workaday economic and
regulatory policy. Today is not the first time the Court
has wielded the First Amendment in such an aggressive way. See, e.g., National Institute of Family and
Life Advocates v. Becerra, ante, p. ––––, ––– U.S. ––––,
138 S.Ct. 2361, 138 L.Ed.2d 2361, 2018 WL 3116336
(2018) (invalidating a law requiring medical and
counseling facilities to provide relevant information to
users); Sorrell v. IMS Health Inc., 564 U.S. 552, 131
S.Ct. 2653, 180 L.Ed.2d 544 (2011) (striking down a
law that restricted pharmacies from selling various
data). And it threatens not to be the last. Speech is
everywhere—a part of every human activity (employment, health care, securities trading, you name it). For
that reason, almost all economic and regulatory policy
affects or touches speech. So the majority’s road runs
long. And at every stop are black-robed rulers overrid-

130a
ing citizens’ choices. The First Amendment was meant
for better things. It was meant not to undermine but
to protect democratic governance—including over the
role of public-sector unions.

131a
APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
————
No. 16-3638
————
MARK JANUS and BRIAN TRYGG,
Plaintiffs-Appellants,
v.
AMERICAN FEDERATION OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES, COUNCIL 31, et al.,
Defendants-Appellees,
and
LISA MADIGAN, Attorney General
of the State of Illinois,
Intervening Defendant-Appellee.
————
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 15 C 1235 – Robert W. Gettleman, Judge.
————
Argued March 1, 2017
Decided March 21, 2017
————
Before POSNER, SYKES, and HAMILTON, Circuit
Judges.
POSNER, Circuit Judge. In Abood v. Detroit Board
of Education, 431 U.S. 209 (1977), the Supreme Court

132a
upheld, against a challenge based on the First Amendment, a Michigan law that allowed a public employer
(in that case a municipal board of education), whose
employees (public-school teachers) were represented
by a union, to require those of its employees who did
not join the union nevertheless to pay fees to it because
they benefited from the union’s collective bargaining
agreement with the employer. The fees could only be
great enough to cover the cost of the union’s activities
that benefited them; they could not be expanded to
enable the union to use a portion of them “for the
expression of political views, on behalf of political candidates, or toward the advancement of other ideological causes not germane to [the union’s] duties as
collective-bargaining representative.” 431 U.S. at 235–
36. For were that permitted, the workers who disagreed with the political views embraced by the union
would be unwilling contributors to expenditures for
promoting political views anathema to them, and the
law requiring those contributions would thereby have
infringed their constitutional right of free speech.
Illinois has a law, similar to the Michigan law, called
the Illinois Public Relations Act, 5 ILCS 315 et seq.,
under which a union representing public employees
collects dues from its members, but only “fair share”
fees (a proportionate share of the costs of collective
bargaining and contract administration) from nonmember employees on whose behalf the union also
negotiates. See 5 ILCS 315/6. But in 2015 the governor
of Illinois filed suit in federal district court to halt the
unions’ collecting these fees, his ground being that the
statute violates the First Amendment by compelling
employees who disapprove of the union to contribute
money to it.

133a
The district court dismissed the governor’s complaint, however, on the ground that he had no standing to sue because he had nothing to gain from eliminating the compulsory fees, as he is not subject to
them. But two public employees—Mark Janus and
Brian Trygg—had already moved to intervene in the
suit as plaintiffs seeking the overruling of Abood. Of
course, only the Supreme Court has the power, if it
so chooses, to overrule Abood. Janus and Trygg
acknowledge that they therefore cannot prevail either
in the district court or in our court—that their case
must travel through both lower courts—district court
and court of appeals—before they can seek review by
the Supreme Court.
While dismissing the governor’s complaint for lack
of standing, the district court granted the employees’
motion to intervene and declared that the complaint
appended to their motion would be a valid substitute
for Governor Rauner’s dismissed complaint. Technically, of course, there was nothing for Janus and Trygg
to intervene in, given the dismissal of the governor’s
complaint. But to reject intervention by Janus and
Trygg on that ground would be a waste of time, for if
forbidden to intervene the two of them would simply
file their own complaint when Rauner’s was dismissed.
As there would be no material difference between
intervening in Rauner’s suit and bringing their own
suit in the same court, the efficient approach was, as
the district court ruled, to deem Rauner’s suit superseded by a motion to intervene that was the equivalent
of the filing of a new suit. See Village of Oakwood v.
State Bank & Trust Co., 481 F.3d 364, 367 (6th Cir.
2007).
But we need to distinguish between the two plaintiffs, Janus and Trygg, because while Janus has never

134a
before challenged the requirement that he pay the
union “fair share” fees, Trygg has. First before the
Illinois Labor Relations Board and then before the
Illinois Appellate Court, Trygg complained that the
union bargaining on his behalf (the Teamsters Local
No. 916, one of the defendants in this case) was
ignoring a provision of the Illinois law that allows a
person who has religious objections to paying a fee to
a union to instead pay the fee to a charity. 5 ILCS 3156(g). The Illinois court agreed, and on remand to the
Board Trygg obtained the relief he sought: instead of
paying the fair-share fee to the union, he could pay the
same amount to a charity of his choice. The defendants
(the unions that bargain on behalf of Janus and Trygg,
respectively—AFSCME for Janus, the Teamsters for
Trygg—the Director of the Illinois Department of
Central Management Services, which is the state
agency that has collective bargaining agreements with
both unions; and the Attorney General of Illinois
intervening on the side of the defendants) argue that
Trygg’s claim in the present suit is precluded by his
earlier litigation.
Claim preclusion is designed to prevent multiple
lawsuits between the same parties where the facts and
issues are the same in all of the suits, and 28 U.S.C.
§ 1738 requires federal courts to give the same preclusive effect to a state court judgment that it would be
given by the courts of the state in question. Kremer
v. Chemical Construction Corp., 456 U.S. 461, 466
(1982). Trygg’s First Amendment claim and his earlier
Illinois statutory claim arise from the same fact: the
existence of an Illinois law requiring that he pay fees
to the Teamsters, the union required to bargain on his
behalf. But the parties disagree as to whether Trygg
could have raised his First Amendment claim in the
earlier litigation. It’s true that the Illinois Labor Rela-

135a
tions Board could not have entertained a constitutional challenge to the statute, but Trygg could have
included the claim in his appeal from the Board’s
decision to the court, because it presented an issue
relevant to the legality of the Board’s action. See Reich
v. City of Freeport, 527 F.2d 666, 671–72 (7th Cir.
1975). He did not do so; and because he had a “full and
fair opportunity” to do so, he is precluded by Illinois
law from litigating the claim in the present suit. See
Abner v. Illinois Department of Transportation, 674
F.3d 716, 719 (7th Cir. 2012). He missed his chance.
Janus’s claim was also properly dismissed, though
on a different ground: that he failed to state a valid
claim because, as we said earlier, neither the district
court nor this court can overrule Abood, and it is Abood
that stands in the way of his claim.
The judgment of the district court dismissing the
complaint is therefore
AFFIRMED.

136a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
[September 13, 2016]
————
MARK JANUS and BRIAN TRYGG,
Plaintiff,
v.
AMERICAN FEDERATION OF STATE,
COUNTY, AND MUNICIPAL EMPLOYEES,
COUNCIL 31; GENERAL TEAMSTERS/
PROFESSIONAL & TECHNICAL EMPLOYEES
LOCAL UNION NO. 916; MICHAEL HOFFMAN,
Director of the Illinois Department of Central
Management Services, in his official capacity,
Defendants.
and
LISA MADIGAN, Attorney General of the
State of Illinois,
Intervenor-Defendant.
————
ORDER
Plaintiffs Mark Janus and Brian Trygg have
brought a second amended complaint challenging the
constitutionality of the compulsory collection of union
fees under the Illinois Public Labor Relations Act
(“IPLRA”), 52 ILCS 315/6. Defendants have moved to
dismiss, arguing that the case is controlled by the
Supreme Court’s decision in Abood v. Detroit Board of
Education, 431 U.S. 209 (1977), which upheld the con-

137a
stitutionality of such assessments. Plaintiffs brought
the suit hoping that Abood would be reversed in a
matter then pending before the Supreme Court in
which the continued validity of Abood was challenged.
Friedrichs v. California Teachers Association, __ U.S.
__, 136 S.Ct. 1083 (2016). In Friedrichs an equally
divided Supreme Court affirmed the Ninth Circuit’s
decision upholding fair share fees based on the reasoning in Abood. Id. As a result, Abood remains valid and
binding precedent.
Plaintiffs continue to argue that Abood was wrongly
decided, but recognize that it remains controlling in
the instant case. Consequently, defendants’ motion to
dismiss (Doc. 146) is granted.
ENTER: September 13, 2016
/s/ Robert W. Gettleman
Robert W. Gettleman
United States District Judge

138a
APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
————
No. 19-1553
————
MARK JANUS,
Plaintiff-Appellant,
v.
AMERICAN FEDERATION OF STATE, COUNTY AND
MUNICIPAL EMPLOYEES, COUNCIL 31; AFL-CIO, et al.,
Defendants-Appellees.
————
Appeal from the United States District Court
for the Northern District of Illinois, Eastern Division.
No. 1:15-cv-01235 – Robert W. Gettleman, Judge.
————
Before
DIANE P. WOOD, Chief Judge
DANIEL A. MANION, Circuit Judge
ILANA D. ROVNER, Circuit Judge
————
December 12, 2019
————
ORDER
————

139a
Plaintiff-appellant filed a petition for rehearing and
rehearing en banc on November 19, 2019. No judge1 in
regular active service has requested a vote on the
petition for rehearing en banc, and all members of the
original panel have voted to deny panel rehearing. The
petition for rehearing en banc is therefore DENIED.

1

Judge Joel M. Flaum did not participate in the consideration
of this matter.

